<html>
<title> - OFFSHORE AQUACULTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                         OFFSHORE AQUACULTURE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, September 9, 2009

                               __________

                           Serial No. 111-33

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      


                  U.S. GOVERNMENT PRINTING OFFICE
52-311                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 9, 2009.....................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     2
        Prepared statement of....................................     4
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, Prepared statement of.......................   115

Statement of Witnesses:
    Alverson, Robert D., Manager, Fishing Vessel Owners' 
      Association................................................    95
        Prepared statement of....................................    97
        Response to questions submitted for the record...........    99
    Balsiger, James W., Ph.D., Acting Assistant Administrator for 
      Fisheries, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................     7
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    12
    Cox, William A., Vice Chairman, South Carolina Seafood 
      Alliance (SCSA)............................................    83
        Prepared statement of....................................    85
        Letter submitted for the record..........................    87
        Response to questions submitted for the record...........    89
    Hinman, Ken, President, National Coalition for Marine 
      Conservation...............................................    56
        Prepared statement of....................................    58
        Ecological Reference Points for Atlantic Menhaden........    62
    Leonard, George H., Ph.D., Director, Aquaculture Program, 
      Ocean Conservancy..........................................    45
        Prepared statement of....................................    48
    Sims, Neil Anthony, Co-Founder and CEO, Kona Blue Water 
      Farms, Inc., and President, Ocean Stewards Institute, 
      Kailua-Kona, Hawaii........................................    75
        Prepared statement of....................................    77
    Sutton, Michael, Vice President, Monterey Bay Aquarium, and 
      Member, California Fish and Game Commission................    19
        Prepared statement of....................................    21
    Vinsel, Mark, Executive Director, United Fishermen of Alaska.    66
        Prepared statement of....................................    68
        Response to questions submitted for the record...........    70

Additional materials supplied:
    Henderson, Margaret, Vice President, Government Affairs, 
      National Fisheries Institute, Letter submitted for the 
      record.....................................................     5
    List of documents retained in the Committee's official files.   117
    MacMillan, John R., Ph.D., President, National Aquaculture 
      Association, Letter submitted for the record...............   116
    Rheault, Robert B., Ph.D., Executive Director, East Coast 
      Shellfish Growers Association, Letter submitted for the 
      record.....................................................   118
    Scientists, Fisheries Managers, and Industry Representatives, 
      Letter submitted for the record............................   119
                                     



               OVERSIGHT HEARING ON OFFSHORE AQUACULTURE

                              ----------                              


                      Wednesday, September 9, 2009

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:08 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Faleomavaega, Sablan, 
Capps, Shea-Porter, Brown, and Cassidy.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. The oversight hearing by the Subcommittee on 
Insular Affairs, Oceans, and Wildlife will now come to order.
    Today we will hear testimony concerning a comprehensive 
Federal permitting and regulatory system for offshore 
aquaculture. Under Committee Rule 4[g] the Chairwoman and the 
Ranking Minority Member will make opening statements.
    Approximately 80 percent of seafood consumed in the United 
States is imported, and half of those imports come from 
aquaculture. Offshore aquaculture, or the propagation and the 
rearing of marine species in the U.S. Exclusive Economic Zone, 
could increase domestic seafood production, as well as provide 
new employment opportunities for coastal communities that 
currently rely on declining wild fisheries.
    However, offshore aquaculture is a young and untested 
industry, and has the potential to harm the marine environment 
and native fish populations, as well as conflict with other 
ocean uses. Given the scientific uncertainty over the potential 
impacts from offshore aquaculture, a comprehensive national 
offshore aquaculture regulatory framework with stringent 
environmental standards is needed to provide the certainty and 
the environmental safeguards necessary to sustainably guide 
this use in Federal waters.
    A comprehensive approach, however, may be easier said than 
done. Last week the Gulf of Mexico Regional Fishery Management 
Council's Aquaculture Fishery Management Plan, which would 
create a regional, fragmented approach to offshore aquaculture 
regulation, took effect with the tacit approval of NOAA and the 
Secretary of Commerce. Many Members of Congress, including 
myself, had urged disapproval of the plan because of the risks 
of this piecemeal approach and the clear lack of authority to 
regulate offshore aquaculture through the Magnuson-Stevens 
Fishery Conservation and Management Act.
    Plainly, offshore aquaculture is not fishing and it makes 
no sense to regulate it as such. Still, the plan has now been 
approved with a promise from NOAA to develop a national 
aquaculture policy that may or may not be consistent with the 
Gulf plan. One has to wonder, then, why the agency would let 
the plan go forward if it is committed to a comprehensive 
approach as a national policy would imply.
    So I look forward to hearing from them on that point today, 
and from all the other witnesses regarding the necessary 
components of a comprehensive Federal regulatory framework that 
should be in place before offshore aquaculture development 
takes place. And I will appreciate their recommendations on how 
offshore aquaculture can be conducted responsibly, balancing 
both the commercial and environmental concerns.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Approximately eighty percent of seafood consumed in the United 
States is imported, and half of those imports come from aquaculture. 
Offshore aquaculture, or the propagation and rearing or marine species 
in the U.S. Exclusive Economic Zone, could increase domestic seafood 
production as well as provide new employment opportunities for coastal 
communities that currently rely on declining wild fisheries.
    However, offshore aquaculture is a young, untested industry and has 
the potential to harm the marine environment and native fish 
populations, as well as conflict with other ocean uses. Given the 
scientific uncertainty over the potential impacts from offshore 
aquaculture, a comprehensive, national offshore aquaculture regulatory 
framework with stringent environmental standards is needed to provide 
the certainty and environmental safeguards necessary to sustainably 
guide this use in federal waters.
    A comprehensive approach, however, may be easier said than done. 
Last week, the Gulf of Mexico Regional Fishery Management Council's 
aquaculture fishery management plan--which would create a regional, 
fragmented approach to offshore aquaculture regulation--took effect 
with the tacit approval of NOAA and the Secretary of Commerce. Many 
Members of Congress, including myself, had urged disapproval of the 
plan because of the risks of this piecemeal approach and the clear lack 
of authority to regulate offshore aquaculture through the Magnuson-
Stevens Fishery Conservation and Management Act. Plainly, offshore 
aquaculture is not fishing, and it makes no sense to regulate it as 
such.
    Still, the plan has now been approved with a promise from NOAA to 
develop a national aquaculture policy that may or may not be consistent 
with the Gulf plan. One has to wonder, then, why the agency would let 
the plan go forward if it is committed to a comprehensive approach as a 
``national policy'' would imply.
    I look forward to hearing from them on that point today and from 
all the other witnesses regarding the necessary components of a 
comprehensive, federal regulatory framework that should be in place 
before offshore aquaculture development takes place, and I appreciate 
their recommendations on how offshore aquaculture can be conducted 
responsibly, balancing both commercial and environmental concerns.
                                 ______
                                 
    Ms. Bordallo. And now as Chairwoman, I recognize the 
Ranking Republican Member of the Subcommittee on Insular 
Affairs, Wildlife, and Oceans for any statement he may have. 
The gentleman from South Carolina, Mr. Brown.

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madam Chair. I appreciate you holding 
this hearing today, and I thank all the witnesses for traveling 
to be with us here today. I would like to especially thank Bill 
Cox, who traveled from South Carolina's Lowcountry to be here 
with us today and to represent all the hardworking fishermen of 
coastal South Carolina.
    Today we will certainly hear the statistics that more than 
80 percent of the seafood consumed in the United States is 
imported. While we have heard this statistic for a number of 
years now, we have done nothing about it. In addition, the 
amount of seafood consumed per capita in the U.S. has slowly 
risen and the domestic fishing industry is unlikely to be able 
to meet this demand. With the creation of a Federal program to 
permit offshore aquaculture, we have an opportunity to create 
jobs and to reduce our dependence on imported seafood, which is 
often either harvested or farm raised under conditions that 
would not meet U.S. environmental standards.
    By developing an environmentally sound aquaculture program, 
we could reduce our dependence on foreign seafood and provide 
an economic boost to some of our coastal communities. Offshore 
aquaculture is clearly not going to be welcome everywhere in 
the U.S., but there are some regions of the country where there 
is interest in this new industry. If this new industry is 
likely to be successful, clear guidelines and permitting 
authorities must be developed. The hodgepodge of permitting 
agencies and environmental regulations will not help create a 
stable regulatory structure that business needs to make 
economic decisions.
    I understand there are several witnesses that we will hear 
from today who have serious concerns about the development of 
offshore aquaculture authorization legislation. I respect their 
concerns, but I am also concerned that, to meet all of their 
criteria, legislation would be so restrictive or complicated 
that no offshore aquaculture industry would ever be possible. I 
am not sure this is a reasonable option.
    Madam Chair, offshore aquaculture could provide an outlet 
for commercial fishermen who have been regulated out of 
business. I understand the two jobs are different and not all 
displaced commercial fishermen would like to get into the 
aquaculture industry, but some may be interested in continuing 
to work on the water, and a new offshore aquaculture industry 
could provide such an outlet. And while this Committee has not 
dealt with the issue of food security, a number of other 
Congressional committees are writing legislation dealing with 
how the United States can ensure that food imports are safe.
    A domestic aquaculture industry would be a step in the 
right direction to ensure that a larger portion of our seafood 
is safe and healthy for the consumer. As I mentioned before, 
the concerns over the environmental effects of offshore 
aquaculture cannot be ignored, but at the same time we cannot 
write legislation or require legislation that is so stringent 
that no offshore aquaculture would ever be possible. There 
needs to be a realistic balance, and I hope all of our 
witnesses will agree on that point, even if we disagree on what 
that balance may be.
    Finally, I understand that many commercial fishermen are 
concerned about the possibility that a domestic aquaculture 
industry could erode their share of the U.S. market, or could 
severely impact the price they get for their fish. The Gulf and 
South Atlantic shrimp fisheries and the Alaskan salmon 
fisheries are clearly examples of this concern. I have to 
believe that if we are importing 80 percent of our seafood 
needs, there is a role for a domestic aquaculture industry.
    How we as policymakers deal with the effects of the wild 
harvest industry is critical. I look forward to working with 
the commercial industry as we address this concern. Madam 
Chair, as I mentioned, we have a problem with the level of 
foreign seafood imports, and we need to do something to keep 
our competitive edge in our own seafood market. Having said 
that, there are a number of difficult issues we need to address 
in any legislation which comes out of this Subcommittee. I 
would like to work with you, if and when you decide to develop 
legislation.
    Before I close, I would like to ask unanimous consent to 
submit a letter from the National Fisheries Institute.
    Ms. Bordallo. No objection. So ordered.
    Mr. Brown. Thank you, Madam Chair. I yield back.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
      Member, Subcommittee on Insular Affairs, Oceans and Wildlife

    Madam Chair, I appreciate you holding this hearing. I thank all the 
witnesses for traveling to be with us here today. I would like to 
especially thank Bill Cox who traveled from South Carolina's Lowcountry 
to be here with us today to represent all the hard working fishermen of 
coastal South Carolina
    Today, we will certainly hear the statistic that more than 80 
percent of the seafood consumed in the United States is imported. While 
we have heard this statistic for a number of years now, we have done 
nothing about it. In addition, the amount of seafood consumed per 
capita in the U.S. has slowly risen and the domestic fishing industry 
in unlikely to be able to meet this demand.
    With the creation of a Federal program to permit offshore 
aquaculture, we have an opportunity to create jobs and to reduce our 
dependence on imported seafood--which is often either harvested or 
farm-raised under conditions that would not meet U.S. environmental 
standards. By developing an environmentally-sound aquaculture program, 
we can reduce our dependence on foreign seafood and provide an economic 
boost to some of our coastal communities. Offshore aquaculture is 
clearly not going to be welcomed everywhere in the U.S. but there are 
some regions of the country where there is interest in this new 
industry. If this new industry is likely to be successful, clear 
guidelines and permitting authorities must be developed. A hodgepodge 
of permitting agencies and environmental regulations will not help 
create a stable regulatory structure that businesses need to make 
economic decisions.
    I understand there are several witnesses that we will hear from 
today who have serious concerns about the development of offshore 
aquaculture authorization legislation. I respect their concerns but I 
am also concerned that to meet all of their criteria, legislation would 
be so restrictive or complicated that no offshore aquaculture industry 
would ever be possible. I'm not sure that is a reasonable option.
    Madam Chair, offshore aquaculture could provide an outlet for 
commercial fishermen who have been regulated out of business. I 
understand the two jobs are different and not all displaced commercial 
fishermen are likely to want to get into the aquaculture industry, but 
some may be interested in continuing to work on the water and a new 
offshore aquaculture industry could provide such an outlet.
    And while this Committee has not dealt with the issue of food 
security, a number of other Congressional committees are writing 
legislation dealing with how the United States can ensure that food 
imports are safe. A domestic aquaculture industry would be a step in 
the right direction to ensuring that a larger portion of our seafood 
was safe and healthy for the consumer.
    As I mentioned before, the concerns over the environmental effects 
of offshore aquaculture cannot be ignored. But at the same time, we 
cannot write legislation or require regulations that are so stringent 
that no offshore aquaculture will ever be possible. There needs to be a 
realistic balance and I hope all of our witnesses will agree on that 
point even if we disagree on what that balance may be.
    Finally, I understand that many commercial fishermen are concerned 
about the possibility that a domestic aquaculture industry could erode 
their share of the U.S. market or could severely impact the price they 
get for their fish. The Gulf and South Atlantic shrimp fishery and the 
Alaska salmon fishery are clear examples of this concern. However, I 
have to believe that if we are importing 80 percent of our seafood 
needs, there is a role for a domestic aquaculture industry. How we, as 
policy makers, deal with the effect on the wild harvest industry is 
critical. I look forward to working with the commercial industry to see 
how we address this concern.
    Madam Chair, as I mentioned, we have a problem with the level of 
foreign seafood imports and we need to do something to keep our 
competitive edge in our own seafood market. Having said that, there are 
a number of difficult issues we need to address in any legislation 
which comes out of this Subcommittee. I would like to work with you if, 
and when, you decide to develop legislation.
    Before I close, I would like to ask unanimous consent to submit a 
letter from the National Fisheries Institute.
    Thank you, Madam Chair.
                                 ______
                                 

                                     

    [The letter from the National Fisheries Institute submitted 
for the record by Mr. Brown follows:]

[GRAPHIC] [TIFF OMITTED] T2311.003

[GRAPHIC] [TIFF OMITTED] T2311.004

    .epsMs. Bordallo. I thank the gentleman from South Carolina 
for his opening remarks. And before I recognize our first 
panel, I would like to recognize Representative Cassidy from 
Louisiana for joining us this morning, and to invite those 
persons that are standing in the back of the room to please 
come forward and take these seats at the lower table here. This 
hearing may go on for quite some time. Thank you very much.
    Our witnesses on the first panel this morning include Dr. 
James Balsiger, the Acting Assistant Administrator for 
Fisheries at the National Oceanic and Atmospheric 
Administration, and Mr. Michael Sutton, Commissioner of the 
California Fish and Game Commission.
    As we begin, gentlemen, I would note for the witnesses that 
the red timing light on the table will indicate when five 
minutes has passed and your time has concluded. We would 
appreciate your cooperation in complying with these limits. Be 
assured that your full written statement will be submitted for 
the hearing record. At this point, I would like to recognize 
Dr. Balsiger. And it is regretful that Administrator Lubchenco 
could not be here with us today, but I do appreciate that you 
have taken the time to come here and represent the 
Administration's position. So please begin with your testimony.

STATEMENT OF JAMES BALSIGER, ACTING ASSISTANT ADMINISTRATOR FOR 
          FISHERIES, NATIONAL MARINE FISHERIES SERVICE

    Dr. Balsiger. Thank you very much, Chairwoman Bordallo, 
Members of the Subcommittee. Thank you for inviting me to 
testify on the issue of offshore aquaculture in the United 
States. I am Jim Balsiger, I am the Acting Assistant 
Administrator for NOAA Fisheries.
    Within the Department of Commerce, NOAA is one of the 
primary Federal agencies charged with addressing U.S. 
aquaculture. Other components of the Department also have an 
interest in aquaculture from the perspective of seafood, 
industry investments from jobs, from trade concerns, and 
contribution to the U.S. economy. NOAA has a comprehensive 
approach to aquaculture that addresses farming of marine 
shellfish, fin fish, algae, as well as hatchery stock 
replenishment of commercial, recreational, and endangered 
species, and stock replenishment for habitat restoration.
    Ms. Bordallo. Doctor, could you put the microphone a little 
bit closer to you so we can hear? Is it moveable?
    Dr. Balsiger. I can lean forward, Ma'am.
    Ms. Bordallo. Thank you, thank you, Doctor.
    Dr. Balsiger. NOAA works with stakeholders and interest 
groups of environmental, economic, and social sustainability as 
integral to the agency's broad approach to aquaculture. In 
recent years the agency's focus has been to develop guidance 
and scientific knowledge that contributes to well informed, 
science based management of aquaculture activities within the 
context of NOAA's broader marine management, protection, and 
regulatory missions.
    An increased healthy, safe, local seafood supply that 
complements wild catches creates jobs in U.S. coastal 
communities and sustains working waterfronts. It also allows 
for the restoration of depleted marine species, including 
important commercial and recreational fisheries such as salmon 
and Alaska king crab, and habitats such as native oyster 
restoration. In addition, NOAA has worked to address 
aquaculture in four key areas that include environmental and 
policy issues, science, the NOAA-U.S. Department of Agriculture 
Alternative Feeds Initiative, and aquatic animal health.
    Worldwide aquaculture is a $70 billion per year enterprise. 
The annual U.S. seafood trade deficit, second only to oil in 
the natural resources category, has grown to $9.4 billion. Even 
with modest gains in domestic seafood supply, the United States 
will remain a net importer of seafood in the near term since 
more than 80 percent of the seafood consumed in this country is 
imported. About half of what we import from other countries is 
farmed.
    Currently, U.S. aquaculture is a small but vibrant industry 
that supplies about 5 percent of our national seafood. Total 
U.S. aquaculture production is approximately $1.2 billion 
annually, or just 1.5 percent of total global production. 
Approximately 20 percent of the U.S. aquaculture production is 
marine species, the rest is from freshwater species.
    In the absence of a national approach that enables 
sustainable domestic aquaculture, the United States will likely 
continue increasing imports from potentially unreliable foreign 
sources. We will also suffer the continued loss of jobs and 
livelihoods that have made our coastal communities unique. 
Promoting and enabling sustainable aquaculture here at home 
makes good sense.
    NOAA is the primary Federal authority for offshore marine 
aquaculture, which has long been interpreted to be encompassed 
by the Magnuson-Stevens Act's definition of fishing. While the 
U.S. Army Corps of Engineers and the Environmental Protection 
Agency have some regulatory authority over citing and 
monitoring the water quality impacts of offshore aquaculture 
operations, and the U.S. Food and Drug Administration has the 
regulatory authority over the safety of aquaculture products, 
NOAA has the mandate, technical expertise, and appropriate 
infrastructure to ensure such operations adequately safeguard 
our nation's living marine resources.
    On September 3rd, 2009, the first regional permitting 
program for offshore marine aquaculture took effect in the Gulf 
of Mexico under the Magnuson-Stevens Act. As we work to create 
a national policy, the Department of Commerce did not believe 
it was prudent to take action on the fishery management plan 
for regulating offshore marine aquaculture in the Gulf at this 
time.
    Under the Magnuson-Stevens Act, if the Secretary does not 
notify the Council within a certain time period that he has 
approved, partially approved or disapproved this action, the 
statute provides that the fishery management plan shall take 
effect as if approved. Because the statutory period passed 
without Secretarial action, the fishery management plan has 
entered into effect by operation of law.
    Implementing regulations will need to be published before 
any aquaculture projects can take place in the Gulf of Mexico. 
The plan, which was developed by the Gulf of Mexico Fishery 
Management Council is far broader in scope than any aquaculture 
activity previously proposed or approved by NOAA. Although the 
program has legally taken effect, I do not believe that 
regional approaches to offshore aquaculture are in the nation's 
interest. Our review of the Council's program and related 
issues has highlighted the need for a comprehensive national 
policy that ensures a coordinated Federal regulatory process 
for permitting aquaculture facilities in Federal water.
    If a national policy is adopted, it will be necessary to 
examine the plan in the context of that policy. There is a 
pressing need for a national approach to regulating offshore 
aquaculture. I urge the Committee to provide a broader 
aquaculture mandate than that which already exists in the 
Magnuson-Stevens Act to allow for a transparent regulatory 
structure consistent with ecosystem based management and marine 
spatial planning. It should also enable sustainable aquaculture 
production, safeguard environmental resources, and balance 
multiple uses.
    Madam Chairwoman, Members of the Subcommittee, I look 
forward to working with you, the public, the fishing and 
aquaculture industries, and the environmental community to 
craft national marine aquaculture legislation. A strong, 
comprehensive framework that addresses Federal agency 
responsibilities, combined with Federal research financing, 
will offer the regulatory certainty that industry needs while 
safeguarding the marine environment. I will be happy to answer 
any questions you may have.
    [The prepared statement of Dr. Balsiger follows:]

 Statement of James W. Balsiger, Ph.D., Acting Assistant Administrator 
 for Fisheries, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Chairwoman Bordallo and members of the Subcommittee, thank you for 
the invitation to testify on offshore aquaculture in the United States. 
I am Dr. James Balsiger, the Acting Assistant Administrator of the 
National Marine Fisheries Service (NMFS) within the National Oceanic 
and Atmospheric Administration (NOAA). Within the Department of 
Commerce, NOAA is one of the primary federal agencies charged with 
addressing U.S. aquaculture. Other components of the Department of 
Commerce also have an interest in aquaculture from the perspective of 
seafood industry investment, jobs, production, trade, and contribution 
to the U.S. economy.
    I appreciate the opportunity to appear before the Subcommittee 
today. In your invitation, you asked me to address three main areas:
    <bullet>  The need for a comprehensive Federal permitting and 
regulatory system for offshore aquaculture;
    <bullet>  The necessary components of such a system, including 
siting, permitting, and operating requirements and precautionary 
measures to protect the environment and coastal communities; and
    <bullet>  Additional issues that are important for the Subcommittee 
to consider.
    I applaud this Subcommittee for its recognition of the important 
issues that necessitate today's discussion, including declines in many 
wild capture fisheries and rising worldwide seafood demand. The 
Subcommittee also has recognized that the development of U.S. 
aquaculture must not occur at the expense of the marine environment or 
native fish and shellfish populations. Aquaculture has the potential to 
provide a safe and nutritious local seafood supply to complement supply 
from U.S. commercial fisheries; create jobs in U.S. coastal 
communities; and maintain working waterfronts. But importantly, it must 
be conducted in a manner that safeguards U.S. coastal and ocean 
environments. I commend the Subcommittee for recognizing these 
important realities.
    Madame Chairwoman, your invitation asked me to focus on offshore 
aquaculture, which generally refers to open ocean aquaculture in 
Federal waters, and the need for a comprehensive permitting and 
regulatory system for this emerging aquaculture sector. Before I 
address your specific questions, I want to put U.S. aquaculture and 
NOAA's efforts with respect to aquaculture into context. So often, the 
big picture gets lost in the issue of the day and, in this case, I want 
to make sure that the breadth of NOAA's long-established involvement 
with aquaculture does not get lost in a more specific discussion about 
a forward-looking regulatory program for offshore aquaculture--a 
component of the industry that is still in its infancy. Aquaculture 
could be an important source of future domestic seafood supply. I urge 
the Subcommittee to focus on a more comprehensive approach to 
sustainable aquaculture in general--not just offshore aquaculture--that 
helps to meet our need for additional domestic seafood supply and stock 
enhancement while protecting the marine environment.

NOAA's Current Aquaculture Efforts
    NOAA and its predecessor agencies have been involved with 
commercial marine aquaculture and enhancement of wild finfish and 
shellfish stocks since the 1880s. To date, much of the scientific 
information and technology developed by NOAA has been used in the 
commercial aquaculture, commercial fishing, and recreational fishing 
sectors, where it has been instrumental in the development of finfish 
and shellfish hatcheries and culture operations.
    Today, NOAA has a comprehensive approach to aquaculture that 
addresses farming of marine shellfish, finfish, and algae, as well as 
hatchery stock replenishment of commercial, recreational, and 
endangered species and stock replenishment for habitat restoration. 
NOAA works with stakeholders and interest groups to identify and 
address major issues in aquaculture. The triple bottom line of 
environmental, economic, and social sustainability is integral to the 
Agency's broad approach to aquaculture. In recent years, the Agency has 
focused on developing guidance and scientific knowledge that contribute 
to:
    <bullet>  Well-informed, science-based management of aquaculture 
activities within the context of NOAA's broader marine management, 
protection, and regulatory missions;
    <bullet>  New technologies that enable sustainable marine 
aquaculture; and
    <bullet>  Restoration of depleted marine species, including 
important commercial and recreational fisheries (such as salmon and 
Alaska king crab) and habitat (such as native oyster restoration).
    As examples of the breadth of NOAA's engagement in aquaculture, I 
wish to highlight current initiatives in four key areas environmental 
and policy issues, science, alternative feeds and aquatic animal 
health. Regarding environmental and policy issues, agency initiatives 
are providing policy and technical guidance to decision-makers on 
aquatic animal health, finfish genetics, marine spatial planning, and 
shellfish and the environment. In terms of science, NOAA is funding 
competitive research and development grants and in-house research at 
NOAA Science Centers. These investments help pioneer technologies and 
methods to support, monitor, and evaluate sustainable aquaculture 
initiatives. Another milestone effort by NOAA is the NOAA-USDA 
Alternative Feeds Initiative. Through this initiative, NOAA and the 
U.S. Department of Agriculture are identifying promising new 
technologies along with federal research priorities on alternative 
ingredients to fish meal and fish oil for aquaculture while maintaining 
the human health benefits of seafood. Finally, with respect to aquatic 
animal health, NOAA has worked with the U.S. Department of Agriculture 
and the U.S. Fish and Wildlife Service, through the Joint Subcommittee 
on Aquaculture, to develop a national health plan for aquatic animals. 
The plan, which is currently open for public comment, provides 
principles and guidelines for federal agencies with jurisdiction over 
aquatic animal health. Implementation of this plan will protect both 
farmed and wild resources, facilitate safe commerce, and make 
laboratory testing, training, and other programs available as needed to 
implement the plan.

Aquaculture in the Global Marketplace
    Worldwide, aquaculture is a $70-billion-per-year enterprise, 
according to the United Nations Food and Agriculture Organization. The 
annual U.S. seafood trade deficit ``second only to oil in the natural 
resources category--has grown to $9.4 billion. Even with modest gains 
in domestic seafood supply, the United States likely will remain a net 
importer of seafood in the near term since more than 80 percent of the 
seafood consumed in this country is imported. About half of what we 
import from other countries is farmed.
    Currently, U.S. aquaculture is a small but vibrant industry that 
supplies about 5 percent of our national seafood supply. Total U.S. 
aquaculture production is approximately $1.2 billion annually (just 1.5 
percent of total global aquaculture production of $70 billion, 
according to the United Nations Food and Agriculture Organization). 
Approximately 20 percent of U.S. aquaculture production cultures marine 
species, while fresh water species constitute the remaining effort. The 
largest single sector of the U.S. marine aquaculture industry is 
molluscan shellfish culture (oysters, clams, mussels), which accounts 
for approximately 65 percent of total U.S. marine aquaculture 
production, followed by salmon (approximately 25 percent) and shrimp 
(approximately 10 percent). Current production takes place mainly on 
land, in ponds, and in coastal waters under state jurisdiction. 
However, technological advances in aquaculture technology have enabled 
several commercial finfish operations to operate in more exposed, open-
ocean locations in state waters in Hawaii and Puerto Rico. There are 
also commercial mussel farms in open-ocean locations in New Hampshire 
and California, and permit applications have been filed for open-ocean 
mussel farms in Massachusetts and Rhode Island.
    In the absence of a national approach that enables sustainable 
domestic aquaculture, the United States likely will continue to 
increase imports from foreign sources which may not have similar 
conservation regulations, as well as suffer the continued loss of jobs 
and livelihoods that have made our coastal communities unique. 
Promoting and enabling sustainable aquaculture here at home makes good 
sense.
    The Need for National Marine Aquaculture Legislation, Including a 
Comprehensive Federal Permitting and Regulatory System for Offshore 
Aquaculture
    While the U.S. Army Corps of Engineers and the Environmental 
Protection Agency have some regulatory authority over siting and 
monitoring the water quality impacts of offshore aquaculture 
operations, and the U.S. Food and Drug Administration has the 
regulatory authority over the safety of aquaculture products, NOAA has 
the mandates, technical expertise and appropriate infrastructure to 
ensure such operations adequately safeguard our Nation's living marine 
resources. Additionally, because NOAA is within the Department of 
Commerce, it is well placed to balance the goals of developing an 
economically viable offshore aquaculture industry while protecting our 
Nation's valuable living marine resources and the ecosystems and 
communities they support.
    On September 3, 2009, the first regional permitting program for 
offshore marine aquaculture took effect in the Gulf of Mexico under the 
Magnuson-Stevens Act. As we work to create a national policy, the 
Department of Commerce did not believe it was prudent to take action on 
the fishery management plan for regulating offshore marine aquaculture 
in the Gulf of Mexico at this time. Under the Magnuson-Stevens Act, if 
the Secretary does not notify the Council within a certain time period 
that he has approved, partially approved, or disapproved the action, 
the statute provides that the fishery management plan shall take effect 
as if approved. Because the statutory period passed without Secretarial 
action, the fishery management plan has entered into effect by 
operation of law. Implementing regulations will need to be published 
before any aquaculture projects can begin in the Gulf of Mexico. The 
Plan, which was developed by the Gulf of Mexico Fishery Management 
Council (Gulf Council), is far broader in scope than any aquaculture 
activity previously proposed to or approved by NOAA. Although the 
program has legally taken effect, I do not believe that regional 
approaches to offshore aquaculture are in the Nation's interests. Our 
review of the Gulf Council's program and related issues has highlighted 
the need for a comprehensive national policy that ensures a coordinated 
federal regulatory process for permitting aquaculture facilities in 
federal waters. If a national policy is adopted, it will be necessary 
to examine the plan in the context of that policy. If the Gulf Council 
plan is inconsistent with the national policy, we will consider 
appropriate action, which could include seeking an amendment or 
withdrawal of the plan through the Magnuson-Stevens Act process.
    There is a pressing need for a national approach to regulating 
offshore aquaculture. But I urge the Committee to provide a broader 
aquaculture mandate than what already exists in the Magnuson-Stevens 
Act, to allow for a transparent regulatory structure consistent with 
ecosystem-based management and marine spatial planning that enables 
sustainable aquaculture production, safeguards environmental resources, 
and balances multiple uses. Additionally, legislation must ensure that 
relevant federal agencies and key stakeholders, including regional 
fishery management councils, coastal states, and the public, will be 
provided the opportunity to contribute to the development of 
environmental analyses, rulemaking, and permit decisions, including 
details on environmental requirements and siting criteria. Stakeholders 
also need access to information on proposed projects and potential 
environmental impacts. We would appreciate an opportunity to provide 
the Subcommittee with views on legislation concerning aquaculture.

Elements of a Comprehensive Federal Permitting and Regulatory System in 
        National Marine Aquaculture Legislation
    The Committee has asked that I discuss the necessary components of 
a potential permitting and regulatory system including siting, 
permitting, and operating requirements, as well as precautionary 
measures to protect the environment and coastal communities.
    In brief, requirements for permitting, operating, and siting should 
have terms and conditions that are consistent with good ecosystem-based 
management, minimize the risks of escapes, disease transfer, water 
quality effects, food safety, negative impacts on wild stock or 
habitat, or overexploitation of forage fish, and provide protection for 
sensitive ecological areas and ecosystem functioning. These standards 
should ideally be established in the legislative provisions.
    NOAA recognizes that stakeholders in the environmental community, 
the aquaculture industry, seafood processors, and other relevant 
industries want to ensure that the regulatory requirements are clear, 
the regulatory process is efficient, and the provisions provide 
suitable environmental and food safety protection while allowing the 
industry to develop and be a viable business model under appropriate 
standards. As is typical of many industries, earlier efforts (including 
NOAA's contributions), focused primarily on enhancing production--i.e., 
how to produce more product rapidly and at lower costs--and on creating 
markets and facilitating distribution. As the industry has matured, a 
more balanced focus is emerging on environmentally sustainable 
production. National legislation is needed to facilitate and ensure 
that aquaculture is truly sustainable. I commit NOAA to assisting the 
Subcommittee in drafting language that is protective of the environment 
and the rights of other ocean users, and assuring the safety of the 
products produced while encouraging investment and providing regulatory 
certainty for those considering investing in aquaculture development in 
federal waters.

Additional Issues That Are Important for the Subcommittee to Consider
    One of the priorities of this Administration is to examine the 
existing regulatory and policy framework that governs the Agency's 
activities with regard to marine aquaculture. To that end, we are 
reassessing existing Department of Commerce and NOAA Aquaculture 
Policies. We believe this process will allow us to move forward more 
effectively with a national aquaculture policy that will address the 
Administration's goals and enhance opportunities for economically and 
environmentally sustainable U.S. aquaculture.
    In addition, this national aquaculture policy will take into 
account the ongoing work of the Interagency Ocean Policy Task Force, 
particularly its charge to develop a recommended framework for 
effective coastal and marine spatial planning.
    Our goal is to build on the past hard work and consideration as 
well as the ongoing work of the Ocean Policy Task Force to create a 
comprehensive framework that facilitates safe and sustainable 
aquaculture operations in U.S. federal waters. Requirements that emerge 
from our evaluation will ensure that all marine aquaculture proceeds in 
an environmentally responsible manner that protects wild stocks and the 
quality of marine ecosystems and is compatible with other uses of the 
marine environment.

Conclusion
    Madame Chairwoman and members of this Subcommittee, I look forward 
to working with you, the public, the fishing and aquaculture 
industries, and the environmental community to craft national marine 
aquaculture legislation. A strong, comprehensive framework that 
addresses federal agency responsibilities in both offshore and coastal 
areas will offer the regulatory certainty that industry needs while 
safeguarding the marine environment, as well as create economic 
opportunities for Americans. The United States must take the initiative 
to become more self-sufficient in the production of healthy seafood, 
provide jobs for coastal communities, and reduce the seafood trade 
deficit. We must develop aquaculture as a tool to complement commercial 
fishing because we will need both to produce seafood to meet the 
growing demand.
    Madame Chairwoman, I stand ready to work with you to these ends and 
again thank you for the opportunity to testify on this issue.
                                 ______
                                 

   Response to questions submitted for the record by James Balsiger, 
Ph.D., Assistant Administrator (Acting) for Fisheries, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  Has a fishery management plan ever entered into effect by operation 
        of law without the approval, partial approval, or disapproval 
        of the Secretary of Commerce (Secretary) before the Gulf of 
        Mexico fishery management plan (FMP) for regulating offshore 
        marine aquaculture?
    According to NOAA's National Marine Fisheries Service (NOAA 
Fisheries) records, there does not appear to be another instance where 
a fishery management plan (FMP) entered into effect by operation of law 
without the approval, partial approval, or disapproval of the Secretary 
of Commerce.

2.  Why is the Gulf aquaculture FMP so unique that it warranted passage 
        without Secretarial action?
    The Administration's view is that the United States should adopt a 
comprehensive national policy regarding marine aquaculture that would 
encompass this and any future efforts to develop offshore aquaculture. 
The scope of the FMP is far broader than any aquaculture measures 
previously submitted for Secretarial review, and we believe that 
permitting plans of this scope should be governed by a national policy 
rather than by regional regulatory frameworks. Therefore, the Secretary 
did not take action to approve the plan. In this case, the Secretary 
concluded that there was no viable legal basis on which to disapprove 
the FMP.

3.  When will NOAA's national aquaculture policy be finished?
    NOAA intends to complete its national aquaculture policy addressing 
all forms of marine aquaculture in the next six months.

4.  When are the Gulf Council's proposed regulations for the 
        aquaculture FMP expected to be transmitted to the Secretary?
    The Gulf of Mexico Fishery Management Council's proposed 
regulations for the aquaculture FMP were transmitted on May 29, 2009, 
the same day the FMP was transmitted for Secretarial review.

5.  What specific authorities will NOAA exercise to ensure that the 
        Gulf of Mexico's aquaculture FMP aligns with the forthcoming 
        national aquaculture policy? Please note the relevant sections 
        of the Magnuson-Stevens Fishery Conservation and Management Act 
        in your response.
    The Gulf of Mexico aquaculture FMP took effect on September 3, 
2009. As we develop the forthcoming national aquaculture policy, NOAA 
Fisheries will examine whether the Gulf of Mexico aquaculture FMP 
aligns with its policy. If the FMP is inconsistent with NOAA's national 
aquaculture policy, we will consider appropriate action, which could 
include seeking amendment or withdrawal of the FMP pursuant to sections 
303 and 304 of the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA).

6.  If the Gulf Council proposes regulations that are consistent with 
        the aquaculture FMP, but inconsistent with the forthcoming 
        national aquaculture policy, does the Secretary have the 
        authority to promulgate regulations? Do you expect the 
        Secretary to promulgate regulations?
    The Gulf of Mexico Fishery Management Council has proposed 
regulations to implement the Gulf of Mexico aquaculture FMP. NOAA is 
reviewing the draft regulations to determine whether they are 
consistent with the fishery management plan, the Magnuson-Stevens Act, 
other applicable law, and NOAA policy. When that review is completed, 
NOAA will take action consistent with applicable law. Until the 
national aquaculture policy is completed and the regulations are 
considered in context, NOAA cannot remark on the relationship between 
the regulations and the policy.

7.  Can the Secretary repeal or revoke the Gulf aquaculture FMP if it 
        is not consistent with the national aquaculture policy? Please 
        explain.
    Under the MSA, when a regional council develops and submits an FMP, 
the Secretary is required to immediately commence a review of the plan 
or amendment to determine whether it is consistent with the national 
standards contained in the MSA, other provisions of the MSA and any 
other applicable law. When disapproving a plan, the Secretary must 
specify the applicable law with which the plan or amendment is 
inconsistent. Since the national aquaculture policy does not have the 
effect of law, the Secretary could not disapprove an FMP if it is 
inconsistent with policy developed by NOAA. Under section 304(h), the 
Secretary may repeal or revoke an FMP for a fishery under the authority 
of a Council only if the Council approves the repeal or revocation by a 
three-quarters majority of the voting members of the Council.

8.  Can the Secretary amend the Gulf aquaculture FMP through a 
        Secretarial amendment or other authorities if it is 
        inconsistent with the forthcoming national aquaculture policy? 
        Please explain.
    If amendments to the FMP are required to align the FMP with the 
forthcoming national aquaculture policy, NOAA Fisheries intends to work 
with the Council to consider the amendments under section 303 of the 
MSA. If the requirements of section 304(c) are met, NOAA Fisheries may 
consider preparation of a Secretarial amendment under that section.

Questions from Republican Members

 1.  What role should the regional fishery management councils play in 
        the regulation of aquaculture species?
    Regional Fishery Management Councils (Councils) are an important 
partner and stakeholder in the administration of federally-managed 
species whether they are wild caught or cultured. A well-defined role 
for the Councils will be integral to the regulation of aquaculture in 
federal waters. Councils should be consulted in the development of 
regulations and in the establishment of environmental and other 
requirements (especially as they relate to interactions with wild 
stocks managed by the Councils). Councils may also help identify areas 
of the U.S. Exclusive Economic Zone where offshore aquaculture would be 
least likely to interfere with known fishing and other activities.

 2.  How difficult will it be for NOAA to enforce fisheries 
        restrictions when farm-raised fish may be on the market when 
        domestic fisheries are closed?
    Because some federally-managed species are already being farmed 
either on land or in state waters, NOAA has been working to implement 
mechanisms that allow enforcement personnel to distinguish farmed fish 
from illegally harvested wild fish. In some cases, a paper trail to 
track wild caught or farmed fish is sufficient. In others, farmed fish 
can be identified by some physical characteristic that distinguishes 
them from wild. If necessary, technologies exist for marking or tagging 
fish and for using genetic techniques to distinguish farmed from wild.

 3.  The Administration has come under heavy criticism for allowing the 
        Gulf of Mexico Fishery Management Council to propose a fishery 
        management plan (FMP) to allow for offshore aquaculture in the 
        Gulf of Mexico and for now [sic] making any changes to that 
        FMP. Can you tell us why the Council's proposal was accepted 
        without change?
    Regional Fishery Management Councils (Councils) may develop fishery 
management plans for fisheries under their authority that require 
conservation and management. In this case, the Council developed the 
aquaculture Fishery Management Plan (FMP) to establish a regionally-
based regulatory framework for managing the development of an 
environmentally sound and economically sustainable offshore aquaculture 
industry in federal waters of the Gulf of Mexico. The goal of the 
aquaculture FMP is to increase fishery production in the Gulf of Mexico 
by supplementing the supply of wild caught species with cultured 
product. The Council's efforts took five years and included intensive 
stakeholder review and public comment on all aspects of the proposed 
FMP. The scope of the Council's aquaculture FMP is far broader than any 
aquaculture measures previously submitted for Secretarial review under 
the Magnuson-Stevens Fishery Conservation and Management Act (MSA). 
Under the Magnuson-Stevens Act, the Secretary may only approve, 
disapprove, or partially approve a fishery management plan or amendment 
submitted by a Council. It is NOAA's position that offshore aquaculture 
activities should be governed by a national policy rather than by 
regional regulatory frameworks to enable a comprehensive ecosystem-
based approach to offshore aquaculture. As we develop a national 
policy, we will also examine the aquaculture FMP in the context of that 
policy. If we determine the FMP is inconsistent with that policy, we 
will consider appropriate action, which could include seeking amendment 
or withdrawal of the FMP through the MSA process.

 4.  Do you expect other councils to take similar action for their 
        regions?
    That is uncertain as the individual councils make that decision.

 5.  Will the new Administration be proposing draft legislation to 
        allow for the federal permitting of offshore aquaculture?
    Currently, the Administration has no plans to draft legislation to 
allow for the federal permitting of offshore aquaculture.

 6.  Legislation proposed by the last Administration would have allowed 
        for foreign investment in aquaculture facilities. Is that still 
        the position of the new Administration?
    The current Administration has not taken a position on foreign 
investment in aquaculture facilities. Eligibility requirements in the 
Gulf of Mexico FMP require a permit holder to be a U.S. citizen or a 
permanent resident alien.

 7.  You are well aware of the State of Alaska's concerns with offshore 
        finfish aquaculture. How can a state protect its fishing 
        interests from federal offshore aquaculture proposed for an 
        area off its shore? How do you protect states which are not 
        directly adjacent from effects such as the escape of non-native 
        species?
    The Administration acknowledges Alaska's concerns over finfish 
aquaculture. NOAA also takes the protection of wild stocks very 
seriously. States that have a finfish aquaculture industry [e.g., 
Washington, Maine, Hawaii, and Florida] already have stringent 
environmental requirements for aquaculture. Also, existing federal laws 
and regulations for clean water, and protection of wild stocks, 
endangered species, marine mammals, and fish habitat apply to potential 
aquaculture operations. These state and federal regulations should form 
the basis of any national regulatory approach to offshore aquaculture.

 8.  Mark Vinsel suggests that there will only be industrial sized 
        farms because of the necessary economics. Is it a reasonable 
        expectation that the costs of investing in offshore aquaculture 
        will mean that only large companies will be able to invest?
    The size of operations that may be proposed for aquaculture in 
federal waters will not be known until a regulatory framework is in 
place and permit applications are submitted. Based on aquaculture 
operations using offshore technology in U.S. state waters and in open 
ocean locations in other countries, the size of operations proposed may 
vary widely. The two open ocean commercial finfish operations operating 
in state waters in Hawaii and the operation in Puerto Rico (currently 
suspended) could be described as small to mid-sized operations. The 
open ocean mussel farm in New Hampshire and the proposed mussel farms 
in Rhode Island and Massachusetts are, or will be, small scale 
operations owned by groups of fishermen. Larger offshore finfish farms 
are under consideration in other parts of the world.

 9.  Do you believe legislation is necessary to give federal agencies 
        the ability to permit offshore aquaculture operations in 
        federal waters? If so, what federal agencies should be involved 
        in the permitting process or should have a role in the approval 
        of any permit?
    The goal of achieving a coordinated national approach to regulating 
offshore aquaculture would be aided by a more comprehensive mandate for 
regulating offshore aquaculture than the authority that currently is 
provided in the Magnuson-Stevens Fishery Conservation and Management 
Act. A national approach would allow for a transparent regulatory 
structure consistent with ecosystem-based management that enables 
sustainable aquaculture production, safeguards environmental resources, 
and balances multiple uses. National commissions have recommended that 
federal agency permits for aquaculture in federal waters be coordinated 
by NOAA and that a regulatory framework should ensure that federal 
agencies and key stakeholders, including regional fishery management 
councils, coastal states, and the public, be provided the opportunity 
to contribute to the development of environmental analyses, rulemaking, 
and permit decisions. In addition, the ongoing work of the Interagency 
Ocean Policy Task Force, particularly its charge to develop a 
recommended framework for effective coastal and marine spatial 
planning, will be taken into account.
    Federal agencies that already have a potential regulatory role in 
offshore aquaculture include (but are not limited to) the following: 
the U.S. Army Corps of Engineers, the U.S. Environmental Protection 
Agency, the Food and Drug Administration, and the Animal and Plant 
Health Inspection Service of the Department of Agriculture. 
Additionally, because NOAA is within the Department of Commerce, it is 
well placed to balance the goals of developing an economically viable 
offshore aquaculture industry while protecting our Nation's valuable 
living marine resources and ecosystems and sustaining the communities 
they support.

10.  What environmental standards are appropriate for legislation 
        authorizing offshore aquaculture facilities? Should legislation 
        spell these out or should legislation give the permitting 
        agency a broad outline for these standards?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time. Part of the policy will address principles to guide NOAA's 
position on aspects of aquaculture in federal waters, including 
consideration of environmental standards.

11.  What standards are appropriate for the regulation of discharges 
        from offshore aquaculture facilities? What agency or agencies 
        should be responsible for developing discharge regulations?
    The U.S. Environmental Protection Agency regulates discharges under 
the Clean Water Act.
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time. Part of the policy will address principles to guide NOAA's 
position on aspects of aquaculture in federal waters, including 
consideration of environmental standards.

12.  What safeguards for the prevention of the escape of farm raised 
        fish are appropriate for legislation authorizing offshore 
        aquaculture facilities? What are the likely effects of the 
        escape of non-native species on natural populations of fish and 
        how should these impacts be dealt with in the legislation?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

13.  How should the siting process work for offshore aquaculture 
        facilities? How will other federally-permitted activities or 
        federally-leased areas for other activities (such as areas 
        leased under the Outer Continental Shelf Lands Act) be 
        reconciled? What other conflicts among user groups should be 
        identified and considered?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

14.  What impact will offshore aquaculture have on existing domestic 
        wild harvest fisheries and how should those impacts be 
        addressed? Should the federal government be responsible for 
        mitigating these impacts or should the aquaculture industry be 
        somehow required to mitigate these effects?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

15.  What options should legislation include for states to have input 
        into the process of either permitting or siting offshore 
        aquaculture facilities? Should states have the ability to 
        reject facilities off their shores in federal waters? Do states 
        have this ability under the Coastal Zone Management Act?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.
    Section 307 of the Coastal Zone Management Act (CZMA) requires 
applications for federal permits to conduct an activity, in or outside 
of the coastal zone, that affects any land or water use or natural 
resource of the coastal zone of that state. A certification that the 
proposed activity complies with the enforceable policies of the state's 
approved program and that such activity will be conducted in a manner 
consistent with the program must be provided in the application to the 
licensing or permitting agency.

16.  What U.S. ownership standards should be included in legislation 
        authorizing offshore facilities? Should the ownership and 
        control standards be comparable to those currently in place for 
        fishing vessels and/or on-shore processing companies?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

17.  What role should the regional fishery management councils have in 
        regulating the fish, feed, size limits, seasons, and products 
        from offshore aquaculture facilities? Should farm-raised fish 
        only be allowed on the market when the same species of wild 
        fish are allowed to be harvested to minimize enforcement of 
        fishery management plans and regulations?
    NOAA believes offshore aquaculture activities should be governed by 
a national policy rather than by regional regulatory frameworks to 
enable a comprehensive ecosystem-based approach to offshore 
aquaculture. In the absence of new legislation, regional fishery 
management council actions under the Magnuson-Stevens Fishery 
Conservation and Management Act will be considered in the context of 
the national aquaculture policy that NOAA is currently developing. 
Subsequent to its completion of its national aquaculture policy, NOAA 
may ask a Council to amend or withdraw any fishery management plan(s) 
that are not consistent with the national policy.

18.  Should legislation deal with issues such as the use of antibiotics 
        and the types of fish food that can be used in the marine 
        environment? Should the legislation require that the impacts of 
        antibiotics and food from aquaculture facilities on the natural 
        populations be regulated?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

19.  Should legislation and/or regulations make distinctions between 
        aquaculture that is primarily for hatchery purposes and those 
        facilities that are primarily used for food fish production?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

20.  Should the legislation and/or regulations make a distinction 
        between shellfish and finfish aquaculture operations?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

21.  With the recent concerns about the safety of imported seafood, 
        should food security issues increase the need for a domestic 
        offshore aquaculture program?
    U.S. consumers want to be assured that seafood is available, safe 
to eat, and comes from sustainable sources. By developing a more robust 
domestic aquaculture industry and enhancing U.S. food safety and 
quality programs, the United States will be better able to provide safe 
and nutritious local seafood from aquaculture to complement the supply 
from U.S. commercial fisheries, create jobs in U.S. coastal 
communities, and help maintain working waterfronts. Given the increased 
demand for seafood, the United States likely will continue to increase 
imports from foreign sources as well. NOAA will continue to work with 
other federal agencies to ensure the safety of the American food 
supply. Enabling sustainable aquaculture here at home is one very 
important component of achieving our goal for a safe and plentiful food 
supply.

22.  Should this legislation deal with how aquaculture fish products 
        are labeled?
    NOAA is currently drafting a new aquaculture policy. As the policy 
is in development, we would prefer not to comment on this issue at this 
time.

23.  The proposed offshore aquaculture authorization legislation sent 
        to Congress in the last Administration proposed to waive the 
        Jones Act. Why was this included in the proposal? Are there 
        homeland security issues that should be considered with an 
        authorization of foreign-flag vessels entering U.S. waters?
    Legislation introduced in 2005 included a provision to waive the 
Jones Act, but this provision was not included in a revised version 
introduced in 2007 following several hearings and input from 
stakeholders. Homeland security considerations are beyond the scope of 
NOAA's authority.

24.  Under the current Jones Act regulations, could foreign-flag 
        vessels enter U.S. waters, receive fish from an offshore 
        aquaculture facility, and leave without landing the fish at a 
        U.S. port? If so, does the Administration support proposed 
        legislation that would allow this practice to continue or 
        should all products from offshore aquaculture facilities be 
        required to be landed at a U.S. port and if so, would this 
        require the use of a U.S.-flag vessel?
    Under the Magnuson-Stevens Act, foreign flag vessels may not 
receive fish from an offshore aquaculture facility. Aquaculture within 
the exclusive economic zone is considered ``fishing'' under the MSA. 
``Fishing'' also includes ``operations at sea in support of, or in 
preparation for,'' the catch, take, or harvest of fish, including the 
transshipment of fish. Section 201(a) of the MSA prohibits foreign 
fishing except under certain conditions.
    The Administration has not taken a position on legislative 
provisions on use of foreign-flag vessels or landing requirements. The 
Gulf of Mexico fishery management plan for aquaculture prohibits 
landing of cultured species at non-U.S. ports unless first landed at a 
U.S. port.

Questions from Congressman Gregorio Sablan, (D-MP)

1.  As I mentioned at the hearing, the Northern Mariana College has an 
        on-shore aquaculture facility that is showing promise in the 
        CNMI. In addition, the waters of the CNMI show potential for 
        offshore aquaculture as well. What technical assistance and 
        financial resources can NOAA provide to the College and local 
        businesses interested in pursuing offshore aquaculture in the 
        CNMI?
    Opportunities for NOAA funding include competitive grant programs 
such as the National Marine Aquaculture Initiative, the Small Business 
Innovation Research Program, and the Saltonstall-Kennedy Grant Program. 
The Fisheries Finance Program also provides loans for capital 
construction and certain other investment costs. Information on all of 
these programs can be found at http://aquaculture.noaa.gov/funding/
welcome.html.

2.  I know there was a Joint Sub-Committee for Aquaculture established 
        in the 1980 legislation and revised to make the USDA permanent 
        chair in 1985. However, NOAA considers that they are the lead 
        on this issue, and many folks agree with that, but with all the 
        issues surrounding Offshore Aquaculture, what role do you see 
        the Sub-Committee playing to assist this Committee in 
        developing a legislative framework?
    The mission of the Joint Subcommittee for Aquaculture (JSA) is to 
serve as a federal interagency coordinating group to increase the 
overall effectiveness and productivity of federal aquaculture research, 
technology transfer, and assistance programs. The JSA is a statutory 
committee that operates under the aegis of the National Science and 
Technology Council (NSTC) of the Office of Science and Technology 
Policy (OSTP) in the Office of the Science Advisor to the President. 
The JSA is one of five research and development committees established 
by NSTC to prepare coordinated research and development strategies and 
budget recommendations for accomplishing national goals. The JSA 
reports to the NSTC's Committee on Science. The federal agencies 
represented on the Joint Subcommittee on Aquaculture (JSA) consult and 
update each other on interagency aquaculture issues. Occasionally, the 
JSA establishes a working group to address an interagency initiative. 
For example, the JSA recently published in the Federal Register for 
public comment a draft National Aquatic Animal Health Policy for 
aquaculture. If warranted, the OSTP could task the JSA to consider or 
recommend approaches to federal regulation of aquaculture in federal 
waters

3.  The impact on recreational fisherman was not really addressed at 
        the hearing. However, that is a very important industry that 
        contributes to local economies, as fishermen stay in hotels, 
        eat at local restaurants, etc., and has a positive multiplier 
        effect on local economies. What actions will NOAA take, or are 
        taking, to ensure that recreational fishermen are not 
        negatively impacted in the CNMI as well as other places in the 
        U.S. as you move forward in developing an offshore Aquaculture 
        regulatory framework? With an increase in aquaculture, will 
        there be a less robust effort to increase stocks for commercial 
        and recreational fishing?
    NOAA understands the importance of recreational fisheries and 
acknowledges the benefits they generate for many coastal communities. 
NOAA's new aquaculture policy will address the potential effects on 
commercial and recreational fishing and consider how aquaculture can be 
used to complement both recreational and commercial fisheries to 
provide sustainable seafood and increased economic opportunities for 
coastal communities. NOAA will continue to work with stakeholders--
including recreational fishermen--to identify and address these issues.

4.  As you know and have seen, our coastal and ocean communities are 
        continually facing severe weather. The issue of escaping fish 
        was a major concern at the hearing and has been expressed by 
        others; specifically, recreational fisherman. With hurricanes 
        and severe weather in the oceans, how can you stop escapement 
        when a hurricane/typhoon hits an open water Aquaculture 
        facility?
    NOAA currently is drafting a new aquaculture policy. Part of the 
policy will address principles to guide NOAA's position on aspects of 
aquaculture in federal waters, including the importance of reducing 
and/or mitigating the risk of escapement.

5.  What role can Recirculating Aquaculture Systems (RAS) have in 
        decreasing the seafood trade deficit? With increased health 
        concerns and given the environmental concerns of many, this 
        seems like a very viable alternative that not only creates 
        healthy seafood, but also creates jobs. Do you agree that this 
        is a technology/process worth pursuing? Does NOAA plan to 
        review this technology when developing an Offshore Aquaculture 
        policy?
    Recirculating Aquaculture Systems (RAS) are one of several 
promising aquaculture technologies. NOAA and other federal agencies, 
along with universities and private research institutions, have been 
studying RAS, offshore aquaculture, and other innovative aquaculture 
technologies for some time. RAS are in use at NOAA laboratories for 
hatchery and research work. Also, NOAA grants have been awarded for the 
study of RAS for culture of marine species including cobia and black 
sea bass. All aquaculture technologies raise production, cost, job 
creation, and environmental issues including RAS. NOAA scientists 
expect to continue to evaluate the range of technologies available for 
aquaculture production, including RAS, so as to expand the scientific 
knowledge about aquaculture available to policy makers and 
stakeholders.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Balsiger, for your 
testimony. And we will have questions.
    But first I will recognize Mr. Sutton. It is a pleasure to 
welcome you before this Committee, and you are now recognized 
for five minutes.

STATEMENT OF MICHAEL SUTTON, COMMISSIONER, CALIFORNIA FISH AND 
   GAME COMMISSION, VICE PRESIDENT, CENTER FOR THE FUTURE OF 
                             OCEANS

    Mr. Sutton. Good morning, Madam Chairwoman and Members of 
the Subcommittee. My name is Michael Sutton, and I serve as 
Vice President of the Monterey Bay Aquarium on the Central 
California Coast. In 2007, Governor Schwarzenegger appointed me 
to the California Fish and Game Commission. The Commission sets 
policy and regulates all wildlife and fisheries in the state, 
including marine fisheries, and establishes marine reserves and 
other protected areas in state waters.
    We also regulate aquaculture operations on land and in 
state coastal waters out to three miles offshore. In fact it is 
worth noting that virtually all fish farms in the United States 
today are regulated by the states. That is because they are 
located on land or in coastal waters under state jurisdiction. 
So the states have a lot of relevant experience to share that 
can inform the development of Federal law.
    Now California is home to a thriving but relatively small 
aquaculture industry, shellfish such as oysters and clams, 
mussels, abalone, and so forth. We also have a few fin fish 
farms that culture a wide variety of species on land and in our 
estuaries. But the fact is the United States, as you have 
pointed out, is a relatively minor player in global 
aquaculture. Most fish are farmed overseas, and, Madam 
Chairwoman, as you said earlier, we import more than 80 percent 
of our seafood in the United States, much of it from fish 
farming.
    Like it or not, aquaculture is growing exponentially and is 
on track to surpass wild fisheries as a source of most of our 
seafood by the end of this year, in fact. And that means we are 
seeing the same phenomenon in our oceans as we saw on land 
years ago. Farming is replacing hunting as the primary source 
of our food supply. In our oceans, fish farming is beginning to 
replace fishing as the source of our seafood.
    Now, this industry is growing so fast around the world that 
inland and coastal fish farming is no longer enough. The 
industry is already expanding offshore. For example, in 
Southern California, the Hub SeaWorld Research Institute has 
applied for permits to grow up to 3,000 tons of native fish in 
offshore pens each year. The absence of a Federal regulatory 
regime means that their progress has been slow. They have had 
to apply for permits to all kinds of different agencies.
    So today the Federal Government has a terrific opportunity. 
You are in the enviable position of developing a regulatory 
regime for offshore aquaculture before the industry develops 
and proliferates rather than trying to regulate existing 
practices. We cannot allow our aquaculture industry to follow 
the boom and bust history of our marine fisheries that we are 
all so familiar with. It is important that we get this right 
from the outset. That is because our oceans and coasts are too 
important from both an economic and an ecological perspective 
to put at risk.
    Our ocean and coastal economy contributes more to our gross 
national product than all of agriculture combined. That 
contribution depends in large part on healthy ocean and coastal 
ecosystems. Aquaculture has a number of associated 
environmental risks that are enumerated in the written 
testimony prepared for this hearing. Dr. Leonard has provided a 
poster here, and he is going to talk about this later outlining 
these risks.
    For now, suffice it to say that these risks pose serious 
potential threats to our oceans and coasts. Congress's foremost 
job in developing a comprehensive regime to manage offshore 
fish farming is to consider and manage these risks. That is 
what we have done in California. In 2006 we enacted a state law 
known as the Sustainable Oceans Act in anticipation of 
aquaculture development in state waters. California thus became 
the first jurisdiction in the United States to set standards 
and implement a comprehensive management regime for marine 
aquaculture.
    The law in California requires a programmatic environmental 
impact review prior to the development of any offshore fish 
farming, and that review is currently underway, and we expect 
it to be completed by the end of this year. Congress should 
impose a similar requirement for a programmatic environmental 
impact statement on a regional basis before authorizing 
offshore aquaculture in Federal waters.
    Many provisions of our Sustainable Oceans Act can serve as 
useful precursors for Federal legislation. For example, 
California bans the farming of nonindigenous species in the 
oceans, such as Atlantic salmon. It is one thing to farm exotic 
species like tilapia and barramundi on land, where we can 
control escapes and so forth, but we cannot afford to have 
exotic species introduced into our ocean waters.
    My written testimony spells out other provisions of 
California law that may serve as good models for Federal 
legislation, and I want to enter into the record California 
Senate Joint Resolution 18, which was introduced by five 
California Senators recently. It encourages and requests 
Congress to develop a comprehensive Federal regulatory 
framework for marine aquaculture that is at least as tough as 
the law we have in California.
    Let me conclude by encouraging Congress to include several 
provisions in your legislation that we have found important in 
California and elsewhere around the country. First of all, 
national standards. It is vital that Federal legislation 
include a clear and concise national standard for offshore 
aquaculture similar to the national standards that we have for 
marine fisheries spelled out in the Magnuson-Stevens Act. This 
may be the single most important element of your bill, and 
legislation advanced by the Bush Administration in the last 
decade failed to include these standards, and that was a fatal 
flaw.
    Second, your legislation should embody the precautionary 
approach and mandate adaptive management. That is to say, those 
wishing to develop offshore fish farms should bear the burden 
of demonstrating they will not harm ocean ecosystems and our 
fisheries. Offshore aquaculture should also be managed with 
associated ecosystem in mind, ecosystem based management. And 
the development of fish farms should be considered in a broader 
regime of marine spatial planning or ocean zoning.
    Now, as you know, the Coastal Zone Management Act gives 
states the authority to review Federal projects offshore for 
consistency with an approved coastal plan. That has proven a 
vital check and balance, and Congress should preserve it in any 
legislation. And finally, any management regime for offshore 
aquaculture should involve the entire range of stakeholders at 
all stages. We have learned the hard way in California that 
there is no substitute for a bottom up approach to rulemaking, 
especially when competing interests are involved as in this 
case.
    Madam Chairwoman, thank you again for inviting me to 
testify this morning. May I say it is refreshing to be here to 
speak in support of your legislative effort rather than 
opposing an ill advised Administration bill as in past years. 
The discussion draft being circulated by your staff is an 
excellent start, and I encourage you to maintain the tough 
standards in that draft. We must support the growth of this 
industry in a manner that ensures the continued integrity of 
our vital ocean and coastal ecosystems and economy. Thank you.
    [The prepared statement of Mr. Sutton follows:]

  Statement of Michael Sutton, Vice President, Monterey Bay Aquarium, 
              Member, California Fish and Game Commission

    Chairwoman Bordallo and Members of the Committee, thank you for 
inviting me to testify before you today on the development of offshore 
aquaculture in the United States. My name is Michael Sutton and I serve 
as Vice President of the Monterey Bay Aquarium where I direct the 
Aquarium's Center for the Future of the Oceans. In 2007, Governor 
Schwarzenegger appointed me to the California Fish and Game Commission, 
where I participate in regulatory decisions related to the management 
and sustainable use of the state's fish and wildlife resources. I am 
testifying today regarding what we can learn from California's 
experience in the governance of marine aquaculture to help inform the 
development of a federal aquaculture program.

Aquaculture: A Worldwide Phenomenon
    Marine fish farming, or aquaculture, is a global ``megatrend''; it 
is now the fastest growing segment of the international food system. 
Today, nearly half of the fish consumed worldwide are raised on farms 
rather than caught in the wild. The contribution of aquaculture to 
global seafood supply has grown dramatically in the last 50 years--from 
a production of less than 1 million tons in the early 1950s to 51.7 
million tons in 2006. The growth rate of seafood production from 
aquaculture is outpacing production from capture fisheries, which 
leveled out in the mid-1980s. Just as we replaced hunting with farming 
on land, we are in the process of replacing fishing with farming in our 
oceans. But the environmental damage caused by the ``Green Revolution'' 
to terrestrial ecosystems is now well understood, and its lessons are 
sobering as we contemplate a ``Blue Revolution'' in our oceans. As we 
develop the U.S. aquaculture industry to keep pace with the demand for 
seafood, our challenge will be to ensure that fish farming is conducted 
in a way that sustains the health of our ocean and coastal ecosystems.
    Today, nations in Asia and the Pacific Rim produce the vast 
majority of seafood from aquaculture. China alone produces 67 percent 
of the world total. Most fish grown there are omnivorous species like 
carp, tilapia, and catfish farmed in freshwater. Mariculture, or marine 
fish farming, is less common and in addition to shellfish such as 
oysters and abalone, it often involves carnivores of far higher value 
such as shrimp, tuna, and salmon. Farming such carnivores in the ocean 
and coastal zone tends to have greater impacts on the environment than 
freshwater aquaculture of omnivores and thus is more challenging to 
regulate.
    Here in the United States we import more than 80 percent of our 
seafood from overseas, much of which is farmed. For many years, the 
United States has been a relatively minor player in aquaculture, except 
species like catfish in the southern states. Most U.S. 
<plus-minus><plus-minus>aquaculture is either conducted inland (in 
freshwater) or in the coastal environment and is therefore regulated by 
the states. In California, for example, coastal shellfish farming 
alone--oysters, clams, and mussels--is worth more than $16 million each 
year (Kuiper 2009). Today, as our aquaculture industry considers 
expansion into offshore waters, we have a terrific opportunity to 
develop an effective regulatory regime from the outset. That is, our 
government in a good position to create a framework for the orderly and 
environmentally-responsible development of marine aquaculture in U.S. 
waters. We also have the opportunity to learn from our past and forego 
allowing aquaculture to follow the ``boom and bust'' history of our 
marine fisheries. Now is the time to establish a national offshore 
aquaculture policy and set of clear and concise national standards to 
support marine fish farming that is environmentally sustainable. 
Fortunately, we've learned some lessons in California and other states 
that may be useful as we develop a federal regulatory framework.

The First Step: Assessing Environmental Risks
    The nation's oceans and coasts drive our economy and sustain our 
way of life. In 2007, coastal and Great Lakes states generated 83 
percent of the nation's economic output. In California alone the ocean 
and coastal economy generates more than $46 billion annually. More than 
three-quarters of U.S. growth between 1997 and 2007 was in coastal 
states, whether measured by population, employment or Gross Domestic 
Product (Kildow et al, 2009). This means that the same ocean and 
coastal ecosystems that help generate our economic wealth are becoming 
increasingly vulnerable to a growing number of human activities. For 
this reason, the first and most important step in developing a 
management framework for offshore aquaculture is to fully address 
potential environmental risks.
    The ecological risks associated with aquaculture vary according to 
the production system: Open-water cages or net pen farms rank as a 
``high'', or ``very high'' risk for seven key ecological risks, 
including habitat alteration or destruction, pollution and 
eutrophication, contamination with pesticides and other drugs, genetic 
risks of escaped culture animals, introduction of exotic species, 
spread of disease to wild species, and use of wild fish for feed (Leung 
and Dudgeon, 2008).
    Given these risks, the first step in developing an offshore 
aquaculture industry should be the preparation of a Programmatic 
Environmental Impact Statement, similar to the Programmatic 
Environmental Impact Review currently underway for marine aquaculture 
in California (see below). Fortunately, we know what to look for thanks 
to a large body of peer-reviewed scientific research on the risks 
involved in marine fish farming, the most notable of which include the 
following:

Escapes of farmed fish and harmful interactions with native ecosystems
    Accidental or intentional introductions of non-native species have 
become an alarming global environmental problem (Leung and Dudgeon, 
2008). Aquaculture is considered one of the major pathways for 
introducing non-native aquatic species that may become harmful 
invasives (Weigle et al, 2005; Casal, 2006). The risk of accidental 
escape of farmed fish is especially high in open-water aquaculture 
systems and we can predict with absolute certainty that fish will 
escape from offshore facilities. In addition to the complex ecological 
interactions, the overall economic costs of harmful invasive species in 
the United States alone have been estimated at US$ 120 billion annually 
(Pimentel et al, 2000, 2005). Forty two percent of the species listed 
as threatened or endangered with extinction in the United States are at 
risk primarily because of exotic invasive species (Pimentel et al, 
2005).
    California prohibited the farming of non-native fish species in the 
state's ocean waters in 2003 in response to concerns about the 
potential impacts from escapes. Subsequently, California enacted 
several additional statutes to help protect the state from other ways 
in which non-native species can be introduced, including laws that 
prohibit ships from exchanging ballast water in ports; restrict the 
importation and transportation of a number of live animals and plants; 
restrict the placement of live aquatic animals or plants in state 
waters; and prohibit the cultivation, spawning, or incubation of any 
exotic species or any species of salmon.
    Native farmed fish can also be genetically distinct from wild 
members of the same species due to domestication and selective 
breeding. The escape of native but genetically different farmed fish is 
associated with a variety of ecological impacts; for example, 
interbreeding with reproductively compatible populations in the wild 
can result in loss of adaptation in natural populations, introgression 
of new genetic material into species' gene pools and, in the extreme 
case, loss of locally adapted populations (Hallerman, 2008; McGinnity 
et al, 2003).

Pollution from excess nutrients, waste feed, and release of drugs and 
        chemicals
    Like terrestrial farm animals, aquatic animals--when raised in high 
numbers and dense concentrations--produce substantial quantities of 
waste (Islam, 2005). Due to economies of scale and the logistical 
challenges of operating some distance offshore, open-ocean fish farms 
are likely to be substantial in size. In California, for example, 
Hubbs-SeaWorld Research Institute in San Diego is proposing to produce 
3,000 tons of farmed fish annually in offshore pens. A production 
biomass of 3,000 tons not only represents a substantial number of 
individual fish (about 2 million 1.5 kg fish), but also requires more 
than double this amount in feed.
    The nitrogen and phosphorous-rich effluent resulting from the 
incomplete digestion of feed by farmed fish represents a substantial 
point source of pollution. Open net-pen production systems rely on the 
free ecosystem service provided by water currents and the surrounding 
environment to disperse, dilute, and break down farm wastes. The direct 
impacts of soluble and particulate wastes on offshore habitats are 
poorly understood. In addition, uneaten feeds usually attract other 
species outside the nets, causing unnatural aggregations of predators 
(e.g., sharks), and a subsequent need to control those predators 
(sometimes through lethal measures) for human safety. Therefore, 
effluent effects of open-ocean net pens should not be assumed to be 
negligible solely on the basis of dilution.
    Another major area of concern for aquaculture is the environmental 
contamination and human health risks associated with veterinary drugs, 
particularly pesticides and antibiotics (Phillips and Subersinghe, 
2008).

Introduction and spread of disease, pathogens, and parasites to the 
        ocean environment
    The importation of gametes, eggs, fry or breeding stocks for 
aquaculture have been responsible for the introduction of non-native 
pathogens and parasites (e.g. Briggs et al, 2005), and for the 
amplification and retransmission of native pathogens and parasites 
occurring naturally in the environment (Krkosek, 2007). Commercially 
devastating viral, bacterial and parasitic pathogens associated with a 
wide variety of aquaculture species have been introduced across the 
globe and have infected native wild populations (Kibenge et al, 2009).
    In California, for example, the South African sabellid worm was 
introduced through the importation of abalone stock for aquaculture. 
The worm stunted the growth of cultured abalone and spread to the wild 
where it also impacted black turban snails. Researchers at the 
University of California, Santa Barbara had to remove more than a 
million infected snails in Southern California to eradicate the worm 
from the wild. This represents a rare example of the successful 
extermination of an invasive species; usually the ecological and 
socioeconomic impacts of invasive species introductions are 
unpredictable and irreversible.
    In British Columbia, native sea lice have infected salmon farms and 
spread to wild fish in the same area. This caused high mortality rates 
in wild Pink and Chum salmon, threatening to eradicate some local 
stocks within generations if current levels of disease transmissions 
continue (Krkosek, 2007). The entire Chilean salmon farming industry, 
once the world's dominant salmon aquaculture producer and the leading 
exporter to the United States, has been crippled by the spread of a 
viral disease known as Infectious Salmon Anemia.

Heightened pressure on ocean ecosystems through wild capture of forage 
        fish for feed
    While many of the dominant aquaculture species produced globally 
can be cultured in freshwater ponds without the artificial feeding 
(e.g. carp, tilapia and catfish), offshore aquaculture in U.S. waters 
likely will be dominated by high-value species such as tuna and striped 
bass that are carnivorous (fish-eating) by nature. These species 
typically require a diet high in protein and often high in fat (Naylor 
et al, 2000). Fishmeal and fish oil are the two ingredients most 
commonly used to meet these nutritional requirements.
    Scientists estimate that aquaculture annually consumes the 
equivalent of more than 16 million tons of wild fish; marine finfish 
require approximately twice as much wild-caught fish in the form of 
feed as they produce (Tacon and Metian, 2008). Some argue that even at 
this ratio, the conversion efficiency of wild forage fish to farmed 
fish is more efficient than the same farmed species of fish feeding and 
growing in the wild. But this argument ignores the other invaluable 
services provided by a functioning natural ecosystem in which these 
forage fish--such as sardines, herring, and anchovies--play a central 
role, namely the transfer of energy to recreational and commercial fish 
and wildlife and the stability of marine food webs to disturbances and 
climate change. If removed from their natural ecosystems to feed 
aquaculture species, forage fish no longer play these functions and 
much of their nutritional content is wasted in the conversion to farmed 
species.

Risks associated with capture-based aquaculture
    Capture-based aquaculture, also known as ``ranching'', relies on 
the collection of wild juvenile or adult fish for fattening in sea 
cages similar to offshore feedlots. For example, entire schools of 
bluefin tuna are captured by purse seines and transferred to net pens 
in Mexico and Australia where they are fed sardines and fattened for 
export. The capture of wild fish for ranching inevitably maintains or 
increases fishing pressure on wild fish stocks, both on the farmed 
species and the small fishes caught for feed. Today, ranching in 
coastal or offshore sea cages is only commercially viable for high-
value species such as tuna, which are typically already heavily 
overfished (e.g., bluefin tuna). Because the wild-caught fish are not 
landed, their capture may not be recorded as catches or be taken into 
account in fishery statistics and management. Contrary to the notion 
that fish farming relieves pressure on wild stocks, capture-based 
aquaculture that catches juveniles before they are able to reproduce is 
one of the most effective paths to commercial fishery collapse.
    Existing ranching operations rely almost exclusively on bait fish, 
such as sardines and anchovies, for feed. Indeed, virtually the entire 
Pacific sardine catch (California's largest volume fishery) goes to 
feed penned tunas in Mexico and Australia. But the conversion of 
sardines and other small pelagic fishes into ranched tuna and other 
species is typically very inefficient. It takes between 7 and 25 pounds 
of wild bait fish to grow one pound of ranched bluefin tuna, and 
ranching increases fishing pressure on these feed fisheries (Zertuche-
Gonzalez et al, 2008). Unlike the global trade in fishmeal and oil, 
fishing pressure to supply fresh wild fish for tuna ranching is 
typically concentrated locally in the region of the ranching operation. 
Overexploitation of the fisheries used to feed the pens can cause the 
collapse of the ranching operations themselves.

Developing a Comprehensive Framework to Manage Offshore Aquaculture
    Currently, federal authority to manage aquaculture involves many 
different agencies under the authority of multiple laws. The absence of 
a coordinated and comprehensive governance system means regulatory 
uncertainty for fish farmers and a lack of unified criteria on which to 
base effective and environmentally-responsible management decisions. 
The following examples illustrate the need for clear federal guidance 
for offshore aquaculture development.
    In southern California, numerous federal and state agencies 
currently are reviewing a proposal by Hubbs-SeaWorld Research Institute 
(HSWRI) to establish a commercial-scale offshore aquaculture project in 
federal waters. The goal of the project is to produce 3,000 metric tons 
a year of striped bass, white sea bass, yellowtail jack, and California 
halibut in surface cages located five miles off the coast of San Diego. 
Without a comprehensive federal framework to guide it, the regulatory 
process to approve the Hubbs-SeaWorld project has been ad hoc and 
piecemeal. It includes a patchwork of permits from the U.S. Army Corps 
of Engineers, Environmental Protection Agency, and other federal and 
state agencies, none of which was developed specifically for the 
purpose of siting an offshore aquaculture facility. No single federal 
agency with marine management expertise is responsible for ensuring the 
integrity of the overall project, or for additional projects in the 
region that will likely be proposed in the near future.
    A similar situation is occurring in the Gulf of Mexico, where the 
Gulf Regional Fishery Management Council has stepped in to fill a void 
caused by the lack of an overarching regulatory framework for offshore 
aquaculture. Last week, NOAA tacitly approved the Council's Open Ocean 
Aquaculture Fishery Management Plan but made it clear that final 
approval of offshore fish farming under the plan would await the 
development of a comprehensive national policy. Many fear that this 
will set a precedent for similar, fragmented approaches to aquaculture 
management in other U.S. offshore regions. It could also undercut the 
role of Congress in considering federal legislation to establish an 
appropriate, dedicated management framework that will set the course 
for sustainable offshore aquaculture development in all U.S. waters.

Offshore Aquaculture in California--The Sustainable Oceans Act
    In recent years, California has taken significant steps towards 
achieving the goal of economically-productive and environmentally-
responsible marine aquaculture development. In 2006, California enacted 
the Sustainable Oceans Act (SB 201) in anticipation of the impending 
growth of the marine finfish aquaculture industry in California. With 
SB 201, California became the first among state and federal governments 
to establish an overarching policy and set of standards for sustainable 
marine aquaculture in U.S. waters. Since 2006, the State has been 
engaged in a thoughtful and comprehensive effort to develop a 
regulatory program for offshore aquaculture. Currently State agencies 
are working to complete a Programmatic Environmental Impact Report 
(PEIR) on offshore aquaculture--mandated by SB 201--and are expected to 
complete it by December 2009.
    The PEIR process is an essential step in the development of 
California's offshore program as it provides an opportunity to evaluate 
potential impacts of aquaculture operations on a large scale prior to 
ushering in new development. Significantly, it enables the state to 
address potential cumulative impacts on ecosystem health from multiple 
aquaculture operations in a given region, as well as the additive 
ecosystem effects of other human activities in the same area. If done 
properly, the PEIR process will also result in the creation of a 
streamlined permitting process, the development of a common set of best 
management practices, and the identification of the most appropriate 
locations to site aquaculture operations. To help ensure these 
outcomes, SB 201 requires the final PEIR to provide a management 
framework that, at a minimum, adequately considers all of the 
following:
    <bullet>  Appropriate areas for siting marine finfish aquaculture 
operations to avoid adverse impacts, and minimize any unavoidable 
impacts on user groups, public trust values, and the marine 
environment.
    <bullet>  The effects on sensitive ocean and coastal habitats.
    <bullet>  The effects on marine ecosystems, commercial and 
recreational fishing, and other important ocean uses.
    <bullet>  The effects on other plant and animal species, especially 
species protected or recovering under state and federal law.
    <bullet>  The effects of the use of chemical and biological 
products, pollutants, and nutrient wastes on human health and the 
marine environment.
    <bullet>  The effects of interactions with marine mammals and 
birds.
    <bullet>  The cumulative effects of a number of similar finfish 
aquaculture projects on the ability of the marine environment to 
support ecologically significant flora and fauna.
    <bullet>  The effects of feed, fish meal, and fish oil on marine 
ecosystems.
    <bullet>  The effects of escaped fish on wild fish stocks and the 
marine environment.
    <bullet>  The design of facilities and farming practices so as to 
avoid adverse environmental impacts, and to minimize any unavoidable 
impacts.
    California, like other coastal states, has Public Trust 
responsibilities for the submerged lands, waters, and marine resources 
under its jurisdiction--typically up to three miles offshore. As such, 
California is obliged to manage activities that affect these areas and 
resources on behalf of all citizens, including future generations, 
which means recovering at least the cost of managing aquaculture 
operations for public benefit. The California Fish and Game Commission 
is in the process of modernizing the management of all aquaculture 
leases to better reflect these responsibilities, and require lessees to 
help cover management costs, including the costs of issuance, 
monitoring, and enforcement of leases. The state's management 
responsibilities are also reflected in the set of standards for leases 
in SB 201 that include:
    <bullet>  The lease site is considered appropriate for marine 
finish aquaculture in the programmatic environmental impact report.
    <bullet>  A lease shall not unreasonably interfere with fishing or 
other uses or public trust values, unreasonably disrupt wildlife and 
marine habitats, or unreasonably harm the ability of the marine 
environment to support ecologically significant flora and fauna. A 
lease shall not have significant adverse cumulative impacts.
    <bullet>  To reduce adverse effects on global ocean ecosystems, the 
use of fish meal and fish oil shall be minimized, and alternatives to 
these feed ingredients shall be utilized where feasible; and
    <bullet>  Lessees shall establish best management practices for 
each lease site that includes a regular monitoring, reporting, and site 
inspection program.
    <bullet>  The lessee shall provide baseline benthic habitat and 
community assessments of the proposed lease site.
    <bullet>  Finfish numbers and density shall be limited to what can 
be safely raised while protecting the marine environment.
    <bullet>  The use of all drugs, chemicals, and antibiotics shall be 
minimized.
    <bullet>  All farmed fish shall be marked, tagged, or otherwise 
identified as belonging to the lessee, unless deemed unnecessary.
    <bullet>  All facilities and operations shall be designed to 
prevent the escape of farmed fish into the marine environment.
    <bullet>  The lessee shall meet all applicable water quality 
requirements and shall prevent discharges to the maximum extent 
possible.

Essential Elements of a Management Framework
    The development of a federal offshore aquaculture program can 
benefit tremendously from what we know about risks to ocean ecosystem 
health, and from California's leadership in advancing a sustainable 
management regime. The following essential components of a federal 
program are based on this understanding.

Mandate a precautionary approach
    As noted above, the environmental risks associated with offshore 
aquaculture activities have the potential to dramatically alter ocean 
ecosystems on a large scale. These risks should be addressed both on an 
individual project basis and in the context of other human uses of 
ocean ecosystems. We still have a lot to learn about the cumulative 
impacts of multiple aquaculture operations on the marine environment, 
and about the additive effects of aquaculture and other human 
activities in ocean regions. For this reason, the United States should 
use a precautionary approach to guide the expansion of offshore 
aquaculture operations. The developers of potential offshore fish farms 
should be required to demonstrate that they will not harm associated 
marine ecosystems before permits are issued. Once permits are issued, 
robust research and monitoring programs must be mandated to 
continuously improve aquaculture management in U.S. waters. The goal of 
this program should be to increase our understanding of how to design 
and operate productive aquaculture facilities in ways that are 
compatible with healthy, functioning ocean ecosystems.

Articulate clear national standards
    Throughout its history, Congress has understood the importance of 
providing national leadership with comprehensive policy and standards 
for the management of our natural resources. For example, the nation's 
principal law governing marine fisheries--the Magnuson-Stevens Fishery 
Conservation and Management Act--includes a set of ten National 
Standards that clearly articulate the nation's interest in achieving 
healthy, sustainable fisheries through effective management measures. 
Like the standards in California's Sustainable Ocean Act, the National 
Standards in the Magnuson-Stevens Act set goals for and provide 
direction to agencies regarding the management of marine resources. A 
similar set of strong and comprehensive standards must be included up-
front in federal offshore aquaculture legislation.

Require ecosystem-based management and marine spatial planning
    The ecosystem services provided by our oceans are dependent on 
biological, oceanographic, and geological processes that may be 
vulnerable to the impacts of offshore aquaculture. Examples of 
important ecological areas that are susceptible to aquaculture impacts 
include fish spawning areas, sensitive seafloor habitats (canyons, 
seamounts, corals, rocky reefs, etc), migratory corridors for highly 
mobile species (such as tunas, sharks, and whales), and foraging areas 
for seabirds, marine mammals, and commercial fish species. These areas 
should be identified in a comprehensive manner as a precursor to 
specifying appropriate areas to permit offshore aquaculture. Given the 
local and regional impacts that are inevitable with open ocean 
aquaculture, it is critical that these operations are located extremely 
carefully, so as to minimize the spatial footprint of each operation 
and its effects on important ecosystem functions.
    At the same time, the U.S. Exclusive Economic Zone is host to a 
growing number of ocean uses, including aquaculture, oil and gas 
development, renewable energy development, shipping, sand and gravel 
mining, tourism, scientific research, military operations, and many 
others. In recognition of our growing impact on the ocean environment, 
President Obama recently issued a memorandum calling for the 
development of a national ocean policy to guide the long-term 
conservation and use of ocean resources. The President also called on 
an Interagency Ocean Policy Task Force to recommend a framework for 
effective marine spatial planning that would establish an orderly and 
coordinated process for addressing emerging ocean uses such as offshore 
aquaculture and improving the management of existing activities. 
Accordingly, the management of offshore aquaculture activities should 
be guided by the national ocean policy, and integrated with the 
national marine spatial planning framework, once they are established.

Adequately address environmental risks
    National standards for offshore aquaculture in federal waters 
should address the full suite of potential ecosystem impacts of these 
activities. The comprehensive standards and criteria included in 
California's Sustainable Oceans Act should be used to guide the 
development of the federal program; federal standards should be at 
least as protective as those codified in SB 201, and set the following 
goals:
    <bullet>  Prohibit the production of non-native species in offshore 
facilities.
    <bullet>  Prevent escapes of farmed species.
    <bullet>  Prevent the introduction, incubation, and spread of 
disease, pathogens, and parasites.
    <bullet>  Minimize the impact of nutrient discharges to the maximum 
extent practicable by mandating specific, measurable limits.
    <bullet>  Forestall negative impacts on native fish and wildlife, 
and their use of marine habitats.
    <bullet>  Avoid contributing to the overexploitation of forage fish 
or disruption of marine ecosystems.
    These and other environmental standards should be incorporated into 
a programmatic review of the federal regulatory framework to evaluate 
the potential effects of this framework on a large and comprehensive 
scale. This review should include the same requirements prescribed in 
SB 201, and result in a greater understanding of the cumulative impacts 
of aquaculture operations, the development of a common set of best 
management practices, a streamlined permitting process, and the 
identification of the most appropriate places to locate aquaculture 
operations.

Preserve opportunities for coastal state review
    Coastal states play an important role as stewards of ocean and 
coastal areas and resources. With the Coastal Zone Management Act 
(CZMA), Congress entrusted coastal states with the responsibility to 
manage coastal resources and review activities beyond the state's 
coastal zone that may affect it. CZMA authorizes states to reject 
offshore activities that are inconsistent with an approved coastal 
plan. As discussed earlier, there are a number of environmental risks 
associated with the operation of offshore aquaculture facilities that 
have the potential to dramatically alter ocean ecosystems on a large 
scale. The potential for these impacts to affect state waters increases 
the closer these facilities are to the state's three-mile limit. This 
is the case with the Hubbs-SeaWorld project, which is to be located 
just five miles off the southern California coast. For these reasons, 
federal offshore aquaculture legislation should recognize and 
incorporate states' coastal management responsibilities into the 
federal regulatory program, and preserve the authority of coastal 
states under the CZMA.

Effectively address stakeholder interests
    Input from stakeholders and other citizens in the program 
development and permitting process is critical for addressing the 
public's interest in the management of ocean resources, and for meeting 
the needs of user groups to the highest extent possible. In California, 
an Aquaculture Development Committee, first authorized in 1982, was 
recently reconvened to work with the Department of Fish & Game to 
provide advice on marine aquaculture under state jurisdiction. Members 
of the committee work with Department staff on various aspects of the 
state's program. Committee membership is comprised mostly of industry 
representatives, with NGO partners acting as observers. At the national 
level, a similar advisory body should be established to enable the 
entire range of interests--industry, academia, conservationists, 
fishermen, and others--to contribute to effective management of 
aquaculture in U.S. waters. In addition, federal offshore aquaculture 
legislation should include robust public participation and comment 
opportunities at key points in the regulatory process.

Conclusion
    As aquaculture continues to grow across the globe, industry 
pressure for the development of offshore fish farming in U.S. waters 
likely will accelerate. Congress has the rare opportunity--and 
responsibility--to construct an entirely new regulatory framework to 
effectively manage a nascent industry in U.S. waters. Based on the 
potential significant risks to the ocean and coastal environment from 
aquaculture operations, this framework must place a high priority on 
the protection of wild fish and ecosystems. It must include clear and 
comprehensive standards to guide industry development, and adopt a 
precautionary and adaptive-management approach to scaling up 
aquaculture operations in U.S. waters. Following the example set by 
California, the federal program should support industry growth in a way 
that ensures the continued integrity of the overall ocean ecosystem and 
economy.

References
Casal, C.M.V. 2006. Global documentation of fish introductions: the 
        growing crisis and recommendations for action. Biol. Invasions, 
        8: 3-11.
Hallerman, E. 2008. Application of risk analysis to genetic issues in 
        aquaculture. In M.G. Bondad-Reantaso, J.R. Arthur and R.P. 
        Subasinghe (eds). Understanding and applying risk analysis in 
        aquaculture. FAO Fisheries and Aquaculture Technical Paper. No. 
        519. Rome, FAO. pp. 47-66.
Kibenge F., Godoy, M., Wang, Y., Kibenge M., Gherardelli V., Mansilla 
        S., Lisperger A., Jarpa M., Larroquete G., Avendano F., Lara 
        M., Gallardo A. (2009) Infectious salmon anaemia virus (ISAV) 
        isolated from the ISA disease outbreaks in Chile diverged from 
        ISAV isolates from Norway around 1996 and was disseminated 
        around 2005, based on surface glycoprotein gene sequences. 
        Virology journal 2009;6, 88.
Kildow, J.T., Colgan, C.S., Scorse, J. (2009) State of the U.S. Ocean 
        and Coastal Economies. National Ocean Economics Program. 56 pp. 
        (http://www.oceaneconomics.org/NationalReport/)
Krkoek, M., Ford, J., Morton, A., Lele, S., Myers, R., Lewis, M. 
        (2007). Declining Wild Salmon Populations in Relation to 
        Parasites from Farm Salmon. Science. 14 December 2007:Vol. 318. 
        no. 5857, pp. 1772--1775.
Kuiper, T. (2009) Economic Overview of California Bivalve Aquaculture. 
        Presentation to Fish & Game Commissioners Richards & Rogers, 
        May 13, 2009, Sacramento.
Leung, K.M.Y. and Dudgeon, D. 2008. Ecological risk assessment and 
        management of exotic organisms associated with aquaculture 
        activities. In M.G. Bondad-Reantaso, J.R. Arthur and R.P. 
        Subasinghe (eds). Understanding and applying risk analysis in 
        aquaculture. FAO Fisheries and Aquaculture Technical Paper. No. 
        519. Rome, FAO. pp. 67-100.
Naylor, R.L., Goldberg, R.J., Primavera, J.H., Kautsky, N., Beveridge, 
        M.C.M., Clay, J., Folke, C., Lubchenco, J., Mooney, H., Troell, 
        M., 2000. Effect of aquaculture on world fish supplies. Nature 
        405, 1017-1024.
Phillips, M.J. and Subasinghe, R.P. 2008. Application of risk analysis 
        to environmental issues in aquaculture. In M.G. Bondad-
        Reantaso, J.R. Arthur and R.P. Subasinghe (eds). Understanding 
        and applying risk analysis in aquaculture. FAO Fisheries and 
        Aquaculture Technical Paper. No. 519. Rome, FAO. pp. 101-119.
Pimentel, D., Lach, L., Zuniga, R. & Morrison, D. 2000. Environmental 
        and economic costs of non-indigenous species in the United 
        States. Bioscience, 50: 53-64.
Pimentel, D., Zuniga, R. & Morrison, D. 2005. Update on the 
        environmental and economic costs associated with alien-invasive 
        species in the United States. Ecol. Econ., 52: 273-288.
Pimentel, D., Zuniga, R. & Morrison, D. 2005. Update on the 
        environmental and economic costs associated with alien-invasive 
        species in the United States. Ecol. Econ., 52: 273-288.
Weigle, S.M., Smith, L.D., Carlton, J.T. & Pederson, J. 2005. Assessing 
        the risk of introducing exotic species via the live marine 
        species trade. Cons. Biol., 19: 213-223.
Zertuche-Gonzalez, J.A., R.M. Simanek, O. Sosa-Nishizaki, C. Yarish, 
        J.G.V. Rodriguez, and B.A. Costa-Pierce. 2008. Marine science 
        assessment of capture-based tuna (Thunnus orientalis) 
        aquaculture in the Ensenada region of northern Baja California, 
        Mexico. University of Connecticut Department of Ecology and 
        Evolutionary Biology--Stamford Publications. Available at 
        http://digitalcommons.uconn.edu/ecostam
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Sutton. And you 
don't know how pleased we are that you are on the right side of 
the fence this time. I want to thank you for bringing up all of 
the insights on California's approach to offshore aquaculture.
    And I will now recognize Members for any questions that 
they may wish to ask, alternating between the majority and the 
minority. And I will begin with myself.
    I have three questions for Dr. Balsiger. The Joint Ocean 
Commission Initiative's recent recommendation stated that 
current and emerging activities in the ocean are governed in a 
piecemeal fashion resulting in user conflict that risks our 
environment. Given the Administration's efforts to resolve 
these conflicts with an inter-agency ocean policy task force 
charged to develop a comprehensive ocean policy, why did the 
Administration approve the Gulf aquaculture plan before 
recommendations for a national ocean policy were developed?
    Dr. Balsiger. Thank you, Madam Chairwoman. It is perhaps a 
fine point that the Secretary did not approve the Gulf of 
Mexico's Fisheries Management Plan amendment, rather the 
Secretary made no comment on it, which allowed the plan to go 
into effect by operational law. We thought that it was 
important that we allow that to go into effect.
    Ms. Bordallo. So for the record, Doctor, what you are 
saying is that the Administrator did not approve but it went 
into effect.
    Dr. Balsiger. That is correct. The Magnuson-Stevens Act has 
a provision that allows the Secretary of Commerce to approve, 
disapprove, or partially disapprove actions taken by the 
Councils, and if the Secretary declines to take any of those 
actions then the law goes into effect by operation of law 
without specific comment by the Secretary of Commerce, and that 
is what happened on the Gulf of Mexico Fishery Management 
Plan's offshore aquaculture bill. We thought it was important 
that the bill go into effect because in absence of that, there 
is no overlying structure that would prohibit a flurry of 
offshore aquaculture operations in the Gulf of Mexico.
    There are, of course, provisions for review by the 
Environmental Protection Agency and by the Corps of Engineers, 
but concerns about fish management or concerns about the 
habitat that those fisheries and species might consume, would 
not have been considered. So there is a law in effect now that 
governs that process. There is no vacancy there, and it sets it 
up for the development of a national framework so, as you have 
said, it would allow a consistent approach to permitting 
offshore aquaculture across the country.
    Ms. Bordallo. At the same time, Doctor, that the 
Administration is developing recommendations for a national 
ocean policy, we now learn that you are also planning to 
develop a national aquaculture policy. So many policies. How 
will the agency reconcile the Gulf aquaculture plan with the 
yet-to-be-developed national policy on offshore aquaculture?
    Dr. Balsiger. Madam Chairwoman, I think that is a very 
astute observation. We are looking at a number of policies. I 
think it demonstrates the new Administration's concern for 
sustainable use of marine resources based on ecosystem 
approaches and based on the best science we have. So there are 
a number of policies we are looking at. I don't believe that 
there is an inconsistency between the simultaneous development 
of these policies. Obviously, there is a lot of work to do to 
coordinate and make sure that they are consistent with each 
other and they all fit under the same umbrella, but I think 
that there are good reasons that these are all being looked at, 
at this time.
    Ms. Bordallo. I have another question here. What is the 
primary objective of the national aquaculture policy to 
regulate aquaculture, to make recommendations to the councils?
    Dr. Balsiger. The primary purpose of the national policy or 
framework is to make certain that all of the best practices 
that have been learned in the world over the past 50 years on 
aquaculture are incorporated every time an offshore operation 
is put in place. The reason we want a national approach is to 
make sure we have a consistent approach throughout the country 
and not different approaches in the Gulf of Mexico or in other 
areas where other councils might have ideas. We do think that 
it is important to have regional input, regional development of 
these plans, but they need a broad framework within which to 
fit those regional development plans. And that broad framework, 
that national consistency, that outlook is not available just 
yet.
    Ms. Bordallo. Thank you very much, Doctor.
    I have some questions for you, Mr. Sutton. First, would 
Federal legislation modeled on the California bill provide a 
good foundation for the offshore aquaculture industry to grow 
while protecting commercial fisheries and coastal ecosystems in 
the United States?
    Mr. Sutton. Thank you, Madam Chairwoman. I believe the 
answer to that question is yes. It is worth noting that the 
California bill is seven pages long, the discussion draft at 
the Federal level is 60 pages long. That must mean that the 
Federal legislation, as drafted, does an even better job than 
California. But I should say that while California's 
legislation governs only coastal waters, and we are talking 
here about offshore aquaculture more than three miles offshore, 
nonetheless, it is my sense that California's bill would 
provide at least a good precursor to Federal legislation 
because it comes to grips with many of the same issues that 
Federal legislation will have to deal with. And as I said 
before, your discussion draft is a very good start at that.
    Ms. Bordallo. Thank you very much, Mr. Sutton.
    I will now turn the questions over to our Ranking Member, 
Mr. Brown from South Carolina.
    Mr. Brown. Thank you, Madam Chair.
    Mr. Sutton, I would like to follow up on that question that 
the Chairlady just introduced. Since the enactment of the 
California aquaculture legislation, which many seafood industry 
representatives feel is somewhat restrictive, how many offshore 
permits have been submitted for approval?
    Mr. Sutton. Thank you, sir. As I said in my testimony, it 
is premature for anyone to apply for a permit under the 
California legislation because we have not yet finished the 
programmatic environmental impact review that is required by 
the legislation. We are on track to complete that by the end of 
the year, and we should be able to start approving permits for 
offshore aquaculture by early next year.
    Mr. Brown. When was the bill passed?
    Mr. Sutton. The bill was passed in 2006, but as you know we 
have been experiencing a fiscal crisis in California lately, 
and everything is moving pretty slowly.
    Mr. Brown. Well, I can understand if you are restricting 
jobs. and one of the problems California has is people out of 
work. The other day, we tried to pass a bill where some little 
fish restricted some 500,000 acres of land from being developed 
for agriculture that is now sitting idle, and 65,000 people are 
out of work.
    Mr. Sutton. Well, sir, in California, as I suspect in many 
coastal states, the majority of our jobs in the coastal zone 
have nothing to do with aquaculture or even fisheries. They 
have to do with coastal tourism and shipbuilding. The coastal 
economy is enormous in California, it returns about $46 billion 
a year. We can't afford to put those jobs at risk by ill 
advised aquaculture operations. That is why we are taking our 
time to make sure we get it right in the coastal zone before we 
start issuing aquaculture permits left and right.
    Mr. Brown. But you will have to agree that 80 percent of 
our needs are being developed someplace else, and we are not 
quite sure what kind of environmental conditions they are being 
developed in either. Do you think it will take another year for 
the environmental impact to be completed?
    Mr. Sutton. I think we will be finished with our 
programmatic environmental impact review by the end of the 
year. And you are right, sir, there is no way we are going to 
see aquaculture off California that looks like aquaculture in 
Thailand or Malaysia or Indonesia or anywhere else that we 
import from, because in many of those places there are no 
environmental standards and we don't want to see the kinds of 
destruction that we have seen in the mangrove forests of India 
and Thailand off our coast. We can't afford that, our coastal 
economy is too valuable.
    Mr. Brown. And, as you know, I represent a coast myself in 
South Carolina, so I understand the fragile coastal environment 
there. But somehow or another we have to be able to become more 
of a producer and not a consumer. And this is something we are 
not only concerned with in aquaculture but in our total 
manufacture environment.
    As we talk about so many restrictions being put upon the 
development of industry in the United States, this is certainly 
one that we feel like is a no-brainer. And I would hope to get 
some results back from your environmental impact statement to 
see if there is a problem, because listening to the Chairlady 
it sounds like we are looking for some kind of a model that we 
can use. Do you have any forums at all there? I know you said 
some were developed under the previous regulations.
    Mr. Sutton. We actually have a thriving aquaculture 
industry in California both land based and estuarine along the 
coast line. The shellfish aquaculture industry alone returns at 
least $16 million a year to the California economy, and many of 
those shellfish farms leave the water cleaner than it started. 
And, of course, I agree with you that we need to do whatever we 
can to reverse the seafood deficit in this country. But in 
fact, sir, even if we were to launch a massive commitment to 
offshore aquaculture, it would be very difficult to reverse the 
seafood deficit that now stands at 82 or so percent of our 
seafood is imported.
    Mr. Brown. And going up, right. Well, we certainly 
appreciate your coming today from California to give us this 
insight, and we are certainly anxious to see the conclusion of 
your environmental impact statement because I know that we have 
to address our food supply chain here in America, not only just 
for the economics but I think for the world safety.
    Mr. Sutton. Well, thank you, sir. We also are very mindful, 
as I know you are, about the need to protect our fisheries and 
make sure that nothing we do in the aquaculture front threatens 
our thriving fisheries, and in many cases our rebuilding 
fisheries from past depletion. We are rebuilding those 
fisheries, we can't afford to have aquaculture operations 
interfering with that process. But in fact aquaculture, as we 
have seen in California with white sea bass, for example, can 
serve to help restore our native fisheries.
    Mr. Brown. Right. And I think we will hear from folks from 
Alaska later who will speak to the salmon industry, and a lot 
of the production of the salmon is certainly in some kind of 
commercial incubator and such. It is a major concern. We feel 
like we have lost the car industry and our petroleum industry, 
and some other industries, but we feel like fisheries are a no-
brainer that we can gather that back. Thank you very much.
    Mr. Sutton. Thank you.
    Ms. Bordallo. I thank the gentleman from South Carolina, 
Mr. Brown.
    And now as Chair I would like to recognize the gentleman 
from American Samoa, Mr. Eni Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. I apologize I was 
not able to make it earlier to hear the testimony of our two 
friends, witnesses from the Administration and from California. 
I do want to commend you and our Ranking Member for calling 
this hearing. This is not a new issue. My gosh, we have been 
banging this issue for how many years now about the critical 
need for better development of our marine aquaculture 
development program.
    If I am correct, Dr. Balsiger, in terms of the statistics 
that you mentioned in your testimony, given the fact that the 
worldwide industry as far as marine aquaculture is concerned is 
in the range of about $70 billion as a worldwide industry, and 
our own country has to import over $9 billion of fish and other 
marine related seafood from the world because simply, in other 
words our $9 billion in my humble opinion should stay here in 
our own country in developing our own domestic aquaculture 
development program.
    It is not only to provide jobs for our people here, but it 
has been my experience that there is always this fighting that 
goes on between the regulatory agencies versus the Department 
of Commerce--on one hand, trying to promote commercial aspects 
of marine aquaculture and, on the other hand, we can't do it 
because of environmental reasons, or because other fishing 
interests in our country that don't want aquaculture 
development. Maybe you could help me on that, Dr. Balsiger, to 
put me through the whole litany of issues here.
    Our largest industry of freshwater species and oysters, 
clams, and mussels provide about 75 percent production of our 
local marine aquaculture. You cited here also 25 percent is 
salmon, 10 percent is shrimp, and where is my tuna? I would say 
that we probably exported at least that much in times past from 
the territories. Even in my own district, we export somewhere 
between $400-to-$500 million worth of canned tuna to the United 
States every year. I haven't seen one statistic here in the 
report, Dr. Balsiger, whether or not tuna should be just as 
important as our production of salmon and shrimp and oysters 
and clams or mussels. How come my tuna is not included in your 
analysis? Maybe tuna is a little too big?
    Dr. Balsiger. Sir, tuna is a very important species for us, 
especially from your part of the world. I will make certain we 
reference tuna from this point on. There are operations that 
are raising tuna in open ocean waters and other parts of the 
country. We can get some information on that. I appreciate your 
bringing that to my attention.
    Mr. Faleomavaega. Well, right now my tuna industry is going 
dead simply because of the keen competition that we are getting 
from some 20 other countries in the world. Thailand has 
probably well over 20,000 workers that get paid $.60 an hour in 
cleaning tuna and exporting tuna to the United States. The 
biggest producer of canned tuna and manufacturing or processing 
comes from Thailand and several other Asian countries, and I am 
totally disappointed in the fact that the Administration 
doesn't seem to pay that much attention to my tuna. Would you 
be willing to help me try to figure out some way so that if we 
are able to provide subsidies for sugar and all other items 
that we have been doing for so many years, can we also get some 
kind of a subsidy for my tuna?
    Dr. Balsiger. Sir, I am not certain that is in my area. I 
understand your tuna issues. The Administration does spend 
quite a bit of time and effort on tuna. At the Southern Tuna 
Conference of the Western and Central Pacific Fisheries 
Commission, the WCPFC, we have supported tuna research and 
operations in our La Jolla, California labs.
    Mr. Faleomavaega. But the problem, Dr. Balsiger, and I am 
sure you will agree with me, is we have been studying, 
studying, studying tuna for the last hundred years. And guess 
where all this data and information go to become the 
beneficiaries? We should do the studies, but also the followup, 
to better improve our tuna industry. Our data goes to these 
foreign countries that turn around and export the tuna to our 
country.
    So we are pretty good in studying, but then on the followup 
in terms of what can be done to help the development of our own 
marine fisheries program, I don't seem to see a sense of 
balance. I think, what is the saying, Madam Chair, paralysis by 
analysis. We keep studying, studying, and this is what we have 
been doing for all these years. Twenty years ago, I visited the 
fish farms. Little countries, like Taiwan, have tanks about 
half as big as this room, and a certain production level. The 
fish are done by literally having fish tanks.
    And guess where that fish goes, it is sold all over Asia, 
probably even exported to the United States. And here we are 
still grumbling over whether or not that fish is clean enough 
to be processed. We have a problem with catfish, and I fully 
respect and am concerned about how clean we raise our catfish 
versus how they raise catfish in Vietnam, for example. I 
understand the problems of making sure that catfish doesn't 
have other problems that will affect the health conditions of 
our consumers in that regard.
    But I am totally disappointed in the fact that there is 
nothing in here that mentions the $400-to-$500 million industry 
in my district, where tuna isn't even given any sense of 
concern by NOAA. I suspect you are aware of the fact that 
Australia now has been able to create these eggs, and I am 
sorry I am not a marine biologist, but they are bluefin tuna, 
the highest quality fish in the world, that cost about $10,000 
a pop in Tokyo fish markets; but they don't have to worry about 
the bluefin tuna going all over the Pacific. They can hatch 
it--they can do seedlings and produce the seed for tuna by fish 
farming.
    The State of Hawaii has been doing experimentations of 
having tanks to do this, and yet it is all experimental. All 
experimental. When are we going to do it so that it can become 
a productive industry and so that we don't have to import over 
$9 billion worth of fish? Why shouldn't that $9 billion go 
around California, Florida, all of our coastal states, and even 
to my own little district, may I ask?
    Dr. Balsiger. Sir, I agree with you that there should be a 
structure in place that businesses can rely on so they 
understand the rules, the understand their investments, they 
can develop business plans that might allow them to do such 
things. That is part of the reason that we believe we need a 
national offshore aquaculture policy. We need a framework so 
businessmen can understand what their investments are, what 
their risks are. And so that is what we are trying to achieve.
    Mr. Faleomavaega. Dr. Balsiger, I look forward to working 
with you. Madam Chair, I know my time is way past, but I will 
wait for the second round. Thank you.
    Dr. Balsiger. Thank you.
    Ms. Bordallo. I thank the gentleman from American Samoa.
    I would like now to recognize the gentleman from Louisiana, 
Mr. Cassidy.
    Mr. Cassidy. Dr. Balsiger, I am trying to understand the 
Gulf plan. And so let me just pick your brain if I may. There 
are preferred options, there are alternatives, how would the 
regulatory agency make a decision between preferred alternative 
2 as opposed to alternative 3? Does that make sense, does my 
question make sense?
    Dr. Balsiger. Yes it does. Those preferred alternatives are 
explored in the environmental impact statement that was 
developed, the NEPA documentation, that was developed to 
support the Council's decision. So they have chosen those 
alternatives.
    Mr. Cassidy. So the preferred option therefore would be the 
one that would be employed as opposed to alternative 3 for 
example? Or I guess what I am trying to figure out, is this, OK 
in this particular situation we prefer option 2 but at times we 
may do option 3 if a set of criteria are reached? I am not 
begging an answer, I am actually asking.
    Dr. Balsiger. The plan that was adopted by the Gulf of 
Mexico Council which has gone into effect by operation of law 
identifies a number of criteria that would be examined and 
before any permits could be processed or given out to anyone. 
And, of course, the regulations that will be developed to enact 
that particular law are in process. And so all of those issues 
are not fleshed out in regulation, that is a process that is 
ongoing. I think that if you look at that Gulf plan it speaks 
to most of the things that we have been hearing here this 
morning about concerns for the environment, about native 
species, the regular list of concerns that rise when we talk 
about offshore aquaculture operations. So those types of things 
would be handled in the regulations as they are being 
developed.
    Mr. Cassidy. So again, just so I understand, I am sorry to 
be dense, if it says, preferred alternative 2 versus 
alternative 3, the preferred alternative 2 would be the one 
that would be the basis for further permitting?
    Dr. Balsiger. Mr. Cassidy, I must confess I have lost track 
of the alternative numbers that were examined.
    Mr. Cassidy. I was just doing that conceptually, if it says 
preferred alternative 2 versus 3, does that mean the 
alternative which is preferred will be the one used as the 
basis for permitting?
    Dr. Balsiger. That is correct, that is the Gulf plan's 
decision which has now gone into effect.
    Mr. Cassidy. Now, as I read those, those speak about having 
an area two times as large as the area to be used for 
aquaculture to allow, I gather, some rotation. So what would be 
the impact upon, our gulf is very busy, we have shipping lanes, 
we have recreational fishermen, we have commercial fishermen, 
et cetera. How is that balance going to be achieved between, 
this territory is mine therefore do not do recreational fishing 
in it, versus something else?
    Dr. Balsiger. Those are concerns that the regulations will 
speak to, and as Chairwoman Bordallo mentioned, we have other 
tasks force looking at things like marine spatial planning, and 
so I hope that these will develop simultaneously both for 
commercial wild species catching and for aquaculture so that we 
can have a record of all the required uses and make a good 
business decision on those.
    Mr. Cassidy. So although it has become effective and the 
Gulf Council can theoretically start issuing permits, I should 
actually consider this a work in progress--as opposed to a fait 
accompli, like Mr. Sutton says. It is still going to be a while 
before we will most likely see a permit issued, is that fair?
    Dr. Balsiger. The Gulf of Mexico's plan is in law but it 
does not allow the issuance of permits until the regulations 
have been developed. So the Gulf of Mexico Council is not in a 
position to issue permits for offshore aquaculture right now. 
In that sense it is a work in progress as those regulations are 
being developed.
    Mr. Cassidy. And my next question is, as we speak of 
national guidelines, I have learned in previous hearings on 
other issues that there is somewhat of a difference between the 
California coast, for example, and the Gulf of Mexico, and 
again difference between some place else. So just for my 
information, when you develop national guidelines, will it 
still allow some sort of regional variance to account for the 
fact that the water is a lot colder in northern California than 
it is off the coast of Louisiana and Mississippi?
    Dr. Balsiger. Yes, sir. I believe I mentioned that we think 
it is important that offshore aquaculture plans be developed 
regionally by the experts that know that particular geography. 
And the purpose of the national guidelines would be to make 
certain that the regionally developed plans are all consistent 
particularly with respect to environmental protections, 
opportunities for businesses to understand the rules to make 
investments, to understand their risks, and those kinds of 
things. So in our opinion they should be regionally developed.
    Mr. Cassidy. OK, thank you.
    Ms. Bordallo. I thank the gentleman for his questions.
    And I would like now to recognize the gentleman from the 
Northern Marianas, Mr. Sablan for any questions.
    Mr. Sablan. Thank you. Thank you, Madam Chair, and thank 
you for your leadership and continued leadership in fisheries 
and the affairs of the territories. Dr. Balsiger, sir, the 
Northern Mariana Islands, we have organizations or agencies 
that are looking into aquaculture out in the ocean, and I am 
not sure if they are doing as well in looking into it as your 
organization is in studying it as my colleague from American 
Samoa says.
    But we are surrounded by water, and potentially year-round 
production seasons, pathogen-free waters, and close proximity 
to the Asian markets for seafood-consuming countries. Would you 
consider eventually looking at opportunities in the territories 
for studies. I mean, take whatever studies you already have and 
we could use it to develop aquaculture in the territories, 
which basically have very few resources to develop on their 
own. Has that possibility ever occurred to anyone?
    Dr. Balsiger. Well, thank you for that question. NOAA 
Fisheries does have an aquaculture office where we have people 
that have worked in aquaculture and understand the 
characteristics that are necessary for successful operations. 
We would be more than happy to have that group of people work 
with you, consult with you, or industries, entrepreneurs who 
are interested in that kind of stuff, to help out on the start 
of that kind of a program.
    Mr. Sablan. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from the Northern 
Marianas.
    And now I would like to recognize the gentlelady from 
California, Ms. Lois Capps.
    Mrs. Capps. Thank you, Madam Chair, and thank you for 
holding this important hearing.
    Mr. Sutton, as you are well aware, California's aquaculture 
bill, SB-201, is neither hostile to nor supportive of offshore 
aquaculture. Instead it is my impression that the intent of the 
bill is to make sure that we do aquaculture correctly, with the 
idea that this can only be helpful to the environment and 
public health. Do you believe this is a good model for national 
policy? And you may have stated this in your opening remarks, 
but I want it to be underscored for the record please.
    Mr. Sutton. Thank you, ma'am. I did say before that I think 
this California legislation is a very good precursor for 
Federal legislation. The United States has more ocean area 
under its jurisdiction than any country in the world, much of 
which is in our territories, and the three Members here from 
our territories are well aware of that. We have to get this 
right. Our fisheries are too valuable to put at risk from 
aquaculture operations, and so one of the things that the 
California legislation does, and that we try to do within the 
state regulatory process, is carefully balance two competing 
interests.
    One interest in the promotion of aquaculture development, 
and the other interest is in protecting our native species and 
our fisheries and our coastal ecosystems and so forth. We think 
we can strike the right balance there, and it is important to 
strike that right balance at the Federal level too. And our 
legislation is part of that. We are constantly weighing those 
two competing interests. We have to make sure we get that 
right. It is very important to protect our native ecosystems 
and our fisheries at the same time we promote aquaculture 
opportunities offshore.
    Mrs. Capps. Thank you very much. Dr. Balsiger, I am going 
to pose the same question to you. Do you believe the California 
Senate Bill 201 is a good model for a national bill, keeping in 
mind the kind of questions that Mr. Cassidy has already posed 
to you, that it is one thing to talk about a California coast, 
actually our coastline is quite diverse as well, but we are now 
going to address this from a national point of view and there 
are a lot of questions similar to what Mr. Cassidy has raised. 
Would you offer your perspective from the NOAA point of view?
    Dr. Balsiger. Thank you, yes. The California bill speaks to 
the issues that we believe are most important, which include 
the environmental concerns, which I won't list here again, we 
have talked about them at some length. So I think that there is 
a lot to be learned from there. Certainly we will be looking at 
that at NOAA as we develop the national policy. We will look at 
other documents, we will look at old policies, and so I think 
that is an important piece of material that we have to include, 
and I think it is in alignment with the things that we are 
concerned about nationally.
    Mrs. Capps. Are there any components of a national policy 
that you wish to elucidate at this point in addition to what 
you have already said? Speaking to the development of a 
sustainable offshore aquaculture.
    Dr. Balsiger. Sustainability, of course, is very important. 
As I mentioned, we are in the Department of Commerce, so we are 
anxious for businesses to understand the rules of the games 
early on, and so I think those kinds of things have to be 
included in the national policies as well.
    Mrs. Capps. I want to ask for your pledge really, and I 
know we can count on it, to work with me on legislation that I 
am preparing, and the Natural Resources Committee is moving 
forward to craft such legislation. Can we count on the 
Administration's support in some of the ways that have been 
outlined in this first panel and in the testimony of our later 
panel?
    Dr. Balsiger. Yes, ma'am, you can count on that.
    Mrs. Capps. I appreciate it. Madam Chair, I have maybe a 
couple more seconds left, but I want to ask for your indulgence 
that I have an important hearing, I need to leave, I am not 
able to stay for a second round, I do have one further question 
for Dr. Balsiger, could I extend my time a little bit now?
    Ms. Bordallo. You can ask your further question.
    Mrs. Capps. Thank you. If I could just get a different take 
on this now, I believe the debate over aquaculture cannot be 
viewed in a vacuum and that to ensure the health of our marine 
ecosystems we must also consider our policies with respect to 
the wild fisheries. Clearly one of the biggest concerns 
surrounding aquaculture is its potential impact on wild 
fisheries, in particular the use of forage fish as feed. Given 
the crucial role of forage fish as food for high level 
predators and the importance of these fish to the overall 
health of our ecosystem do you think it would be prudent for 
NOAA to develop more conservative catch limits for forage fish 
as we move forward with national aquaculture policy?
    Dr. Balsiger. Well, thank you for that question. It is 
interesting that in Alaska the North Pacific Fish Management 
Council actually has put a prohibition on the harvest of forage 
fish. So the idea of protecting forage fish has not escaped 
NOAA's ideas nor the Fish Management Councils. I do think that 
it is important that we look at those issues. As we have 
pointed out, regional circumstances are quite different, and so 
I think it is important that we look at alternative feeds for 
aquaculture use.
    We do have an initiative on that working with the U.S. 
Department of Agriculture, looking at different ways to finish 
fish in aquaculture situations. It is interesting that some 
remarkable progress has been made where relative to fish in the 
wild, fish in aquaculture pens can be reared on much less fish, 
and so I think that is a very important point and we intend to 
look at that.
    Mrs. Capps. Thank you. These are the kind of considerations 
that I believe should be part of any comprehensive approach to 
offshore aquaculture. And again the fact that you are already 
considering this I think is indication that we will pursue 
this, we want our wild fisheries to know that their vantage 
points, their business, their whole way of life is not going to 
be ignored as we entertain the topic and work with you and all 
of the various groups to develop this kind of legislation. 
Thank you very much.
    Dr. Balsiger. Thank you.
    Ms. Bordallo. I thank the gentlelady from California, Ms. 
Capps.
    And now we will have a second round. I have a couple of 
questions here for first Mr. Sutton. Mr. Sutton, in your 
experience, what are the benefits of employing a precautionary 
approach to the development of offshore aquaculture?
    Mr. Sutton. Thank you, Madam Chairwoman. The precautionary 
approach, it is a simple concept. It means that in cases of 
uncertainty we err on the side of conservation, not 
exploitation. So what that means in terms of offshore 
aquaculture is that the burden should be on those who would 
like to develop offshore aquaculture to demonstrate that it is 
not going to harm native ecosystems, fisheries in the area, and 
so forth.
    I think the benefits of a precautionary approach are pretty 
clear. We have seen the opposite of that in our fisheries for 
so many years in many parts of the country, we have seen anti-
precaution, we have seen fishing levels that encourage 
depletion rather than sustainability. We cannot afford to do 
that kind of boom and bust cycle in aquaculture, we have to get 
it right from the beginning.
    And, of course, that is much easier to do when you are 
starting fresh without an industry in place, it is much easier 
to regulate from the outset from a precautionary perspective 
than to try to regulate an existing industry and make changes. 
So Congress has a terrific opportunity here as we have in 
California to make sure we get this right, to employ a 
precautionary approach from the beginning so that the industry 
develops in a sustainable manner rather than trying to engineer 
that after the fact.
    Ms. Bordallo. Thank you. And could you please expand upon 
your recommendation that NOAA and Congress should require 
offshore aquaculture operations to be operated consistent with 
state laws governing marine aquaculture operations?
    Mr. Sutton. Thank you, ma'am. As you know, the Coastal Zone 
Management Act contains a very important provision that 
requires Federal activities offshore in many cases be 
consistent with the approved coastal plan of any state. 
California is a good example. Our Coastal Commission is 
diligent in reviewing Federal permits and projects offshore for 
consistency with California's coastal plan, and in fact has 
rejected a number of Federal activities offshore that the 
California Coastal Commission has deemed inconsistent with 
California's protection of its coast.
    Aquaculture offshore is a good example of a Federally 
permitted activity that could have enormous impacts on coastal 
resources, escapes of farm fish, pollution, diseases for 
example. We have lots of evidence from other parts of the 
world, as you will hear about in the second panel, where 
aquaculture operations offshore have had an impact onshore. 
That is why we believe that it is very important to retain the 
states' and the territories' ability to review offshore 
projects like offshore aquaculture for consistency with their 
own conservation regimes that are in place onshore.
    Ms. Bordallo. Thank you. And a final question, how is 
California's aquaculture development committee been able to 
balance the varied interests in marine aquaculture? Should a 
similar advisory body be established at a national level?
    Mr. Sutton. Thank you, ma'am. As I said in my testimony, 
there really is no substitute for rulemaking from the bottom 
up. We have learned in California that the best rulemaking 
involves all stakeholders in the development of the rules 
rather than simply reviewing them after the fact. And so one of 
the best ways to do that is to appoint an advisory committee as 
we have done in California that incorporates all of the various 
interests in aquaculture, the industry itself, scientists, 
nonprofit organizations with an interest and knowledge of 
aquaculture operations, fisheries' interests.
    The Aquaculture Development Committee in California is a 
vital part of the development of our industry and has actually 
come up with very useful advice for the regulators like the 
Commission. And I would suggest, as is in your discussion 
draft, that the Federal Government would be well advised to 
follow suit and establish an aquaculture Federal advisory 
committee made up of representatives from all interest groups 
and stakeholders to make sure that the development of Federal 
aquaculture proceeds with all interests in mind.
    Ms. Bordallo. Thank you very much.
    Now I would like to recognize the Ranking Member for any 
questions for the second round.
    Mr. Brown. Thank you, Madam Chair. And I guess I will just 
ask this to both the participants. Projected global population 
growth would indicate that by 2025 the world will require 21 
percent more seafood than in 2007. If we must regulate wild 
harvests for sustainable purposes, where do you anticipate we 
get that necessary seafood from besides Vietnam or someplace 
else?
    Dr. Balsiger. Thank you for the question. Our best 
understanding is that there will be very little increase in 
production from wild sources. There aren't many opportunities 
to increase harvest in seafood from stocks that are at large. 
So the answer to your question I guess is that any increase 
will have to come from some aquaculture operation, some farmed 
operation. I don't believe there is an alternative to the kinds 
of increases you are speaking of except from that.
    Mr. Sutton. Thank you, sir. United Nations Food and 
Agriculture Organization tells us that if we managed our wild 
fisheries better in this country and others, we could realize a 
yield of 10 to 20 million tons more from our wild fisheries. I 
know that the United States and other countries are endeavoring 
to improve their fisheries management, but the fact is I think 
Dr. Balsiger is right. We can't count on greater catches or 
increased catches from the ocean.
    It seems clear that aquaculture is a global megatrend. We 
are going to be living with aquaculture whether we like it or 
not from all over the world for many years to come. And the 
fact is that it is growing so fast that any increase in our 
seafood supply is likely to come from aquaculture. In my mind 
that means that is all the more reason to make sure we get this 
right and we develop a Federal regime that is comprehensive, 
integrated, and results in a sustainable industry rather than 
one that simply peaks and goes bust as we have seen in our 
fisheries.
    Mr. Brown. With that in mind, how long do you think it will 
take you to finish your environmental impact statement?
    Mr. Sutton. Well, sir, we are well underway as we speak. In 
California, as you know, the only way we raise new revenue is 
to ll bonds and we have a number of bond initiatives. 
Proposition 84 was the last one. We are probably going to have 
another bond sale in the fall, and that will provide the 
necessary funding to complete our programmatic environmental 
impact review on the California coast. And may I say, the 
requirement that is in your discussion draft for regional 
programmatic environmental impact statements is exactly right 
because, as you and Mr. Cassidy have pointed out, our coastline 
is very different in New England, in the Gulf, in California. 
We have to make sure that the review of environmental impacts 
as a precursor to aquaculture development is specific to each 
region of the country.
    Mr. Brown. Do you know whether there is any other 
environmental impact or permitting process that is being 
conducted now in other parts of the United States?
    Mr. Sutton. Sir, in southern California, the application 
that has been made by Hub SeaWorld Research Institute to start 
farming native fish offshore has been slowed by the fact that 
they don't know who to go to. They have gone to the Corps of 
Engineers, they have gone to state authorities. At the moment, 
in the absence of a comprehensive Federal regulatory regime it 
is very difficult for aquaculture operators to know who to go 
to for permits. And so that has slowed the entire process. 
Again, a good reason for Congress to take action in developing 
a comprehensive regime.
    Mr. Brown. How about NOAA, Dr. Balsiger, aren't you 
permitting aquaculture now?
    Dr. Balsiger. We are permitting some small parts of 
aquaculture under pilot programs under experimental fishing 
permits consistent with the Magnuson Act. But in the offshore 
waters we do not have any aquaculture operations in the Federal 
waters.
    Mr. Brown. How about off of Hawaii?
    Dr. Balsiger. In Hawaii there is open ocean aquaculture, 
but it is in state water.
    Mr. Brown. Isn't Hawaii's limit three miles too?
    Dr. Balsiger. Yes, sir, it is.
    Mr. Brown. How about in South Carolina?
    Dr. Balsiger. I am unaware of any examination by 
environmental impact statement in Federal waters off of South 
Carolina. I will review that and be certain if I am wrong to 
get back to you.
    Mr. Brown. OK, how about the Gulf?
    Dr. Balsiger. In the Gulf, of course, there was a NEPA 
environmental examination done as the Gulf of Mexico Fishery 
Management Council put its plan in place. So that has been 
looked at. Many of the details as we have mentioned earlier 
will be taken up as regulations come in place and individual 
operations make applications. But in general for the overall 
program, that NEPA work has been done.
    Mr. Brown. But there are no formal applications filed in 
either location?
    Dr. Balsiger. That is correct, sir.
    Mr. Brown. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the Ranking Member.
    And I would like to recognize the gentleman from American 
Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. I just wanted to 
say to Mr. Sutton I am very impressed with your insights in 
terms of this issue. And it is not a simple issue, I realize 
that. I have always seen this somewhat of an imaginary illusion 
on my part where this fish starts out with fresh water, and I 
understand the Department of Agriculture has jurisdiction over 
this freshwater fish. Then it starts swimming along the river 
and all of a sudden as it gets to the ocean then the Department 
of Commerce has jurisdiction over it.
    So what we have here sometimes is a tremendous little 
battle going on between our regulatory agencies seeing that 
this fish stays healthy, and I guess wait until it dies so let 
it be because we are very concerned about the health of the 
fish. In the meantime, my understanding of what NOAA and the 
Department of Commerce are supposed to do is to promote 
commerce, promote industry, promote lessening this $9 billion 
deficit that we have in the consumption of marine fisheries 
resources because we don't produce enough of it domestically.
    And so, Mr. Sutton, I notice you say we have 56 coastal 
zone management plans from states and territories versus the 
fuzziness of the Federal Government itself in trying to figure 
what exactly we are going to do with the whole industry. And 
when you mention about offshore aquaculture, how far, within 
three miles? Because when it goes out into the blue ocean then 
you have an entirely different regulatory system applying to 
this whole issue of aquaculture development.
    And my only concern, and I wanted to ask you gentlemen, how 
can we lessen the deficit where we have to depend on the 
importation of over $9 billion of marine fisheries for the 
American consumer where we cannot produce enough of it 
ourselves to lessen that deficit. Could you both, gentlemen, 
help me understand how we can go about doing this? You 
mentioned about an offshore aquaculture advisory committee. 
Doesn't the Department of Commerce already have some kind of 
division within NOAA or some other related agency in the 
Department of Commerce that pushes for better development of 
our agriculture programs whether it be offshore or within the 
shore or inside the rivers or whatever?
    Mr. Sutton. Thank you, sir. You are exactly right that the 
current jurisdiction, especially over anadromous fish like 
salmon, is very confusing and very fragmented. In fact at the 
California Fish and Game Commission, we control the fishing of 
salmon within state waters and in the rivers, while the salmon 
are in the rivers, when they go offshore NOAA controls fishing 
for salmon. And, of course, we regulate salmon fishing only 
within the framework provided by NOAA.
    One of the things that we are hopeful that a Federal regime 
will do for aquaculture is streamline the permitting authority, 
make it clear to those who would apply who they should go to, 
who is in charge. And it is suggested in the discussion draft 
that NOAA be the agency in charge, and I think that makes 
sense. California has always worked well with NOAA, we have 
constant contact with NOAA regulators, and we endeavor to make 
sure that state and Federal regulations are consistent.
    Of course if the Congress chooses to follow the lead of 
California and our legislation regulating offshore aquaculture 
at least in California, the Federal and state regulatory 
regimes will be quite consistent. I served for a number of 
years on the Commerce Department's Marine Fisheries Advisory 
Committee, which does occasionally discuss aquaculture.
    Mr. Faleomavaega. It is not on the radar screen, am I 
correct to say? I mean, we talk about it. We have been talking 
about it for years and years and years, but it really is not a 
high priority in our whole realm of Federal priorities that 
should be given any attention the importance of this industry.
    Mr. Sutton. That is why I think the discussion draft has 
got it right that this industry is growing so fast and is 
important enough that it deserves its own Federal advisory 
committee to oversee aquaculture development throughout U.S. 
waters.
    Mr. Faleomavaega. Dr. Balsiger, I don't want to sound like 
I am badgering you or anything, I just wanted to ask you an 
honest assessment. What can NOAA and the Department of Commerce 
do to get this thing moving?
    Dr. Balsiger. We are very anxious to make progress on a 
framework, and so we are starting a fairly accelerated program 
to develop the national framework, and so I think that will 
help a lot. In terms of your question about where the fish is 
going to come from, Mr. Sutton was correct that we do have even 
in this country still some 40 stocks of fish that suffer from 
overfishing. And so rebuilding those stocks, which we are 
required to do under the Magnuson-Stevens Act and which we will 
accomplish, will produce some fish, but it will not cover the 
gap in requirements, it won't meet the demand requirements. And 
so I think the requirement will be for aquaculture production 
in the out years in order to meet.
    Mr. Faleomavaega. Well, I know what you mean. We had well 
over 150 swordfish fishing vessels out of New England, and the 
fleet had to dissipate simply because of overfishing. So, now 
they are all in Hawaii fishing for tuna because swordfish is 
overfished, and there is overfishing on all kinds of different 
species, tuna being one of those. Over 50 percent of the tuna 
consumed in the world today is from the Pacific because the 
Atlantic is overfished. A tremendous shift of overfishing.
    And I suppose, Dr. Balsiger, I just wanted to get the 
sense, you say that, when we talk about offshore aquaculture we 
have to measure it by way of say, if it is beyond three miles 
then you are talking about Hawaii and the island territories, 
if you are talking about within the three miles then you are 
talking about mainly a lot of the coastal states are impacted. 
So shouldn't the Department of Agriculture also be part of this 
whole dialogue and discussion simply because of the regulatory 
aspects of it and we really haven't, I don't know maybe you 
could help me out on that?
    Dr. Balsiger. Sir, I think you are correct that we do need 
to work with not just Agriculture but Interior as well, the 
Food and Drug Administration. We are having dialogues with 
those people as we go forward with developing the national 
framework. That is a very good point.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman.
    I would like now to recognize the gentleman from Louisiana, 
Mr. Cassidy.
    Mr. Cassidy. A couple things. Dr. Balsiger, again I am just 
learning, in the Gulf issues they speak of having a 24-hour web 
based form where the aquaculture entity would report 
entanglement of a marine mammal with the apparatus whatever 
that apparatus would be. It seems like if you have a marine 
mammal entangled at the bottom of a big net it would die within 
24 hours. Is that actually adequate protection or is that just 
a reporting requirement? Does that make sense? Will that 
minimize the impact upon marine mammals?
    Dr. Balsiger. Sir, thank you for the question. I am not 
certain that it will. Twenty-four hours, as you point out, 
probably would be a period of vulnerability for that individual 
animal. But the reporting requirement is pretty stringent and, 
of course, there are other guidelines that will be put in place 
to try to prevent those entanglements, but certainly we want to 
know if there are entanglements taking place so we can take 
other mitigating features.
    Mr. Cassidy. So you would bust them if they had too many 
marine mammals and expect them to take corrective action so to 
speak? I think bust is a technical term.
    Dr. Balsiger. Accepting that technical term, yes, sir, that 
is correct.
    Mr. Cassidy. OK. Second, would the Jones Act apply to this? 
You may not know this, but I am asking. I see that, as I read 
the regulations, technically a boat could come from a foreign 
port, pick up the fish, and bring it to a domestic port. It 
just says that it has to be offloaded at a domestic port, but 
as far as I can see that doesn't keep a foreign owned vessel 
from coming, grabbing, and then bringing into the American 
port. Does that make sense?
    Dr. Balsiger. I understand the question. I think the Jones 
Act does apply. I would like to talk to our lawyers and make 
sure I understand that correctly and get back to you.
    Mr. Cassidy. If you could let me know that, I would 
appreciate that.
    Mr. Sutton, now I like ``The Log from the Sea of Cortez''. 
I am seeing where you work and I am thinking, ``Oh my gosh, 
this is the book I used to read.'' I was reading your testimony 
regarding capture-based aquaculture, and again just for my own 
information, as opposed to grabbing the juveniles from the wild 
to seed, if you will, their pens, why don't you just grab the 
juveniles from your raised fish? After you begin the process, 
kind of like making bread, once you begin it, why don't you 
just take a little bit and move it into the next pen?
    Mr. Sutton. Well, sir, if you enjoyed ``The Log from the 
Sea of Cortez'' by Steinbeck, two years ago we cosponsored a 
return to the Sea of Cortez and they wrote the Blog of the Sea 
of Cortez, so it was an interesting update on what Steinbeck 
had seen and the changes that have been wrought since in the 
Gulf of California. You bring up an interesting issue in terms 
of what is known as ranching rather than farming. Ranching is 
where you capture fish, usually juvenile fish, tuna for 
example, from the wild and you bring them into captivity into a 
pen and you fatten them up in what is essentially an oceanic 
feed lot.
    In fact California's largest fishery today, the Pacific 
sardine which has recovered from past overfishing, virtually 
the entire California sardine catch goes for one purpose, and 
that is feeding tuna in pens in Mexico and Australia, places 
like that, almost the entire sardine catch is exported to feed 
tunas. So one of the questions that Congress is going to have 
to grapple with, and on which there are a number of divergent 
opinions, is whether or not the United States should allow 
ranching, this captive fattening of wild species, in our waters 
or not. We don't have any examples of that today. Most of our 
aquaculture is from animals that are raised from egg, that is 
captive breeding.
    Mr. Cassidy. But why don't you again just take juveniles, 
once you have done the initial ranch, why don't you then 
domesticate the fish, if you will, just taking the juveniles 
and moving them into the next pen.
    Mr. Sutton. Well, that is in fact what happens in some 
kinds of land based aquaculture, is that the animals are 
propagated and each generation is, it is a self propagated form 
of fish farming. But that is very distinct from ranching which 
is, taking animals from the wild. As the delegate from American 
Samoa pointed out, we are now beginning to develop the 
technology around the world to propagate tuna from the egg, 
which is actually quite difficult to do. We have made some 
progress on that at our Tuna Research and Conservation Center 
in Monterey with Stanford University as well. I think 
personally that is the wave of the future, or should be for 
aquaculture, is raising these animals from the egg and 
propagating them that way.
    Mr. Cassidy. Then let me ask you something else then, 
because your testimony actually almost sounds a little 
different tone than your written statement. And in your written 
statement you are very cautious about the impact of growing a 
top-of-the-pyramid fish, and you just mentioned the sardines, 
how they are used to feed the ranched fish. But, nonetheless, 
you also said that the sardine population has come back. So 
what I gather from you, despite the implied pessimism in your 
written testimony, you can actually manage the feed stock if 
you will so it is not depleted even as you grow increasing 
numbers of, say, tuna.
    Mr. Sutton. It is true that the sardine fishery in 
California has come back, has recovered from past depletion. 
The question is whether we should be using those sardines to 
feed people or whether we should be using those sardines to 
feed tunas. If you use them to feed tunas, the feed conversion 
ratio, that is to say how many pounds of sardines you need to 
produce one pound of tuna, is something like 15 to 20 pounds of 
sardines for a single pound of tuna. Now whether that is a good 
use of our fishery resources or not I will leave to you.
    But you are going to hear testimony on the second panel 
about the impact of the forage fisheries, species like sardines 
and herring and anchovies, for aquaculture. Many people are 
concerned that those small fish like sardines play a really 
important role at the base of the marine food chain. Taking out 
millions of pounds every year from the ecosystem to feed high 
value species like tuna is very disturbing to a number of 
people. And that is why the discussion draft presumably has a 
prohibition on that kind of ranching operations within U.S. 
waters.
    Mr. Cassidy. Thank you.
    Ms. Bordallo. I thank the gentleman for his questions.
    Ms. Bordallo. And I would like to now thank the witnesses 
on the first panel, Dr. Balsiger and Mr. Sutton. Thank you very 
much for your testimony. And if the Members here have asked for 
any particular information, please send it in to the Committee 
as soon as possible. Thank you very much.
    And now I would like to recognize the second panel. Dr. 
George Leonard, Director, Aquaculture Program, the Ocean 
Conservancy; Mr. Ken Hinman, President, National Coalition for 
Marine Conservation; Mr. Mark Vinsel, Executive Director, 
United Fishermen of Alaska; Mr. Neil Sims, President, Kona 
Blue; Mr. Bill Cox, Board Vice Chair, South Carolina Seafood 
Alliance; and Mr. Robert Alverson, Executive Director, Fishing 
Vessel Owners Association.
    Before we begin our questioning again, I would like to 
repeat that our staffers and friends and guests that are 
standing at the back, you are more than welcome to sit up here 
at the table. Thank you.
    I would like to welcome Dr. Leonard and thank him for 
appearing before the Subcommittee, and as I mentioned for the 
previous panel, the red timing light on the table will indicate 
when your time has concluded. Be assured that your full written 
statement will be submitted for the hearing record. And now, 
Dr. Leonard, please proceed.

  STATEMENT OF GEORGE LEONARD, DIRECTOR, AQUACULTURE PROGRAM, 
                       OCEAN CONSERVANCY

    Dr. Leonard. Hi. Thank you, Chairwoman Bordallo, Ranking 
Member Brown, other Members of the Subcommittee. Can you see 
me? I am hiding over here on the side of the table. Thank you 
for convening this hearing today and inviting me to testify. 
For the record my name is George Leonard, I direct Ocean 
Conservancy's Aquaculture Program. I have a PhD in marine 
ecology and evolutionary biology, and for the last decade I 
have worked to protect the long term health of our oceans by 
identifying a viable and environmentally responsible seafood 
supply that is critical to both America's environmental and 
economic strength.
    As we have heard already this morning, traditional wild 
capture fisheries are increasingly falling short of the growing 
demand for seafood. We have heard the figure that today nearly 
80 percent of the world's commercial fisheries are either 
overfished or awful close to it. And in response to that, fish 
farming in general, also known as aquaculture, is expanding 
rapidly around the globe. And indeed a paper published just two 
days ago has identified, as Mr. Sutton indicated, that by the 
end of this year half of our world seafood will come from 
aquaculture.
    Now, much of the world's farmed fish are herbivores, 
feeding relatively low in the food chain, often raised in 
closed containment systems, and generally pose relatively small 
environmental risks. But the small, rapidly growing open ocean 
aquaculture sector poses much larger risks, and that is what we 
are here to discuss today. These farms often raise species in 
large open-net pen systems that are subject to a free flow of 
ocean water, and as such they are in direct contact with the 
ocean ecosystem.
    A large and growing body of peer reviewed scientific 
literature has identified a host of the environmental and 
socioeconomic risks of this kind of fish farming. And 
experience internationally, where farming is much more 
widespread than it is here in the U.S., tells a similar 
cautionary tale. There is reason to believe that the kinds of 
risks involved in open ocean aquaculture are universal, and 
they are likely to apply to species that could be raised here 
in the U.S.
    So as has been made referenced, the graphic to my left 
illustrates some of the serious ecological impacts of poorly 
regulated offshore fish farming. And just to quickly mention 
them, escaped fish can introduce exotic species into native 
environments, with potentially devastating impacts. But even 
when farmed fish are native, escapes can compete against and 
interbreed with wild fish. Intensive fish farming has also 
introduced and amplified pathogens and disease in wild fish.
    And nutrients from excess feed and fish excretion pose 
additional stresses to the surrounding ecosystem, as do the 
drugs and chemicals that are often used by the aquaculture 
industry, including antibiotics, pesticides and antifoulants. 
There are also impacts on predator populations to consider. A 
large concentration of captive fish held in an open net pen 
attracts predators, and these animals have been entangled or 
drowned by the techniques that are sometimes used, and fish 
farmers have sometimes intentionally killed sharks and other 
predators that have become problems around fish farms.
    Now, perhaps counter intuitively, this kind of fish farming 
can actually result in an increase in fishing pressure on wild 
stocks, and I am sure we will hear more about this from Mr. 
Hinman. But the feed for so called carnivorous farmed fish 
contains very high percentages of fishmeal and fish oil. These 
are derived primarily from wild caught forage fish, and the 
demand for fishmeal and fish oil for aquaculture removes key 
prey species from economically and environmentally important 
wild species.
    And finally, beyond the environmental risks and the human 
health issues, we must not forget the socioeconomic concerns. 
Overproduction of farmed salmon in the late 1990s hurt U.S. 
commercial salmon fishermen, and the recent spread of a viral 
disease in Chile, infectious salmon anemia, has actually 
identified that there can be large losses in jobs for the 
aquaculture industry as well from the development of offshore 
aquaculture.
    Now, despite these real and scientifically documented 
risks, the United States appears to be on the verge of an 
expansion of this new industry before Congress has a chance to 
act and without a national framework in place to address these 
risks. Just last week we have heard that a legally dubious, and 
I might add oxymoronic, aquaculture fishery management plan, 
that would dramatically expand open ocean aquaculture in the 
Federal waters of the Gulf of Mexico, went into effect.
    Meanwhile in my home State of California, Hub SeaWorld 
Research Institute has announced plans to build the first ever 
fish farm in the U.S. Federal waters to be located west of San 
Diego. This is a large facility, slated to occupy about 300 
football fields of space, and as Mr. Sutton indicated it is 
going through a rather ad hoc regulatory process that 
essentially ensures that no single agency will be responsible 
for the entire environmental and socioeconomic performance of 
the project. And then finally, plans are afoot in Hawaii state 
waters that if approved could pave the way for additional 
development of offshore aquaculture out in Federal waters.
    Now, the good news is that Congress has a window to act 
before development begins and to establish a national framework 
that makes its priority the protection of wild fish and natural 
ecosystems. We have an opportunity to get it right, right from 
the start. If we take a precautionary approach first and 
foremost and let science based principles guide us, marine 
aquaculture may play a role in responsible U.S. seafood 
production. But if we don't, we can almost guarantee that it 
will not.
    My written testimony includes detailed recommendations on 
specific provisions that should be part of a precautionary 
Federal bill. Any such bill must, as I indicated, prioritize 
the protection of wild fish, habitats, and functional marine 
ecosystems. It should build on the recommendations of the Pew 
Ocean Commission, the U.S. Commission on Ocean Policy, the 
Marine Aquaculture Task Force, and as Mr. Sutton indicated, 
draw heavily on California's Sustainable Oceans Act, currently 
the most comprehensive law in the U.S. on marine aquaculture.
    Recent developments make it clear that the expansion of an 
unregulated offshore aquaculture industry in U.S. Federal 
waters presents an imminent threat that Congress must not 
ignore. Now is the time for strong leadership by this Committee 
to draft a strong legislative framework that will ensure 
protection of our nation's ocean waters. Doing anything less is 
a gamble that we simply should not take. Thank you.
    [The prepared statement of Dr. Leonard follows:]

 Statement of George H. Leonard, Ph.D., Aquaculture Program Director, 
                           Ocean Conservancy

INTRODUCTION
    Thank you Chairwoman Bordallo, Ranking Member Brown and other 
members of the Subcommittee on Insular Affairs, Oceans and Wildlife for 
convening this hearing at such an important juncture, and for inviting 
me to testify. My name is George Leonard and I direct Ocean 
Conservancy's Aquaculture Program. I have a Ph. D. in marine ecology 
and evolutionary biology. For a decade I have worked to protect the 
long-term health of our oceans by identifying a viable, environmentally 
responsible seafood supply that is critical to America's environmental 
and economic strength.
    A healthy ocean and a healthy seafood industry are critical to 
America's environmental and economic strength. Based on my assessment 
of the scientific literature and recent policy developments, it is my 
conclusion that the development of an unregulated offshore aquaculture 
industry in U.S. federal waters presents an imminent threat to ocean 
and seafood health that Congress cannot ignore. I strongly believe this 
committee must be responsive to recent developments and work to 
establish a comprehensive federal permitting and regulatory system for 
offshore aquaculture before an unregulated industry takes hold. Such a 
system must create a precautionary framework to ensure that any open-
ocean aquaculture in the U.S. avoids the adverse impacts on marine 
ecosystems, human health and coastal communities that have accompanied 
the industry's development elsewhere.

OFFSHORE AQUACULTURE: DEMAND AND RISK
    Securing a safe and sustainable food supply for an increasingly 
hungry planet is one of the world's biggest challenges. Fish provides 
an important source of protein. But, as the globe's appetite for 
seafood has grown, traditional wild-capture fisheries have been unable 
to keep up. Overall, 80 percent of the world fish stocks for which 
assessment data are available are reported as fully exploited or 
overexploited and are thus unable to withstand additional fishing 
pressure. Driven in part by the decline of wild fish, aquaculture is 
expanding rapidly worldwide. It now provides nearly half of the world's 
supply of seafood. It is the fastest growing sector of the food 
economy. Nearly 400 species are farmed around the world. <SUP>1</SUP>
    Much of the world's farmed fish are herbivores, often raised in 
closed containment systems, posing limited environmental risks. 
However, a smaller but rapidly growing sector includes species high in 
the food chain, grown in large net pens in ocean waters. These farms 
pose much larger threats to the ocean--in part because net pens are 
open systems through which water flows freely, directly affecting the 
surrounding ecosystem. <SUP>2</SUP> At present the United States is a 
relatively small contributor to global aquaculture production. However, 
some in industry and government are seeking to foster the growth of 
domestic open-ocean aquaculture; and recent developments in California 
and the Gulf of Mexico have pushed that goal far closer to reality.
    To date, advocates for domestic open-ocean aquaculture have paid 
insufficient attention to the significant risks that would accompany 
the growth of such an industry. A large body of peer-reviewed 
scientific literature has identified a host of environmental risks and 
impacts that accompany the farming of fish in open net pen systems. 
International experience also presents us with a cautionary tale that 
we ignore at our peril. While much of our understanding to date comes 
from salmon farming, data from other farmed species suggest these risks 
are universal and likely to apply to cod, halibut, sablefish, tuna and 
other species that could be raised in U.S. waters. However, if we 
proceed with caution, placing a high priority on the protection of wild 
fish and ecosystems, and let science-based principles guide us, open-
ocean aquaculture may be able to play a role in responsible U.S. 
seafood production. But if done without proper protections in place, 
open-ocean aquaculture is likely to have serious adverse consequences 
for human health, ocean ecosystems and coastal communities.
    I would welcome the opportunity to share with the committee a 
detailed scientific assessment of these risks. A large body of peer 
reviewed scientific research has been published on many of the impacts 
of aquaculture, including the severe environmental and socioeconomic 
consequences that have stemmed from developing an industry without 
proper precautions in place. Below, I summarize the ecological and 
socioeconomic impacts of primary concern:
    1.  Escapes: Aquaculture is known to be a major vector for exotic 
species introduction, causing concern over the ecological impacts that 
escaped species can have on wild species. <SUP>3</SUP> Whether they are 
native or exotic, escaped farmed fish can negatively impact the 
environment and wild populations of fish. <SUP>4</SUP> For example, it 
is well known that farmed salmon regularly escape from net pens, 
negatively impacting wild salmon through competition and interbreeding. 
<SUP>5</SUP>
    2.  Diseases and Parasites: It is well documented that intensive 
fish culture, particularly of non-native species, has been involved in 
the introduction and/or amplification of pathogens and disease in wild 
fish populations. <SUP>6</SUP> The most striking example concerns the 
dramatic consequences of the spread of parasitic sea lice from salmon 
farms to wild salmon <SUP>7</SUP> but disease outbreaks in other fish 
grown in open net pens around the world appear to be common as well. 
<SUP>8</SUP>
    3.  Nutrient and Habitat Impacts: By design, wastes from open net 
pen systems are released untreated directly into nearby bodies of 
water, and this can have negative impacts on the surrounding 
environment. <SUP>9</SUP> Dissolved nutrients (from excess feed as well 
as fish excretion) flow freely beyond the farm site while particulate 
matter often settles directly to the bottom where it can substantially 
alter both the chemistry and biodiversity of the farm's benthic 
habitats. <SUP>10</SUP> New and emerging science suggests the adage 
``dilution is the solution to pollution'' in open ocean-environments is 
an oversimplification and not justified by science. <SUP>11</SUP>
    4.  Impacts on Predator Populations: The presence of large numbers 
of captive fish held in high density naturally attracts predators such 
as birds, sharks and marine mammals. Techniques to keep some of these 
predators at bay often impact their natural behavior and pose 
entanglement and drowning risks. <SUP>12</SUP> Some predators that have 
become habituated to the presence of net pens, and hence a threat to 
human safety, have been killed by fish farmers. <SUP>13</SUP>
    5.  Impacts of Drugs and Chemicals: Aquaculture often uses a 
variety of chemicals including antibiotics, pesticides, fungcides, and 
antifoulants. <SUP>14</SUP> In some aquaculture systems, use of 
antibiotics has resulted in bacterial resistance in the environment 
<SUP>15</SUP> and influenced antibiotic resistance in humans. 
<SUP>16</SUP> Probable human carcinogens in fish feed (most notably 
PCBs, dioxins, and other organohalogens) have been shown to result in 
potentially unsafe concentrations in high trophic-level farmed fish 
<SUP>17</SUP>. Dietary guidelines recommend limited human consumption 
to avoid deleterious health effects <SUP>18</SUP>.
    6.  Increased Fishing Pressure on Wild Fish Stocks: Feed for many 
of the ``carnivorous'' species likely to be farmed in open-ocean 
environments contains very high percentages of fishmeal and fish oil 
derived from wild-caught forage fish. <SUP>19</SUP> As a result, these 
species consume two to five times as much wild fish as they produce in 
farmed product. <SUP>20</SUP> As global aquaculture has grown 
dramatically over the past two decades, the total demand for fishmeal 
and fish oil for use in aquaculture feeds has expanded. If the farming 
of carnivorous fish continues to grow at its current rate, the demand 
for fish oil will outstrip world supply within a decade, while a 
similar result is expected for fish meal by 2050. <SUP>21</SUP> This 
will likely impose additional pressure on wild forage fish stocks with 
the potential to undermine marine food webs by removing key prey 
species on which economically and environmentally important wild 
species depend. Separating fish farming from its reliance on wild fish 
must occur if aquaculture is to be considered a sustainable means to 
increase seafood supply.
    7.  Socioeconomic Impact on Fishermen and Fishing-Dependent 
Communities Beyond the environmental risks and human health issues, it 
is well known that farmed fish compete with wild fish in the 
marketplace. The increase in farmed salmon in the late 1990's drove 
down the price of wild salmon to levels that made it difficult for 
fishermen to stay in business. <SUP>22</SUP> While price declines may 
be good for consumers, they can have a range of direct and indirect 
negative environmental and economic impacts, including industry 
consolidation, overproduction and elevated fishing pressure on wild 
fish stocks to compensate for reduced profit margins.

A NATIONAL FRAMEWORK
    Despite these real and scientifically-documented risks, the United 
States appears to be on the verge of an expansion of this new industry 
into its federal waters--before Congress has a chance to act, and 
without a national framework in place.
    In the Gulf of Mexico, the previous administration contorted the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) to 
justify the development of a legally-dubious (and oxymoronic) 
``Aquaculture Fishery Management Plan'' (FMP) through the Gulf Fishery 
Management Council. This plan would dramatically expand open-ocean 
aquaculture in the federal waters of the Gulf of Mexico. Last week, the 
Secretary of Commerce refused to take definitive action on the FMP, 
giving tacit approval to the plan. But Congress designed the MSA to 
regulate the capture of wild fish, not to create and regulate fish 
farming. The MSA includes neither the key safeguards nor regulatory 
tools and approaches necessary to ensure that aquaculture is developed 
and managed to be ecologically sustainable. Furthermore, this piecemeal 
approach entirely bypasses the high-level consideration of serious 
policy questions relating to open-ocean aquaculture that is needed 
before the Nation decides how to proceed.
    Meanwhile in California, Hubbs-SeaWorld Research Institute has 
announced plans to build the first-ever fish farm in federal waters, 
located west of San Diego. This facility, slated to occupy a space 
equivalent to 300 football fields, is going through an ad hoc 
regulatory approval process that includes a patchwork of permits from 
the Army Corps of Engineers, the Environmental Protection Agency and 
other federal and state agencies. Because of the disjointed, 
overlapping and confusing federal regulatory landscape, no single 
agency would be responsible for the entire environmental and 
socioeconomic performance of this project.
    Plans are also afoot in Hawaii state waters, which, if approved, 
could pave the way for additional development in offshore waters. 
Hawaii Ocean Technology is presently seeking permits to develop a 
massive deep-water fish farm that would hover just below the ocean 
surface in nearly 3000 feet of water. Unlike existing technology, the 
farm would not be attached to the bottom but instead hover in the water 
column. Should it prove technologically feasible, this would open the 
door for fish farms to move farther into the federal EEZ.
    In all of these cases, what is missing is a national framework that 
codifies consistent, national expectations for this nascent industry. 
Most importantly, there is no mechanism for monitoring and addressing 
the cumulative impacts of the industry, which could be far greater than 
the sum of any individual facilities' impacts. Until today, Congress 
has not significantly considered the consequences of these industry 
developments, and no bill has yet been introduced in the 111th Congress 
that would seek to regulate the industry before it takes hold.
    What is clear is that legislation is urgently needed in advance of 
industry development. If decisive action is not taken by Congress soon, 
open-ocean aquaculture will likely emerge in federal waters in a 
piecemeal fashion, without Congress establishing a legislative 
framework and without the most basic standardized protections in place.

PROVISIONS OF FEDERAL LEGISLATION
    A key starting point for development of a strong, precautionary 
bill should be the recommendations of the high-level commissions and 
advisory bodies that have already examined this issue. Most notable of 
these are the Pew Oceans Commission (2003), <SUP>23</SUP> the U.S. 
Commission on Ocean Policy (2004), <SUP>24</SUP> and the Marine 
Aquaculture Task Force (2007). <SUP>25</SUP> Provisions should also 
draw heavily on California's Sustainable Oceans Act (SB 201), currently 
the most comprehensive law in the U.S. on marine aquaculture. 
<SUP>26</SUP> SB 201 contains many of the environmental, socioeconomic 
and liability provisions necessary to protect marine ecosystems yet 
allow a responsible industry to develop. It is a good model upon which 
to build an environmentally sound and socially responsible national 
framework.

GOVERNANCE AND AUTHORITY
    To ensure aquaculture development in offshore waters is 
ecologically sustainable, federal legislation, the National Oceanic and 
Atmospheric Administration, and the U.S. aquaculture industry must all 
adopt a precautionary approach, combined with adaptive management, as 
their guiding principles. Federal legislation should assign NOAA the 
lead role and responsibility in the environmental evaluation, planning, 
siting, permitting and regulation of aquaculture in federal waters. As 
the primary regulatory agency, NOAA should be authorized to require 
removal of fish stocks, closure of facilities, revocation of permits, 
imposition of penalties, and other appropriate remedial measures. This 
power should be exercised where a permitee is not in compliance with 
national standards; where the permitee's activities have damaged, are 
damaging or are likely to damage the marine environment in the 
foreseeable future; or where the permitee is not in compliance with 
permit requirements. NOAA should be empowered to take immediate 
remedial action to avoid or eliminate damage--or the threat of damage--
to the marine environment.

NATIONAL STANDARDS
    Federal legislation must set legally-binding national standards 
that prioritizes the protection of wild fish, associated habitats and 
functional marine ecosystems. They must ensure that offshore 
aquaculture poses negligible risks to fisheries, marine wildlife, and 
the ecosystems on which they depend; protects the long-term public 
interest in healthy marine ecosystems (including conserving genetic 
diversity and the integrity of aquatic ecosystems); incorporates 
appropriate public input; and develops in an orderly manner.
    National standards should include specific management objectives, 
including measurable performance standards and identification of how 
impacts are to be assessed, monitored and addressed. For maximum 
effectiveness, standards should be structured to reward facilities for 
performance beyond minimum requirements, and must include significant 
penalties for facilities that fall short.

BROODSTOCK MANAGEMENT AND FISH ESCAPES
    Federal legislation should mandate that offshore aquaculture be 
limited to native species of the genotype native to the geographic 
region of the fish farm. Hatchery-raised fish, derived from native 
species, must be cultured in a manner that ensures that any fish 
escapes will not harm the genetics of local wild fish. To do so, 
stocked fish should be no more than two generations removed from the 
relevant wild stock, and have been exposed to no intentional selective 
breeding. Species of special concern or those of protected status under 
the Endangered Species Act should not be cultured. Furthermore, 
``ranching'', a farming practice where wild juvenile fish are caught 
and fattened before being sent to market, should be banned.
    All facilities and operations must be designed, operated, and shown 
to be effective at preventing the escape of farmed fish into the marine 
environment and withstanding severe weather conditions and marine 
accidents. All farmed fish should be marked, tagged, or otherwise 
identified as belonging to the permitee. To the extent systems fail and 
escapes occur, facility operators must document such escapes and the 
circumstances surrounding them, report them immediately to NOAA and 
maintain publicly available records of such events.

DISEASE AND PATHOGEN PREVENTION
    Legislation should require NOAA, as the lead federal agency, to 
develop and implement risk-averse management regulations to prevent 
ecosystem impacts from disease and pathogen amplification and 
retransmission. Individual permitting decisions must be informed by an 
analysis of reported industry-wide, on-farm disease and pathogen data 
as well as a scientific understanding of disease and pathogen 
distribution in the wild.
    Legislation should mandate that offshore aquaculture facilities be 
designed, located and operated to minimize the incubation and spread of 
disease and pathogens without relying on the use of antibiotics, 
pesticides or other harmful chemicals. However, should chemical 
treatments be required and multiple treatment options exist, 
legislation should require that the one with the least environmental 
impact be used, and that such use be reported and records maintained 
that are publicly available. In all circumstances, the use of all drugs 
and chemicals--and amounts used and applied--must be minimized.

HABITAT AND ECOSYSTEM IMPACTS
    Legislation should require aquaculture facilities to minimize 
nutrient discharge and ensure that resulting discharge does not 
negatively impact the local and regional environment. The use of 
Integrated Multi-Trophic Aquaculture (IMTA)--where finfish, seaweeds 
and filter feeders or deposit feeders are grown in close proximity to 
limit the impact of nutrient inputs--should be given a preference over 
facilities that grow only a single species of fish. Incentives should 
also be developed to encourage use of other technologies, such as 
closed-containment farming systems, that fully prevent nutrient 
discharge.
    Legislation should also require that the EPA, in consultation with 
NOAA, establish numeric effluent limitations for aquaculture facilities 
operating in federal waters. Those limitations should meet water 
quality standards, and discharge permits should explicitly address 
cumulative and secondary impacts at the local and regional level.

INTERACTIONS WITH AND IMPACTS ON MARINE WILDLIFE
    Legislation should require permitees to develop, and implement a 
comprehensive, integrated predator management plan that employs non-
lethal deterrents. As part of this plan, performance metrics, best 
available technologies and site selection should be required to avoid 
entanglement, disruption of migration, and predator attraction or 
repulsion so as not to affect wildlife or their use of marine habitats. 
Underwater acoustic deterrent devices should not be permitted. 
Furthermore, fish farmers must not be allowed to intentionally kill 
predators of farmed fish unless human safety is under immediate threat.

USE OF WILD-CAUGHT FORAGE FISH FOR FEED
    Wild caught fish ingredients should be used only if they are 
sourced from populations whose biomass is at or above that which yields 
optimal yield and from fisheries that are managed using explicit 
ecosystem-based management measures that take into account the need for 
a sufficient prey base within marine ocean food webs. Legislation 
should require that the use of fish meal and fish oil derived from 
fisheries not primarily intended for direct human consumption be 
minimized, and that alternatives to fish meal and fish oil (or fish 
meal and fish oil made from seafood harvesting byproducts) be used.

REGIONAL ENVIRONMENTAL ANALYSIS
    In keeping with a precautionary approach, federal legislation 
should require regional Programmatic Environmental Impact Statements 
(PEIS) before committing to any individual project. These analyses 
should review existing scientific information, anticipate environmental 
impacts, and provide a region-specific framework for managing marine 
aquaculture in an environmentally sustainable manner.
    Each PEIS should evaluate whether appropriate areas in the relevant 
region exist for aquaculture development and, if so, siting of marine 
finfish aquaculture operations appropriately within those areas to 
avoid adverse impacts on marine ecosystems and ocean user groups. 
Effects on marine ecosystems, sensitive ocean and coastal habitats, 
other plant and animal species, and human health should all be 
considered. Most importantly, the PEIS should evaluate the potential 
cumulative impacts of multiple facilities in the region, so that a 
regulatory regime can be developed in advance to avoid the cumulative 
impacts that only become evident with industry expansion.

RESEARCH AND DEVELOPMENT PROGRAM FOR OFFSHORE AQUACULTURE
    Legislation should mandate that a comprehensive, ecologically-based 
research and development program be designed and supported by NOAA. The 
program should collect information necessary to ensure permitting and 
regulation of commercial operations are done in a precautionary manner, 
and ensure ecological sustainability and compatibility with healthy, 
functional ecosystems.
    The research program should evaluate environmental conditions and 
operational practices that prevent overexploitation of forage fish and 
other harm to the structure and function of marine food webs; prevent 
the escape of farmed fish and resulting negative impacts on wild fish; 
prevent the incubation and spread of disease and parasites from farmed 
fish to wild fish without the use of drugs and chemicals; prevent 
nutrient discharge from impacting marine ecosystems; prevent negative 
impacts on predators and other wildlife; prevent cumulative 
environmental impacts of multiple offshore aquaculture facilities; and 
prevent negative impacts on fishermen and fishing-dependent 
communities.
    The information obtained from this research program, along with the 
findings of the PEIS, should be regularly reviewed and incorporated 
into permitting and rulemaking decisions on an ongoing basis.

SITE AND OPERATING PERMITS FOR OFFSHORE AQUACULTURE
    Legislation should direct NOAA to establish a full, meaningful, 
balanced and open process for siting and permitting decisions that 
provides ample opportunity for state, local and public stakeholder 
input. It should also mandate that decisions about siting and 
permitting give priority to the protection of the health of the marine 
environment in the face of uncertainty about effects on public 
resources. No permit should be issued if NOAA determines that doing so 
is contrary to the public interest.
    Legislation should also require separate site and operating 
permits. To provide the long-term access to ocean space needed for 
capital investment, while simultaneously requiring more frequent review 
of environmental performance, the length of the site permit should be 
longer than the length of the operating permit. The initial term for 
site permits should not exceed 10 years while the initial term for 
operating permits should not exceed five years.
    There should also be a legislative mandate that permits not 
interfere with existing fishing (including access to fish stocks and 
fishing grounds) or other uses or public trust values; disrupt wildlife 
and marine habitats; or alter marine ecosystems. Congress should 
require that permits not contribute to adverse cumulative environmental 
or socioeconomic impacts.
    Legislation should require NOAA, in consultation with relevant 
state and federal agencies, to develop criteria for site permits, 
including: prohibition in sensitive habitats; proximity to other farms; 
proximity to other ocean users; site size; preliminary habitat and 
community assessment data; water conditions (e.g., depth, currents, and 
substrate type), and distribution of other species. Furthermore, it 
should mandate that the selection of sites be driven by the findings of 
the regional environmental analysis, and that the applicant demonstrate 
the site location is optimal to avoid adverse effects on ocean 
resources and users.

FEES, RESOURCE RENTS, FINANCIAL ASSURANCES AND LIABILITY
    Fees for marine finfish aquaculture permits should, at a minimum, 
be sufficient to pay for the costs of administering the marine finfish 
permitting program, and for monitoring and enforcing the terms of the 
permits. In addition, a reasonable portion of the resource rent 
generated from marine aquaculture projects that use ocean resources 
held in public trust should be collected from aquaculture operators. 
Legislation should establish a fee structure to achieve this goal.
    Legislation should also require that all structures be removed from 
the site at the permitee's expense upon termination of operations, and 
that the area be restored to its original condition, if necessary. NOAA 
should be required to obtain financial assurances from each permitee to 
ensure that structures are removed and any necessary restoration is 
performed.
    Legislation should make operators of aquaculture facilities in 
federal waters liable for environmental damage, including damage from 
escaped fish, as well as costs for natural resource damage assessment 
caused by their operations. A citizen suit provision should be included 
as an additional means to enforce violations should federal agencies 
fail to do so.

ROLE OF REGIONAL FISHERY MANAGEMENT BODIES
    Legislation should require NOAA and other federal agencies to 
consult with the regional fishery management councils, interstate 
fishery commissions, and First Nations on all matters related to open-
ocean aquaculture. No commercial aquaculture facility should be 
permitted without approval from the fishery management body with 
jurisdiction in the area in which the aquaculture facility would be 
located. Where more than one fishery management body has authority, 
both bodies should be required to work together to resolve how to 
proceed with open ocean aquaculture. Aquaculture development should not 
interfere with access to traditional fishing grounds or access to 
recreational or commercial fish stocks.

FEDERAL AND STATE CONSISTENCY
    Legislation must give states and territories the authority to ``opt 
out'' of aquaculture development in federal waters adjacent to their 
state waters. If one state decides to ``opt out'' but a neighboring 
state does not, states should be required to work together to resolve 
how to proceed. There should be a requirement that any resulting 
permits be consistent with authorized Coastal Zone Management Plans. 
Finally, permitting of offshore aquaculture facilities should be 
integrated with any federal marine spatial planning efforts.

CONCLUSION
    Now is the time for strong leadership from Congress on the future 
of open-ocean aquaculture in the United States. If Congress fails to 
act, an unregulated industry is likely to develop, and the 
environmental consequences could be severe. But with bold action, this 
committee can play a central role in crafting the legislative framework 
that will ensure strong protection of U.S. federal waters, and an 
environmentally and economically responsible industry.
    Congress has a unique opportunity--and a public responsibility--to 
craft a national vision that will foster ``a race to the top,'' 
precisely at a time when past missteps by other countries have created 
a ``race to the bottom'' that they have come to regret. This is no more 
evident than in Chile, a country that until recently was the world's 
largest producer of farmed salmon. <SUP>27</SUP> Without a sufficiently 
precautionary national plan, Chile increased its production of farmed 
Atlantic salmon by 2,200% from 1991 to 2006. But by 2007, with too many 
farms located too close together, disease began to spread rapidly 
through the industry. Just two years later, there has been over a 50% 
decline in salmon production and revenue for the industry and over 
7,500 direct jobs have been lost. Only after the salmon industry was 
decimated by the spread of this disease did Chilean authorities take 
the first steps toward developing a national framework to manage farms 
via ``neighborhoods'' to break the disease cycle by limiting both farm-
level and regional fish production. <SUP>28</SUP> If they had 
approached the development of the salmon farming industry more 
cautiously from the beginning they may have averted this calamity.
    Here in the United States, Congress must articulate a precautionary 
national framework now, before industry development, to ensure 
protection of the ocean, ocean users--and fish farming businesses--from 
the ravages that Chile has experienced.
    Doing anything less is a gamble with our oceans that we simply 
should not take.

[GRAPHIC] [TIFF OMITTED] T2311.005

ENDNOTES

<SUP>1</SUP> Food and Agriculture Organization of the United Nations 
        (FAO). 2009. The State of World Fisheries and Aquaculture: 
        2008. Rome Italy.
<SUP>2</SUP> Goldburg, R. and R. Naylor. 2005. Future seascapes, 
        fishing, and fish farming. Frontiers in Ecology and the 
        Environment 3:21-28.
<SUP>3</SUP> Naylor, R., S.L. Williams and D.R. Strong. 2001. 
        Aquaculture--A gateway for exotic species. Science 294:1655-
        1656.
<SUP>4</SUP> Volpe, J. P., Taylor, E. B., Rimmer, D. W., & Glickman, B. 
        W. 2000. Evidence of natural reproduction of aquaculture-
        escaped Atlantic salmon in a coastal British Columbia river. 
        Conservation Biology, 14:899-903; Youngson, A., A. Dosdat, M. 
        Saroglia, & W.C. Jordan. 2001. Genetic interactions between 
        marine finfish species in European aquaculture and wild 
        conspecifics. Journal of Applied Ichthyology 17:155-162.
<SUP>5</SUP> Naylor, R., Hindar, K., Fleming, I.A., Goldburg, R., 
        Williams, S., Volpe, J., Whoriskey, F., Eagle, J., Kelso, D. 
        and M. Mangel. 2005. Fugitive Salmon: Assessing the Risks of 
        Escaped Fish from Net-Pen Aquaculture. BioScience 55(5): 427-
        37.
<SUP>6</SUP> Blazer, V. S., & S.E. LaPatra. 2002. Pathogens of cultured 
        fishes: potential risks to wild fish populations. In J. 
        Tomasso, Aquaculture and the Environment in the United States 
        (pp. 197-224). Baton Rouge, LA: U.S. Aquaculture Society, A 
        Chapter of the World Aquaculture Society.
<SUP>7</SUP> Tully, O. & K.F. Whelan. 1993. Production of nauplii of L. 
        salmonis from farmed and wild salmon and its relation to the 
        infestation of wild sea trout off the west coast of Ireland in 
        1991. Fisheries Research 17:187-200; Bjorn, P. A., & B. 
        Finstad. 2002. Salmon lice infestation in sympatric populations 
        of Artic char and sea trout in areas near and distant from 
        salmon farms. ICES Journal of Marine Science 59:131-139; 
        Krkosek, M., Ford, J. S., Morton, A., Lele, S., Myers, R. A., & 
        Lewis, M. A. (2007). Declining wild salmon populations in 
        relation to parasites from farm salmon. Science 318:1772-1775.
<SUP>8</SUP> Whittington, I.D., S. Corneillie, C. Talbot, J.A. Morgan, 
        & R.D. Adlard. 2001. Infections of Seriola quinqueradiata and 
        S. dumerii in Japan by Benedenia seriolae (Monogenea) confirmed 
        by morphology and 28S ribosomal DNA analysis. Journal of Fish 
        Diseases 24:421-425; Hutson, K., I. Ernst, A.J. Mooney, & I.D. 
        Whittington. 2007. Risk assessment for metazoan parasites of 
        yellow tail kingfish Seriola lalandi in South Australian sea-
        cage aquaculture. Aquaculture 271:85-99; Mardones, F.O., A.M. 
        Perez, & T.E. Carpenter. 2009. Epidemiologic investigation of 
        the re-emergence of infectious salmon anemia virus in Chile. 
        Diseases of Aquatic Organisms 84:105-114; Vike, S., S. Nylund, 
        & A. Nylund. 2009. ISA virus in Chile: evidence of vertical 
        transmission. Archives of Virology 154:1-8.
<SUP>9</SUP> Wu, R.S.S. 1995. The environmental impact of marine fish 
        culture: towards a sustainable future. Marine Pollution 
        Bulletin31:159-166; Hardy, R.W. 2000. Fish feeds and nutrition: 
        urban legends and fish nutrition. Aquaculture Magazine 
        26(6):47-50.
<SUP>10</SUP> Riedel, R. & C. J. Bridger. 2004. Environmental issues 
        associated with offshore aquaculture & modeling potential 
        impact. Pp. 95-107 in, Bridger, C.J., editor. 2004. Efforts to 
        Develop a Responsible Offshore Aquaculture Industry in the Gulf 
        of Mexico: A Compendium of Offshore Aquaculture Consortium 
        Research. MASGP-04-029. Mississippi-Alabama Sea Grant 
        Consortium, Ocean Springs, Mississippi; Lee, H.W., J.H. Bailey-
        Brock & M.M. Gurr. 2006. Temporal changes in the polychaete 
        infaunal community surrounding a Hawaiian mariculture 
        operation. Marine Ecology Progress Series 307:175-185.
<SUP>11</SUP> Venayagamoorthy, S.K., O.B. Fringer, J.R. Koseff, A. Chiu 
        & R. Naylor. 2008. Numerical modeling of aquaculture dissolved 
        waste transport in a coastal embayment. Submitted; Stanford 
        University. 2009. When Fish Farms Are Built Along The Coast, 
        Where Does The Waste Go? Science Daily. Retrieved September 4, 
        2009, from http://www.sciencedaily.com/releases/2009/02/
        090215151758.htm.
<SUP>12</SUP> Galaz, T. & A. de Maddalena. 2004. On a great white shark 
        trapped in a tuna cage off Libya, Mediterranean Sea. Annales 
        Series Historia Naturalis 14:159-163; NOAA Small Business 
        Innovation Research Program. 2005. Development of effective and 
        low cost predator exclusion devices for offshore aquaculture 
        facilities in the United States EEZ. Contract No. DG133R05-CN-
        1200: Snapperfarm, Inc.; Upton, H.F., E.H. Buck & R. Borgatti. 
        2007. Open Ocean Aquaculture CRS Report for Congress. 
        Congressional Research Service, Order Code RL32694.
<SUP>13</SUP> Lucas, C. 2006. Fish farm seeks second location. West 
        Hawaii Today. Retrieved September 4, 2009 from http://
        www.westhawaiitoday.com/articles/2006/05/06/local/local02.txt
<SUP>14</SUP> Tacon, A.G. & I.P. Forster. 2000. Global trends and 
        challenges to aquaculture and aquafeed development in the new 
        millennium. In International Aquafeed--Directory and Buyers' 
        Guide 2001 (pp. 4-25). Uxbridge, UK: Turret RAI.
<SUP>15</SUP> Kerry, J., R. Coyne, D. Gilroy, M. Hiney & P. Smith. 
        1996. Spatial distribution of oxytetracycline and elevated 
        frequencies of oxytetracycline resistance in sediments beneath 
        a marine salmon farm following oxytetracycline therapy. 
        Aquaculture 145:31-39.
<SUP>16</SUP> Sapkota, A., A.R. Sapkota, M. Kucharski, J. Burke, S. 
        McKenzie, P. Walker, P., et al. 2008. Aquaculture practices and 
        potential human health risks: current knowledge and future 
        priorities. Environment International 34:1215-1226.
<SUP>17</SUP> Easton et al. 2002. Preliminary examination of 
        contaminant loadings in farmed salmon, wild salmon and 
        commercial salmon feed. Chemosphere 46: 1053-1074; Hites R.A., 
        et al. 2004. Global Assessment of Organic Contaminants in 
        Farmed Salmon. Science 303:226-229; Hayward et al. 2004. PBDE 
        and PCB levels correlated in wild caught and farm-raised fish 
        fillets in the USA. Organohalogen Compounds 66:3994-3998; Rawn 
        et al. 2006. PCB, PCDD and PCDF residues in fin and non-fin 
        fish products from the Canadian retail market 2002. Science of 
        the Total Environment 359: 101-110; Shaw et al. 2006. PCBs, 
        PCDD/Fs, and organochlorine pesticides in farmed Atlantic 
        salmon from Maine, Eastern Canada, and Norway, and wild salmon 
        from Alaska. Environ. Sci. Technol. 40: 5347-5354
<SUP>18</SUP> Foran, J.A. 2005. Risk-Based Consumption Advice For 
        Farmed Atlantic and Wild Pacific Salmon Contaminated with 
        Dioxins and Dioxin-like Compounds, Envtl. Health Persp. 552-
        556.
<SUP>19</SUP> Tacon, A. G., & M. Metian. 2008. Global overview on the 
        use of fish meal and fish oil in industrially compounded 
        aquafeeds: Trends and future prospects. Aquaculture 285:146-
        158.
<SUP>20</SUP> Naylor, R., R. Hardy, D. Bureau, A. Chiu, M. Elliott, T. 
        Farrell, et al. 2009. Feeding aquaculture in an era of finite 
        resources. Proceedings of the National Academy of Science 
        (Under final review); Tacon & Metian. 2008.
<SUP>21</SUP> IFFO. 2001. Fishmeal Information Network: Sustainability 
        Dossier, International Fishmeal & Fish Oil Organization.
<SUP>22</SUP> Knapp, G., C.A. Roheim & J.L. Anderson. 2007. The Great 
        Salmon Run: Competition between wild and farmed salmon. TRAFFIC 
        North America. World Wildlife Fund. Washington D.C. 302 pp.
<SUP>23</SUP> Pew Oceans Commission. 2003. America's Living Oceans: 
        Charting a Course for Sea Change. A Report to the Nation (May). 
        Arlington, Virginia. 79 pp.
<SUP>24</SUP> U.S. Commission on Ocean Policy. 2004. Setting a Course 
        for Sustainable Marine Aquaculture. In An Ocean Blueprint for 
        the 21st Century. Final Report. Washington, D.C.
<SUP>25</SUP> Marine Aquaculture Task Force. 2007. Sustainable Marine 
        Aquaculture: Fulfilling the Promise; Managing the Risks. Report 
        of the Marine Aquaculture Task Force: Takoma Park, MD. 128 pp.
<SUP>26</SUP> The California Sustainable Oceans Act, Chapter 36, 
        Statutes of 2006. An act to amend Sections 15400, 5405, 15406, 
        15406.5, and 15409 of, and to add Sections 54.5 and 15008 to, 
        the Fish and Game Code, and to amend Section 30411 of the 
        Public Resources Code, relating to aquaculture.
<SUP>27</SUP> Mardones, F. O., A.M. Perez, & T.E. Carpenter. 2009. 
        Epidemiologic investigation of the re-emergence of infectious 
        salmon anemia virus in Chile. Diseases of Aquatic Organisms, 
        84:105-114. See also Vike, S., S. Nylund, & A. Nylund. 2009. 
        ISA virus in Chile: evidence of vertical transmission. Archives 
        of Virology, 154:1-8.
<SUP>28</SUP> Patagonia Times. 2009. No end in sight for the salmon 
        industry's ongoing slide (July 14). Retrieved July 15, 2009 
        from: http://royalfoodimport.blogspot.com/2009/07/chilean-
        salmon-industry-update.html
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Leonard, for your comments and 
for your organization's commitment to responsible offshore 
aquaculture.
    I would now like to recognize Mr. Hinman to offer his 
testimony. Before I do that, I would like to recognize another 
Member who has joined our Committee, and that is Congresswoman 
Carol Shea-Porter from New Hampshire.
    Thank you, Mr. Hinman, for joining us. And you may begin.

              STATEMENT OF KEN HINMAN, PRESIDENT, 
           NATIONAL COALITION FOR MARINE CONSERVATION

    Mr. Hinman. Thank you, Madam Chair, Subcommittee Members. I 
appreciate this opportunity to speak to you today on offshore 
aquaculture and how it fits into the broader vision we have for 
the future of our oceans, for the fishermen and fishing 
communities that depend on the seas for sustenance and 
recreation.
    In our view, the Commerce Department's approach to offshore 
aquaculture illustrates what is wrong with the way we have been 
addressing this issue. The Administration approved a poorly 
conceived and grossly ambitious plan to farm waters of the Gulf 
of Mexico. After giving the Gulf the go-ahead, NOAA says it 
will now begin developing a national policy. To use an 
expression from down on the farm, that is putting the cart 
before the horse.
    Congress needs to step in now, bring this cart to a halt, 
and begin a true national dialogue on offshore aquaculture. The 
first priority before the first permit is issued should be to 
adopt strict national environmental standards that will keep 
our ocean's fisheries healthy and wild. Now, my organization, 
the National Coalition for Marine Conservation, was founded in 
1973 by sport fishermen, and like the sportsmen before them who 
pioneered wildlife conservation on land, they evolved naturally 
into passionate protectors of the fish and the wild world we 
share.
    Fish are wild animals and they need wild places, and we are 
dedicated to keeping the ocean wild in order to preserve 
fishing opportunities for the fishing public. But we wonder 
where we will fit in the future, where wild places are locked 
away in marine parks that are surrounded by a network of fish 
farms and other industrial uses. Is this the future we want for 
the oceans? How will the fishing public fit into this scenario?
    And this is not to say there isn't room for aquaculture in 
the sea, but aquaculture is not fishing. And the way it is 
being developed in many parts of the world and being 
contemplated here in the U.S. is simply not sustainable and 
comes with high environmental costs which are real and many and 
not easily remedied. NOAA has committed to an ecosystem based 
approach to fisheries management for all marine fisheries, but 
we find this hasty move into farming the seas anathema to such 
an approach.
    We are told that offshore aquaculture will help take 
pressure off wild stocks of fish. In fact it is likely to do 
the opposite. It will put increased pressure directly on forage 
fish through use as aquafeed, and indirectly on other species 
by taking food out of the mouths of predators, fish, marine 
mammals, and seabirds. Forage fish serve the critical ecosystem 
function of transferring energy from primary or secondary 
producers to higher trophic levels. These species are already 
subject to as much or in some cases more fishing than their 
populations can withstand.
    Despite their important ecological role, forage fish limits 
are set without explicitly taking into account the needs of 
predators in the ecosystem. This is particularly alarming 
because the recent boom in global offshore aquaculture has 
placed unprecedented pressure on forage stocks to satisfy the 
demand for aquafeed. The aquaculture industry is the largest 
consumer of fishmeal and fish oil, using more than half of the 
global supply now. And this demand is projected to more than 
double in the next decade as offshore aquaculture expands to 
meet projected consumer demands.
    Now, advocates of offshore aquaculture development in the 
U.S. acknowledge that using fish to feed fish in aquaculture 
operations is a concern but downplay it, claiming that there is 
not a net loss of protein, that in fact wild fish generally 
consume more protein per pound than farmed fish. Such fish are 
no longer available as food for wild predators. The food base 
for these predators and the ability of the ocean to support 
them is reduced accordingly. As far as the ocean environment is 
concerned, it is a net loss of protein.
    If we are to rebuild and maintain our wild fish stocks at 
healthy population levels so they can continue to support 
recreational and commercial fisheries, our current national 
management goal, it also means ensuring an abundant supply of 
forage fish to sustain them. We urge Congress to include as a 
key feature in any Federal offshore aquaculture legislation 
strict, measurable standards for the use and management of 
forage fish.
    We call on Congress to address the issue of forage fish and 
feeds from both the demand side and the supply side. Minimize 
with the goal of phasing out the use of wild fish as feed 
ingredients in aquaculture. Permit the use of wild fish as feed 
ingredients for aquaculture only if they are sourced from 
fisheries utilizing an ecosystem based approach to management. 
Require all fishery management plans for forage fish to feature 
ecological reference points, targets and limits set to make 
sure an adequate forage reserve is maintained for the 
ecosystem. And until such time as ecosystem based management 
measures are implemented, freeze the allowable harvest of 
forage fish for reduction into fishmeal and fish oil.
    Now, in addition to our written comments, we have appended 
a paper that we prepared on ecological reference points for 
forage fish that explains this issue in much more detail based 
on a review of the scientific literature and policies and 
practices that have been recommended or implemented in forage 
fisheries here and abroad. And we also have requested that a 
paper that just came out yesterday entitled `Feeding 
Aquaculture in an Era of Finite Resources` in a peer reviewed 
journal by Nailer et al. be included in the record, which 
addresses the issue of making sure that when we proceed with 
aquaculture that we are not depleting the ocean by using forage 
fish for aquafeed and that we use alternative feeds.
    Ms. Bordallo. No objection. So ordered.
    [The prepared statement of Mr. Hinman follows:]

                  Statement of Ken Hinman, President, 
               National Coalition for Marine Conservation

    My name is Ken Hinman, and I am here as president of the National 
Coalition for Marine Conservation, an independent non-profit 
organization devoted exclusively to conserving ocean fish and their 
environment. I have been actively involved in marine fisheries issues 
since 1978, a period that corresponds with the evolution of marine fish 
conservation in the United States. During this time, I've witnessed the 
many changes Congress has made to our fisheries laws, in response to 
both the changing needs of our fisheries and our increasing knowledge 
about the fish, their behavior, their habitat and, more recently, the 
ocean ecosystems they are such a critical part of.
    Madame Chairman, subcommittee members, I appreciate this 
opportunity to speak to you today on the extremely important issue of 
offshore aquaculture and how it fits into the broader vision we have 
for the future of our oceans, for the fishermen and fishing communities 
that depend on the sea for sustenance and recreation.
    The Department of Commerce's approach to offshore aquaculture 
announced on September 3rd, and repeated here today, illustrates what's 
wrong with the way we are addressing this issue. The Administration 
approved, by not approving, a poorly-conceived and grossly ambitious 
plan to farm waters of the Gulf of Mexico for up to 64 million pounds 
of fish a year. After giving the gulf the go-ahead, the National 
Oceanic & Atmospheric Administration says it will now begin developing 
a national policy.
    To use an expression from down on the farm, that's putting the cart 
before the horse. Congress needs to step in now, bring this cart to a 
halt, step back, and begin a true national dialogue on offshore 
aquaculture. The first priority is to develop strict national 
environmental standards that will keep our ocean fisheries healthy and 
wild.

                          * * * * * * * * * *

    The National Coalition for Marine Conservation (NCMC) was started 
in 1973 by conservation-minded fishermen. Like the sportsmen before 
them who pioneered wildlife conservation on land, they evolved, 
naturally, into passionate protectors of their prey and the wild world 
we share. Fish are wild animals and they need wild places. The NCMC is 
dedicated to finding a way to keep the ocean wild in order to preserve 
our wild fisheries for the fishing public.
    But we wonder where we will fit in the future. We see policies 
being developed that support a future of wild places preserved in 
marine parks, where little or no fishing is permitted, soon to be 
surrounded by farms and other industrial uses. Is this the future we 
want for our oceans? How will the fishing public fit into this 
scenario? The millions of individual anglers, who simply want to catch 
a few fish for the home table, or who release their catch because it's 
the experience they value most? Or the conscientious commercial 
fishermen who fish selectively and with restraint, scaled-down to serve 
their communities, not corporations?
    This is not to say there isn't room for aquaculture in the sea. But 
the way it's being done in many parts of the world, and now 
contemplated here in the United States, is not sustainable and comes 
with high environmental costs. Aquaculture is not fishing. Done on a 
large scale, as proposed in the Gulf plan, it is agribusiness at sea, 
or aqua-business for want of a better word.
    The environmental threats are real and many and not easily 
remedied. Fish meal and oil containing PCBs that accumulate in the 
flesh of farmed salmon. Forage fish taken from the food chain in mass 
quantities to feed fish reared in saltwater pens. Large numbers of fish 
that escape their net-pens, competing with less abundant wild stocks 
for food and habitat. Escapees breeding with wild fish, creating 
crossbreed populations that are genetically weaker and more vulnerable 
to disease and parasites. Waste by-products along with pesticides and 
chemical fertilizers used in the aquaculture process that leak into the 
marine environment.

                          * * * * * * * * * *

    NOAA has committed to an ecosystem-based approach to fisheries 
management for all marine fisheries. But we find this hasty move into 
farming the seas anathema to such an approach. We are told that 
offshore aquaculture will help take pressure off wild stocks of fish. 
In fact, it is likely to do the opposite. It will put increased 
pressure directly on forage fish that are used as aqua-feed, and 
indirectly on other species by taking food out of the mouths of 
predators; fish, marine mammals and seabirds.
    Forage fish, including menhaden, herrings, sardines, anchovies, 
mackerels, whiting, and krill, are small, abundant, schooling fish that 
are prey for many other species of fish, marine mammals and seabirds. 
They serve the critical ecosystem function of transferring energy from 
primary or secondary producers to higher trophic levels. Despite their 
important ecological role, forage fish catch limits are currently set 
without explicitly taking into account the needs of predators in the 
ecosystem. This is particularly alarming because the recent boom in 
global offshore aquaculture has placed unprecedented pressure on forage 
stocks to satisfy the demand for aqua-feed.
    None of the U.S. fishery management plans covering forage fish 
adequately address all areas vital to maintaining a healthy forage 
base. Only recently has NOAA begun to develop federal guidance on 
employing more conservative standards for forage fish. Without more 
conservative standards, the risk of harvesting these fish at levels 
that damage the food web and irreversibly harm ecosystems is 
substantial.
    The aquaculture industry is the largest consumer of fishmeal and 
fish oil, using more than half of the global supply, and this demand is 
projected to more than double in the next decade as offshore 
aquaculture expands to meet projected consumer demands. In 2003, 28.8 
million tones of fish were captured for reduction into meals and oils 
for non-human consumption, mostly feeds for agriculture and 
aquaculture. At current rates of expansion, according to the FAO, it is 
predicted that the global aqua-feed industry will require 70% of the 
average historical fish meal supply and 145 percent of the fish oil 
supply by 2015. The global demand for fish meal for aqua-feeds will 
exceed total available supplies around the year 2020 and for fish oil 
well before the year 2010.
    While aquaculture is promoted as a solution to reduce pressure on 
wild fish stocks, the most highly-prized aquaculture species are 
carnivorous finfish that require significant amounts of fish-based 
feed. Up to three pounds of wild-caught forage fish are needed to raise 
a single pound of salmon. Forage needed to rear a pound of bluefin tuna 
is estimated from 7 to 25 pounds. Most major forage fish species are 
fully- or over-exploited and cannot sustain increased fishing pressure. 
Current fishing levels may already be hindering the recovery and 
sustainability of predator populations.

                          * * * * * * * * * *

    Advocates of offshore aquaculture development in the U.S. 
acknowledge that using fish to feed fish in offshore aquaculture 
operations is a concern, but then downplay it--unscientifically. They 
claim, for instance, that there is not a net loss of protein, that wild 
fish generally consume more protein per pound than do farmed fish.
    Whether or not wild fish consume more protein than farmed fish is 
irrelevant. Farmed fish are separate and apart from the ocean 
ecosystem. Fish caught to feed farmed fish are removed from the ocean 
and therefore no longer available as food for wild predators. The food 
base for these predators, and the ability of the ocean to support them, 
is reduced accordingly.
    As we noted, one of the main arguments advanced in support of 
offshore aquaculture is that it will take pressure off already stressed 
wild fish stocks. But if taking pressure off wild stocks is to allow us 
to rebuild and maintain them at healthy population levels so they can 
continue to support wild fisheries, commercial and recreational--which 
is our current national management goal--it also means ensuring an 
abundant supply of forage fish (sardines, anchovy, menhaden, mackerel, 
etc.) to sustain them.
    Again as we noted, the growth of offshore aquaculture is expected 
to more than double the global demand for aqua-feeds over the next 
decade, putting additional pressure on forage fish populations that are 
already subject to as much or in some cases more fishing than their 
populations can withstand. Harvesting forage species to feed penned 
fish is no different than feeding them to chickens or hogs. It takes 
substantial amounts of food out of the mouths of wild fish and other 
marine predators. As far as the ocean environment is concerned, it is a 
net loss of protein.

                          * * * * * * * * * *

    Americans ate an average of 16 1/2 pounds of seafood per person in 
2006, according to the Department of Commerce. What would seem to be 
good news for the fishing industry is tempered by the fact that 83 
percent of the fresh, frozen or canned fish and shellfish we consume 
are imported from overseas. Forty percent of that comes from fish 
farms.
    The Administration is using these figures to bolster support for 
legislation to promote a big-time U.S. offshore aquaculture industry to 
close the trade deficit by making the country more seafood self-
sufficient. The Commerce Department claims aquaculture will take 
pressure off wild stocks as seafood demand in the U.S. is expected to 
exceed supply--stocks are already strained beyond capacity--by 4 
million metric tons by 2025.
    But will farming take the pressure off? Can we really get more fish 
out of the ocean without taking more fish? Only two of the five largest 
capture fisheries produce seafood directly for our dinner table, 
according to the Woods Hole Oceanographic Institution. The other three 
``reduce'' fish such as menhaden, sardine and mackerel to fish meal and 
oil for agriculture and aquaculture feeds. So the 16 lbs per person is 
deceiving. It's actually a lot more than that--up to 4 times, by one 
estimate--when you factor in the animals nourished on fish feed--
chickens, pigs and, yes, farmed fish.
    With the exploding global growth of marine aquaculture, including 
penning or ranching carnivorous fish like salmon and tuna, we're likely 
to see a sizeable increase in the amount of fish removed from the ocean 
to feed them. Diverting fish to the table through farming is an 
inefficient way to use protein from the sea. Stocks of key forage fish 
are not well managed around the world and cannot handle the increased 
fishing pressure. Even here in the U.S., fishery management goals for 
forage fish are set to sustain the fisheries, not predators.
    As for whether aquaculture will take pressure off the stocks of the 
fish being farmed, that hasn't happened with salmon, because wild-
caught fish are more valuable. And in the Mediterranean, where farming 
bluefin tuna is big business, the result has been vastly increased 
captures of wild tuna to ``grow'' in the pens, without a commensurate 
drop-off in the established market fisheries. Farming adds an estimated 
25,000 tons a year to what's already being taken from the Med. Annual 
catches are now over 50,000 tons, in a fishery that scientists say 
shouldn't take more than 15,000.
    In order to protect the ocean's forage base, a fundamental element 
of an ecosystem-based approach to managing fisheries and conserving 
living marine resources, the National Coalition for Marine Conservation 
believes we must make preserving an adequate supply of prey for 
predators the primary goal of fishery management plans for key forage 
fish. To this end, the NCMC urges Congress to include as a key feature 
in any federal offshore aquaculture legislation, strict, measurable 
standards for the use and management of forage fish.
    We make the following recommendations:
    <bullet>  Prohibit fish ranching, defined as the catching of wild 
fish to rear and fatten in pens for harvest.
    <bullet>  Permit the use of wild fish as feed ingredients for 
offshore aquaculture only if they are sourced from fisheries utilizing 
an ecosystem-based approach to management.
    <bullet>  Until such time as ecosystem-based management measures 
are in place, cap the harvest of forage fish used for reduction.
    <bullet>  Require all Fishery Management Plans for forage fish to 
feature ecological reference points to ensure an adequate forage 
reserve is maintained for the ecosystem.
    <bullet>  Define ecological reference points as targets and limits, 
such as stock biomass and fishing mortality rate, set to achieve 
ecosystem-based management goals. These reference points should include 
target and threshold population size, target population age structure, 
target population density, and target fishing mortality. As an example, 
we append to these comments a white paper we prepared entitled 
``Ecological Reference Points for Atlantic Menhaden,'' which is based 
on a review of the scientific literature and policies recommended and/
or implemented in fisheries for key forage species here and abroad.
    <bullet>  Define ``forage fish'' for which the above standards 
apply as a suite of species that provide a critical link between lower 
and upper trophic levels. These species (e.g., menhaden, herrings, 
sardines, anchovies, mackerels, whiting, and krill) generally exhibit 
one or more of the following characteristics:
      <all>  Fish and invertebrates that are important prey for upper 
trophic levels (e.g., small schooling pelagic fish);
      <all>  Prey throughout much of their life-cycle;
      <all>  Their abundance highly influences productivity of 
predators;
      <all>  Are key forage species at the juvenile stage (small size, 
location nearshore).

[GRAPHIC] [TIFF OMITTED] T2311.001


    .eps[NOTE: ``Feeding Aquaculture in an Era of Finite Resources'' 
submitted for the record has been retained in the Committee's official 
files.]
                                 ______
                                 

           Ecological Reference Points for Atlantic Menhaden

Ken Hinman
National Coalition for Marine Conservation
June 2009

    Among the ASMFC's tasks this year for conserving and managing 
Atlantic menhaden, according to the commission's 2009 Action Plan, is 
to ``explore the development of ecological reference points.'' 
<SUP>1</SUP> To this end, the Policy Board in February tasked the 
Management and Science Committee (MSC) with providing advice to the 
Menhaden Management Board on developing new reference points; targets 
and limits designed to protect menhaden's vital role in the ecosystem, 
in accordance with the objectives of the Interstate Fishery Management 
Plan <SUP>2</SUP>, with particular emphasis on providing adequate 
forage for predatory fish, marine mammals and seabirds.
---------------------------------------------------------------------------
    \1\ ASMFC 2009 Action Plan. p. 5
    \2\ ASMFC 2001. Amendment 1 to the Interstate Fishery Management 
Plan for Atlantic Menhaden. Fishery Management Report No. 37.
---------------------------------------------------------------------------
    The Menhaden Management Board initiated an addendum to the Atlantic 
Menhaden FMP in 2005 to conserve menhaden with a temporary cap on 
reduction harvest in Chesapeake Bay (through 2010), while addressing 
concerns about localized depletion in the Bay and the possibility of 
compromised predator-prey interactions, in particular reduced 
availability of forage for resident and migratory striped bass. A 
research program recommended by the Menhaden Technical Committee is 
underway to try and determine if reduced abundance of menhaden is 
related to observed predator deficiencies (e.g., low weight-to-length 
ratios and stress-related disease in striped bass) and low larval 
menhaden recruitment. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ ASMFC 2005. Addendum II to Amendment 1 to the Interstate 
Fishery Management Plan for Atlantic Menhaden. pp. 6-7
---------------------------------------------------------------------------
    A new benchmark stock assessment for menhaden will be conducted in 
2009 and peer reviewed in 2010. This assessment, unfortunately, will 
employ the coast wide model used in the last assessment and biological 
reference points developed for stock replacement, not to preserve 
ecological function. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ The Menhaden Management Board in February asked the Stock 
Assessment Subcommittee to consider an alternative assessment model 
developed by L.B. Christensen and S.J.D. Martell of the University of 
British Columbia. Atlantic Menhaden Stock Status Report: New Advice 
(unpublished manuscript). Although this model also assumes a coast wide 
stock and uses existing reference points, it suggests that ``the 
Atlantic menhaden stock is currently overfished, and that overfishing 
is occurring.''
---------------------------------------------------------------------------
Current Reference Points are Insufficient For Ecosystem-Based 
        Management
    As the Peer Review Panel pointed out in its review of the last 
benchmark stock assessment for menhaden, the ASMFC's coast wide, 
single-species assessment model and the reference points established 
for assessing the status of the stock cannot measure the stock's 
capacity to provide adequate forage for other species in the ecosystem, 
nor can it ``detect localized depletion and reduced ecological function 
that could occur when the fishery is concentrated in one part of the 
coast,'' such as in and near Chesapeake Bay. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ ASMFC 2004a. Terms of Reference & Advisory Report to Atlantic 
Menhaden Stock Assessment Peer Review. Stock Assessment Report No. 04-
01. p. 4-5. See also 2009 Review of the Fishery Management Plan and 
State Compliance for the 2008 Atlantic Menhaden Fishery. Atlantic 
Menhaden Plan Review Team. ASMFC. May 2009.
---------------------------------------------------------------------------
    The biological reference points currently in use are two: a fishing 
mortality (F) target and threshold; and a population fecundity (number 
of eggs) target and threshold. <SUP>6</SUP> These reference points are 
intended to assure that the stock is capable of sufficient reproduction 
to replenish itself and that the stock is maintained at a size capable 
of supporting a viable fishery. As targets and thresholds linking the 
status of the stock to management goals and actions, they do not 
account for nor can they prevent the possibility that a fishery, 
especially one exploiting a key forage species like menhaden, could be 
overfished in an ecosystem context even if it is not overfished in a 
single-species context. <SUP>7</SUP>
---------------------------------------------------------------------------
    \6\ ASMFC 2004b. Addendum 1 to Amendment 1 to the Interstate 
Fishery Management Plan for Atlantic Menhaden.
    \7\ Pikitch, E.K. et al. 2004. Ecosystem-Based Fishery Management. 
Science. 305: 346-7.
---------------------------------------------------------------------------
    Developing ecological reference points for menhaden is similar to 
the process used to establish the current reference points, in that 
both are targets and thresholds set to achieve specified management 
goals. Once again, the current limits are set to determine whether 
overfishing is occurring or the stock is overfished on a coast wide, 
single-species basis; that is, to ensure the rate of fishery removals 
does not exceed the ability of the stock to replenish itself. 
Ecological reference points, on the other hand, also use traditional 
benchmarks, such as stock biomass and mortality rate, but are set with 
ecosystem-based management goals in mind.
    As the Peer Review Panel noted, ecological reference points require 
management goals that specify an allocation of menhaden as forage. 
<SUP>8</SUP> As an example, the Panel suggests that a reference point 
that would be ``responsive to menhaden as a forage species would be one 
which maximizes population abundance taking into regard the allocation 
of fish between F (fishing mortality) and M (natural mortality)''. 
<SUP>9</SUP>
---------------------------------------------------------------------------
    \8\ ASMFC 2004a. p. 5.
    \9\ ASMFC 1999. Terms of Reference & Advisory Report for the 
Atlantic Menhaden Stock Assessment Peer Review. Stock Assessment Report 
No. 99-01. p. 5.
---------------------------------------------------------------------------
    First consideration, then, should be given to how targets and 
thresholds for menhaden population abundance and total mortality (the 
relationship of F to M) might be established in an ecosystem-based 
context. We offer the following recommendations, based on a review of 
the scientific literature and approaches recommended and/or implemented 
in fisheries for other key forage species.
Managing for Greater Abundance
    The standard population, or biomass, associated with maximizing 
yields to fisheries is B<INF>MSY</INF>. The ASMFC in 2004 opted to 
replace the use of a proxy for an MSY-based spawning stock biomass 
(SSB) with a fecundity target and threshold. <SUP>10</SUP> Aside from 
whether SSB or fecundity is a more accurate indicator of stock 
reproductivity, standing biomass--or population size--does constitute a 
better measure of the amount of prey available to meet the needs of 
dependent predators.
---------------------------------------------------------------------------
    \10\ ASMFC 2004b.
---------------------------------------------------------------------------
    The National Marine Fisheries Service (NMFS) issued new Guidelines 
effective February 17, 2009 for implementing annual catch limits 
consistent with the Magnuson-Stevens Act's National Standard 1. In 
these Guidelines, NMFS recommends setting a population target for 
forage species higher than the B<INF>MSY</INF> level in order to 
maintain adequate forage for all components of the ecosystem. 
<SUP>11</SUP> This more precautionary approach for forage species 
abundance is well established in the scientific literature. 
<SUP>12</SUP> How much higher than the B<INF>MSY</INF> level depends on 
a number of factors, among them the uncertain effects of climate 
variability and change on fluctuations in prey populations, the 
uncertain effects of reduced biomass on prey distribution and 
availability to predators throughout the range of the prey species, and 
uncertainties in data and scientific advice.
---------------------------------------------------------------------------
    \11\ 50 CFR Part 600.310(e)(3)(iv)(C).
    \12\ Collie, J.S. and H. Gislason. 2001. Biological reference 
points for fish stocks in a multispecies context. Canadian Journal of 
Fisheries and Aquatic Sciences. 58: 2167-2176.
---------------------------------------------------------------------------
    Recent research on forage fish such as Atlantic herring and 
mackerel suggests that fully accounting for predation demand 
<SUP>13</SUP> in stock assessments and associated reference points--
including expected increases in demand from predatory fish and seabirds 
that are the object of recovery efforts--can dramatically increase 
estimates of the population size needed to sustain both predators and 
fisheries, while lowering the yields available to the fishery. 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \13\ Prey demand is the prey required to meet dynamic predator 
population needs, as opposed to merely estimating present predator 
consumption.
    \14\ W.J. Overholtz, L.D. Jacobson, and J.S. Link. An ecosystem 
approach for assessment advice and biological reference points for the 
Gulf of Maine--Georges Bank herring complex. North American Journal of 
Fisheries Management, 28. 2008. and H. Moustahfid, J.S. Link, W.J. 
Overholtz, and M.C. Tyrrell. The advantage of explicitly incorporating 
predation mortality into age-structured stock assessment models: an 
application for Atlantic mackerel. ICES Journal of Marine Science, 
January 16, 2009.
---------------------------------------------------------------------------
    While ecosystem models under development attempt to quantify the 
relationship between predator and prey with the goal of enabling 
fishery managers to understand the precise trade-offs among various 
management strategies for each, their application is likely years away. 
Until we are able to develop assessment models to determine what some 
scientists call the ecologically sustainable yield <SUP>15</SUP> for 
forage fish such as menhaden, precautionary interim management 
strategies are warranted. <SUP>16</SUP>
---------------------------------------------------------------------------
    \15\ Zabel et al. Ecologically Sustainable Yield, American 
Scientist, March-April 2003. The authors, from the Northwest Fisheries 
Science Center of NMFS, recommend moving away from traditional single-
species approaches to management to what they call ecologically 
sustainable yield (ESY), because ``the cost of mismanaging a community 
might be far greater than the cost of mismanaging a fishery. Although 
overfished stocks have been known to recover, revival of communities 
that have changed states can be excruciatingly slow or even 
impossible.''
    \16\ Department of Fisheries and Oceans, Canada. Policy on 
Fisheries for Forage Species. http://www.dfo-mpo.gc.ca/fm-gp/peches-
fisheries/reports-rapports/amac-ccmb/annex4-annexe4-eng.htm. Biological 
Pre-requisites for Commercial Fisheries on Forage Species: ``It should 
be possible to estimate the risk that the proposed level of harvest 
poses to the forage species and ecologically dependent species. In 
situations where risk presented by a particular level of harvest and 
consequences of over-harvesting are especially uncertain, exceptionally 
risk-averse decisions are necessary.''
---------------------------------------------------------------------------
    To cite an example of an interim strategy already in practice, the 
Convention on the Conservation of Antarctic Marine Living Resources 
(CCAMLR), recognizing the key role of krill in the ecosystem, adopted 
more conservative reference points than the ones commonly applied in 
single-species fisheries management. <SUP>17</SUP> ``(T)he requirements 
of krill predators were incorporated by establishing a level of krill 
escapement of 75% of the pre-exploitation biomass, instead of the 40-
50% level normally used in single-species management. This has been 
called the ``predator criterion'' and it reflects an arbitrary level 
that needs to be revised to take into account information on the 
functional relationship between abundance of prey and recruitment in 
predator populations as it becomes available.'' <SUP>18</SUP>
---------------------------------------------------------------------------
    \17\ Gascon, V. and Werner, R. CCAMLR and Antarctic Krill: 
Ecosystem Management Around the Great White Continent. Sustainable 
Development Law & Policy. Fall 2006. p. 14-16.
    \18\ Constable, A.J., de la Mare, W.K., Agnew, D.J., Everson, I., 
and Miller, D. 2000. Managing fisheries to conserve the Antarctic 
marine ecosystem: practical implementation of the Convention on the 
Conservation of Antarctic Marine Living Resources (CCAMLR). ICES 
Journal of Marine Science, 57: 778-791.
---------------------------------------------------------------------------
    The corollary to maintaining a higher target population for key 
forage species is setting a higher overfished threshold. With each 
increment of reduction in the target prey population level, the 
predator population is left with less available food and its population 
must shrink in size in order to come into equilibrium with the amount 
of prey available. <SUP>19</SUP> The standard single-species definition 
of an overfished stock--the point at which fishing ceases and 
rebuilding begins--is approximately \1/2\ B<INF>MSY</INF>--a population 
level that may still be capable of rebuilding--but which is about \1/4\ 
or less of an un-fished population. <SUP>20</SUP>
---------------------------------------------------------------------------
    \19\ Rounsefell, G.A. Ecology, utilization, and management of 
marine fisheries. C.V. Mosby Co. 1975.
    \20\ The National Marine Fisheries Service (NMFS) estimates the 
stock size at MSY at approximately 40% (range 36.8% to 50%) of the un-
fished or pre-exploitation stock size. NMFS National Standard 1 
Guidelines (1998): 63 FR 24216.
---------------------------------------------------------------------------
    In an ecosystems context, it is clearly risk-prone to assume that 
the biomass of a target forage species can be reduced to below half its 
pre-exploitation state without causing reduction in the ecosystem's 
capacity to support healthy and abundant populations of predator 
species. <SUP>21</SUP> Therefore, an overfished threshold should also 
be set substantially higher than in the traditional single-species 
approach, and probably no lower than B<INF>MSY</INF>.
---------------------------------------------------------------------------
    \21\ T. Ragen. 2001. Maximum sustainable yield and the protection 
of marine ecosystems: a fisheries controversy in Alaska. Author's 
unpublished manuscript. The author is Executive Director of the U.S. 
Marine Mammal Commission.
---------------------------------------------------------------------------
Avoiding Localized Depletion
    Ecological reference points may also account for the fact that 
setting a more conservative target population goal does not fully 
account for and protect a prey fish's role in the ecosystem. Fishing a 
prey population down to a fraction of its un-fished level in order to 
increase fishery yields causes not simply a reduction in the number of 
prey (total population), but also a change in the type of prey 
available (size/age) and distribution throughout their natural range. 
<SUP>22</SUP> Each of these factors is important to predators finding 
an adequate supply of food where and when they need it.
---------------------------------------------------------------------------
    \22\ Ragen. 2001.
---------------------------------------------------------------------------
    The Policy on Fisheries for Forage Species of Canada's Department 
of Fisheries and Oceans states: ``Management plans for commercial 
fisheries on forage species should include explicit provisions to 
ensure that fisheries do not unduly concentrate harvest and do not 
produce local depletions of the forage species...Forage species should 
be managed in ways which ensure local depletion of population 
components does not occur. Local depletion of the forage species could 
result in food shortage for the dependent predators, even if the 
overall harvest of the forage species was sustainable.'' <SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ DFO, Canada. Policy on Fisheries for Forage Species.
---------------------------------------------------------------------------
    To avoid localized depletion and maintain prey availability, 
ecological reference points for Atlantic menhaden should establish, in 
addition to population biomass targets and thresholds:
    <bullet>  Target population age structure, i.e., an age 
distribution reflecting that of a natural, pre-exploitation population; 
and,
    <bullet>  Target population density, i.e., prey availability 
distributed in time and space to avoid local or regional depletions. 
Time-area limits (caps) can be used to distribute catches 
geographically.
Allocating Prey to Predators
    Collie and Gislason, in examining the use of single-species 
reference points in a multi-species or ecosystem context, conclude that 
such reference points are inappropriate for forage species which have 
natural mortality rates that fluctuate substantially. They suggest a 
more appropriate alternative for forage fish is to manage for total 
mortality by decreasing fishing mortality when natural mortality 
increases. <SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Collie, J.S. and H. Gislason. 2001.
---------------------------------------------------------------------------
    In an un-fished population at a natural equilibrium, total 
mortality (Z) for a species equals natural mortality, which for a 
forage fish like menhaden is primarily predation. In a population that 
is at a fishing-induced equilibrium, the amount of predation is reduced 
to accommodate desired fishery yields. As a result, estimates of 
natural mortality (M) used in single-species assessments are influenced 
by the fishing mortality rate (F). The M that is ``determined'' is 
therefore an a priori allocation to predators, rather than a 
determination of actual predator needs.
    Some management bodies have recommended that an ecosystem-based 
approach to managing forage fish would be to allocate prey to predators 
first, before allocating to the fisheries. The NOAA Chesapeake Bay 
Office's FEP, Fisheries Ecosystem Planning for Chesapeake Bay, 
recommends that fishery managers ``(c)onsider explicitly strong 
linkages between predators and prey in allocating fishery resources. Be 
precautionary by determining the needs of predators before allocating 
forage species to fisheries.'' <SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ Fisheries Ecosystem Planning for Chesapeake Bay, NOAA 
Chesapeake Bay Office, 2006. pp. 320-1.
---------------------------------------------------------------------------
    Following on Collie and Gislason, doing this would entail 
estimating an amount of prey fish to set aside to supply predators at 
desired levels, then determining the sustainable fishing mortality 
rate; or, Z - M = F. The predation mortality used in the menhaden stock 
assessment (M2, a subset of M), which is estimated from the 
Multispecies VPA, is thought to produce a more accurate fishing 
mortality rate for the purpose of staying within current biological 
reference points. But as the ASMFC has pointed out, the MSVPA cannot 
provide information about the size and composition of striped bass and 
other predator populations a given menhaden population can support. 
<SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ Brad Spear, Senior Fishery Management Plan Coordinator for 
Policy, ASMFC. Coast-wide Stock Assessment of Atlantic Menhaden. 
Proceedings of the Menhaden Science and Policy Symposium. Narragansett, 
RI. November 30, 2007. p. 14. The MSVPA includes only three predators--
striped bass, bluefish and weakfish--on a prey species known to be 
preyed on numerous fish, marine mammals and seabirds.
---------------------------------------------------------------------------
    The natural mortality rate used in the stock assessment, based on 
the MSVPA, is 0.45. The current fishing mortality reference points for 
menhaden are an F<INF>TARGET</INF> of 0.75 and an F<INF>THRESHOLD</INF> 
of 1.18.
    One class of reference points used to approximate fishing at the 
MSY level for data poor stocks, or when there is a high degree of 
uncertainty about stock status, is F=M or where F is a fraction of M, 
e.g., F=0.75M. <SUP>27</SUP> It is commonly assumed that when 
harvesting at MSY, F is roughly equal to M. If the goal is to maintain 
a higher biomass, as in the case of forage species, then F should be 
set no higher than M and preferably lower. Indeed, one author of the 
Chesapeake Bay FEP, referencing Collie and Gislason, has recommended 
that for menhaden, F should as a rule be less than or equal to M. 
<SUP>28</SUP> The North Pacific Fishery Management Council, which uses 
a tiered system for setting buffers between overfishing limits and 
target catch levels based on stock life history and uncertainties in 
the assessment, establishes an overfishing level (MSY) for walleye 
pollock, an important forage fish in Alaskan waters, that is equal to M 
and a target F that is set at 0.75M. <SUP>29</SUP>
---------------------------------------------------------------------------
    \27\ Field, J.C. 2002. A review of the theory, application and 
potential ecological consequences of F40% harvest policies in the 
northeast Pacific. School of Aquatic and Fisheries Sciences. University 
of Washington. Prepared for the Alaskan Oceans Network.
    \28\ Houde, E.D. University of Maryland Center for Environmental 
Science. Developing, Adopting, and Implementing EBFM in Chesapeake Bay. 
A presentation to the Conference on Ecosystem Based Management: The 
Chesapeake and Other Systems. Baltimore, MD. March 23, 2009.
    \29\ Fishery Management Plan for Groundfish of the Bering Sea and 
Aleutian Islands Management Area. North Pacific Fishery Management 
Council. April 2009. p. 15.
---------------------------------------------------------------------------
Summary
    Ecological reference points for Atlantic menhaden used as an 
alternative to the commonly used single-species reference points could 
nonetheless use stock biomass and fishing mortality rate as reference 
points for setting targets and thresholds to achieve more conservative, 
ecosystem-based fishery management goals.
    In Table 1 (below), we present what ecological reference points for 
menhaden might look like, based on the preceding discussion on the 
scientific literature and approaches used to manage forage fish 
elsewhere. B is the stock biomass, BMAX is the biomass in the absence 
of fishing, BMAX75% is 75 percent of the un-fished biomass, and 
B<INF>MSY</INF> is the biomass associated with producing the maximum 
sustainable yield. F is the fishing mortality rate, M is the natural 
mortality rate and F=.75M is a fishing mortality rate that corresponds 
to 75% of the natural mortality rate.
[GRAPHIC] [TIFF OMITTED] T2311.002

                                 .eps__
                                 
    Ms. Bordallo. Thank you very much for joining us, Mr. 
Hinman.
    And now we have Mr. Vinsel. I would like to ask you to 
proceed with your testimony.

STATEMENT OF MARK VINSEL, EXECUTIVE DIRECTOR, UNITED FISHERMEN 
                           OF ALASKA

    Mr. Vinsel. Thank you, Madam Chair and Committee Members. 
My name is Mark Vinsel, and I represent United Fishermen of 
Alaska. We are an umbrella association of 37 member groups that 
participate in all the different commercial fisheries in and 
offshore Alaska waters. And these fisheries are seen as a model 
for sustainable fisheries nationwide, and the key is that the 
fish come first.
    We manage our fisheries with a public process, including 
local meetings with all stakeholders where decisions are vetted 
before policies move forward. The United Fishermen of Alaska's 
current position is to oppose offshore aquaculture that would 
grow fin fish to market size. However, we are willing to listen 
to the concerns of others and consider any legislation on its 
merits. As of yet, we have not seen any legislation introduced 
that would protect the fragile economies of the nation's 
fishing dependent communities.
    Alaska's Legislature banned finfish farming in Alaska in 
1990 after convening a task force that studied the risks and 
benefits. The concerns anticipated at that time to the 
ecosystem, fishery stocks, the economy, have not diminished. In 
setting a national policy for offshore aquaculture, we ask 
Congress to take existing wild fishery resources, participants, 
and communities into account as a priority over new industrial 
aquaculture, and ensure the development of potential U.S. 
aquaculture is not simply moving economic activity away from 
traditional fishing communities and into other new businesses.
    Congress should ask, along with recognition of the very 
serious risks to ocean environments and communities, what are 
the benefits of bringing industrial scale aquaculture to the 
United States? Because these are unlikely to be small business 
ventures. We question whether development of an offshore fish 
farm industry is really likely to improve the nation's seafood 
balance of trade. Seafood is a global market, and labor, 
energy, and real estate for processing in U.S. coastal areas 
may not prove competitive with foreign countries.
    We also question whether farming of carnivorous fish to 
adult size is a net gain in protein or food production, and 
remain concerned about the harvest of krill and other important 
forage from national ocean food webs to feed farmed fish. We 
question whether introduction of industrial scale aquaculture 
into the open ocean can be done without negative consequences 
based on the volume of fish waste and concern that sea lice 
infections affect wild salmon stock that pass near 
concentrations of fish farms in British Columbia.
    In addition to a clear priority for wild fisheries, if you 
deem that the public interest is served by Federal legislation 
for offshore aquaculture, we also recommend that the following 
be included as essential safeguards in any legislation. 
Programmatic environmental impact statements at the national 
level, regional level, and for individual projects. Analysis of 
environmental effects and effects of fish farm production on 
the economies of fishing communities. We need to see 
consideration of cumulative impacts of multiple sights.
    We would like to see development funding for aquaculture 
have parallel investments in wild capture fishery research and 
development and not be at the expense of funding for fisheries 
research for our wild capture fisheries. We would like no 
siting of fish farms on or near oil production platforms or 
essential fish habitat, migration paths, or marine sanctuaries. 
We call for no nonlocal species or genetically modified species 
as there is no proven technology to prevent escapes and the 
consequences of introducing these into natural systems cannot 
be predicted.
    We ask for approval of the regional fishery management 
councils on proposals for species that are currently fished and 
within areas of jurisdiction of a council. And we ask that 
legislation secure the funding that the additional workload and 
staff for this addition to the council process. We call for 
approval of adjacent states to the extent of the Exclusive 
Economic Zone not only 12 miles. In this we support the State 
of Alaska's position from 2007 at this Committee.
    And similarly, the ability of states to opt in and 
selectively allow which aquaculture activities in the EEZ 
adjacent to their waters to ensure that any programs are 
compatible with that state's fishery management program. The 
bill should not include any phrases such as `to the extent 
feasible` that undermine requirements. It is not always 
feasible to conduct an industrial activity while ensuring the 
sustainability of wild fisheries and resources, and when not, 
no permits should be allowed.
    We also call for no piecemeal approach. United Fishermen of 
Alaska does not have a position on matters before the Gulf of 
Mexico Fishery Management Council, but we do not favor moving 
forward with individual projects without strong Federal 
protections and a framework for closely researching and 
addressing the consequences on the public, especially 
communities that depend on fishery resources. In conclusion, we 
hope that you will scrutinize this issue with consideration for 
the social and economic well being not only of Alaskans but 
other coastal and fishing dependent communities and especially 
the fish that we depend on. Thank you for listening to our 
concerns.
    [The prepared statement of Mr. Vinsel follows:]

             Statement of Mark Vinsel, Executive Director, 
                       United Fishermen of Alaska

    Thank you for the opportunity to testify. Our perspective from 
Alaska on a framework for sustainable management of our fishery 
resources and the habitats that these depend on can simply be stated as 
``the fish come first''.
    United Fishermen of Alaska (UFA) represents 37 commercial fishing 
organizations, including fisheries of every species commercially fished 
in the U.S. Exclusive Economic Zone (EEZ) of the North Pacific and the 
state waters of Alaska. These fisheries represent roughly 60% of U.S. 
domestic seafood production, and are seen as a model for sustainable 
fisheries management worldwide. The seafood industry of harvester and 
processor businesses represents the largest private sector employer in 
Alaska, with many of these jobs located in rural areas that do not have 
other employment options available. UFA's mission is ``to promote and 
protect the common interests of the Alaska commercial fishing industry, 
as a vital component of Alaska's social and economic well-being.'' This 
social and economic well-being depends first and foremost on the health 
of our fisheries resources, and on the vitality of the tens of 
thousands of fishing businesses, with the majority of these being small 
family businesses spanning multiple generations.
    Recognition of the dependency of our state on its fishery resources 
has been pivotal in Alaska's development as a U.S. state, and how we 
manage our resources. The public process based on sound science is the 
key. Alaska state management through the Board of Fisheries and federal 
management through the North Pacific Council are based on science, 
current information, and adaptability, with the overriding idea that 
the long term health of the resource comes first. The federal Council 
and state Board of Fisheries processes include local meetings in 
affected communities, with all stakeholders invited. The inclusion of 
all stakeholders in the process is essential to acceptance of the 
outcomes.
    Alaska's legislature banned finfish farming in Alaska in 1990 after 
convening a task force that studied the risks and benefits. The 
concerns anticipated at that time, to the ecosystem, fish stocks, and 
economy, have not been diminished. UFA's current position is to oppose 
offshore aquaculture that would grow finfish to market size, however, 
we are willing to hear the concerns of others and consider any 
legislation on its merits. As of yet we have not seen legislation 
introduced that would provide the protections we feel are called for to 
protect the fragile economies of Alaska and the nation's fishing 
dependent communities.
    National Standard 8 of Magnuson-Stevens calls for conservation and 
management measures to take into account the importance of fishery 
resources to fishing communities in order to:
    (1)  Provide for the sustained participation of such communities; 
and
    (2)  To the extent practicable, minimize adverse economic impacts 
on such communities.
    Major shifts in markets in recent memory have hurt Alaska fishing 
communities, as expansion of industrial scale fish farms raised 
production to the extent that prices, even for their own farmed fish, 
decreased by roughly half. We cannot forget that an overproduction of 
farmed salmon in excess of market demand caused much hardship and 
dislocation from multi-generational fishing businesses, and severely 
harmed the social and economic well-being of Alaska.
    Now just a few years later, we have a lot to learn from the example 
in Chile where fish farm growth was most pronounced. Layoffs in the 
tens of thousands, the widespread disease of infectious salmon anemia, 
and the use of pesticides that are not allowed in the U.S. and many 
other markets will continue to plague Chile as evidence that the 
environmental effects and social and economic well-being were not 
adequately considered.
    Thankfully this is not the story in the U.S. We thank this 
committee for not rushing forward with previous legislation that did 
not adequately address the dire risk to the environment, and the social 
and economic stability of fishing dependent communities.
    In setting a national policy for offshore aquaculture, we ask 
Congress to take existing wild fishery resources, participants and 
communities into account as a priority over new industrial offshore 
aquaculture, and ensure that development of a potential U.S. 
aquaculture industry is not simply moving economic activity away from 
traditional fishing communities and into other businesses.
    Congress should ask, along with recognition of the very serious 
risks to ocean environments and communities, what are the benefits to 
the public of bringing industrial scale aquaculture to the United 
States, because these are unlikely to be small business ventures.
    We question whether development of an offshore fish farm industry 
in the U.S. is really likely to improve the nation's seafood balance of 
trade. Seafood is a global market, and labor, energy, and real estate 
for processing in U.S. coastal areas may not prove competitive with 
foreign countries.
    We also question whether farming of carnivorous fish to adult size 
is a net gain in protein or food production, and we remain concerned 
about the harvest of krill and other important forage from the natural 
ocean food web to feed farmed fish. Additionally, what are the impacts 
of alternative feeds, like soy, in the marine environment?
    We question whether the introduction of industrial scale 
aquaculture into the open ocean can be done without negative 
consequences, based on the volume of fish wastes, and concern that sea 
lice infections affect wild salmon stocks that pass near concentrated 
fish farms in British Columbia. We well know that the ocean is not an 
unlimited receptacle for the wastes of human endeavors.
    In addition to a clear priority for wild fisheries, if you deem 
that the public interest is served by federal legislation for offshore 
aquaculture, we also recommend that the following be included as 
essential safeguards in any legislation:
    <bullet>  Programmatic Environmental Impact Statements at the 
regional level, subject to public comment and regional council 
approval, before individual site applications are invited.
    <bullet>  Analysis of economic conditions, markets, and effects of 
fish farm production on the economics of fishing communities. The State 
of Alaska testified in 2007 here and asked for a five year moratorium 
on offshore aquaculture for these studies, and they are still needed.
    <bullet>  Consideration of cumulative impacts. It should clearly be 
stated that a previously approved operation is no basis for any 
subsequent operation, on the contrary it should be noted that necessary 
precautions must be taken to ensure no damage from additive impacts of 
multiple operations.
    <bullet>  A fair playing field. Development funding for aquaculture 
should have parallel investment in wild capture fishery research, 
development and technology. If aquaculture operations are provided 
benefits in U.S. Department of Agriculture programs, we ask for similar 
treatment for wild harvest producers. If funding is provided for 
research, management, and pilot projects, we ask that this funding not 
be at the expense of funding for fisheries research, development and 
management.
    <bullet>  No siting of fish farms on or near oil production 
platforms. Previous legislation has included large sections 
specifically to allow conversion of obsolete energy platforms that 
would be otherwise be required to be dismantled. The cost that would 
have been paid for dismantling would be an artificial incentive for 
development of fish farms.
    <bullet>  No genetically modified species. Beyond the food safety 
questions that many share regarding genetic modifications, there is no 
proven technology that is guaranteed to prevent escapes, and the 
consequences of introducing genetically modified species into natural 
ecosystems cannot be predicted.
    <bullet>  No non-local species. Alaska continues to host escaped 
farmed Atlantic from British Columbia with the potential for 
displacement or interference with wild salmon. We also recommend that 
industrial fish farming not proceed with species for which there are 
wild capture species.
    <bullet>  Approval of Regional Fishery Management Councils on 
proposals that include species covered under existing Fishery 
Management Plans, or within the area of jurisdiction of a Council. And 
we ask that you secure the funding that the additional workload and 
staff for this addition to the Council process.
    <bullet>  Approval of adjacent states to the extent of the EEZ, not 
only twelve miles. We strongly support the State of Alaska 2007 
position on this.
    <bullet>  Ability of states to ``opt in'' to selectively allow 
offshore aquaculture activities in the EEZ adjacent their waters, to 
ensure that any programs are compatible with the state's fishery 
management program, where these are developed in longstanding practice.
    <bullet>  The bill should not include phrases such as ``to the 
extent feasible'' that undermine requirements. It is not always 
feasible to conduct an industrial activity while ensuring 
sustainability of wild fisheries resources, and when not--no permit 
should be allowed.
    <bullet>  No piecemeal approach. As we represent fisheries in and 
offshore from Alaska, United Fishermen of Alaska does not have a 
position on matters before the Gulf of Mexico Fishery Management 
Council. But we do not favor a ``piecemeal'' approach that would move 
forward with individual projects without strong federal protections and 
a framework for closely researching and addressing the environmental, 
social and economic consequences on the public, especially communities 
that depend on fishery resources.
    In conclusion, we hope that you will scrutinize this issue with 
consideration for the social and economic well-being not only of 
Alaskans but other coastal and fishing dependent communities.
    Thank you for listening to our concerns.
MEMBER ORGANIZATIONS
    Alaska Crab Coalition--Alaska Independent Fishermen's Marketing 
Association--Alaska Independent Tendermen's Association--Alaska 
Longline Fishermen's Association--Alaska Scallop Association--Alaska 
Trollers Association--Alaska Whitefish Trawlers Association--Armstrong 
Keta--At-sea Processors Association--Bristol Bay Reserve--Bristol Bay 
Regional Seafood Development Association--Cape Barnabas Inc.--Concerned 
Area ``M'' Fishermen--Cook Inlet Aquaculture Association--Cordova 
District Fishermen United--Crab Group of Independent Harvesters--
Douglas Island Pink and Chum--Fishing Vessel Owners Association--
Groundfish Forum--Kenai Peninsula Fishermen's Association--Kodiak 
Regional Aquaculture Association--North Pacific Fisheries Association--
Northern Southeast Regional Aquaculture Association--Petersburg Vessel 
Owners Association--Prince William Sound Aquaculture Corporation--Purse 
Seine Vessel Owner Association--Seafood Producers Cooperative--Sitka 
Herring Association--Southeast Alaska Fisherman's Alliance--Southeast 
Alaska Regional Dive Fisheries Association--Southeast Alaska Seiners--
Southern Southeast Regional Aquaculture Association--United Catcher 
Boats--United Cook Inlet Drift Association--United Southeast Alaska 
Gillnetters--Valdez Fisheries Development Association--Western Gulf of 
Alaska Fishermen
                                 ______
                                 

    Response to questions submitted for the record by Mark Vinsel, 
             Executive Director, United Fishermen of Alaska

    Dear Chairman Bordallo and Committee Members,
    Thank you for the opportunity to provide more detail on our 
perspective on the prospects of aquaculture in the open oceans of the 
U.S. We appreciate the breadth of questions as a sign of your interest 
in our concerns. I have copied your questions below in italics, with 
our responses.

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)

 1.  Can you explain your statement that offshore aquaculture as 
        presently proposed could only be done by large or multi-
        national corporations?
    I have not read a transcript of my verbal testimony, but I believe 
that I did not divert from my written testimony, and said that ``these 
(offshore farms) are unlikely to be small business ventures.'' This is 
based on the history of salmon farming in Chile and British Columbia, 
where many small individual business ventures have been bought up by 
the expansion and globalization of three major companies that now 
control a large percent of the production from these two regions.

 2.  Can wild fisheries and aquaculture be complimentary?
    The United Fishermen of Alaska recognizes that it may be possible 
for other aquaculture programs to compliment wild fisheries, but this 
is unlikely without a wild fisheries priority in the design of the 
program, including its regulation, siting, and production. Careful 
coordination with existing fisheries is required and must be an 
essential component of the enabling legislation.
    Some aspects are inherently not complimentary, for instance the 
footprint of net pens would preclude fishing in that specific area, and 
most likely transit as well. Through careful coordination in the 
regulatory framework, with a criteria to be complimentary with existing 
fisheries, this should be possible. If there is not a priority in 
legislation for existing commercial fisheries, and it is just left to 
chance, it seems highly unlikely that the resultant program would be 
complimentary to wild fisheries.

 3.  Would offshore aquaculture of any marine species be acceptable to 
        fishermen?
    Individual fishermen will always have a complete range of strongly 
felt opinions, but we do not feel that there is widespread opposition 
to shellfish aquaculture, edible algae, and other potential products. 
There are also many fishermen that feel that closed containment 
facilities would not incur the risks to natural ecosystems that have 
proven detrimental in current practice of open net pen fish farms.

 4.  In considering legislation to authorize a federally regulated 
        offshore aquaculture program, what measures are needed to 
        ensure the sustainability of wild fisheries-dependent 
        communities and businesses?
    The single biggest factor would be to recognize a priority for 
natural fishery resources, and a permitting process that considers the 
program's impacts on wild fish resources and fishing communities. The 
permitting process should include public and stakeholder input to 
identify potential detrimental effects, and an integration of the best 
available science to addresses those impacts in the ecosystem and in 
the market to prevent damage to ocean resources and fishing 
communities.

Questions from Republican Members

 1.  Your concerns seem to be both environmental and economic. While 
        the environmental effects may be anticipated and monitored, how 
        do you anticipate the economic effects on fishing communities?
    By looking at economic effects in retrospect, it is easy to 
envision what could lie ahead for commercial fishermen in the face of 
large scale fish farming. When salmon farms expanded faster than market 
capacity in the 1990s, salmon prices for both farmed and wild caught 
fish fell precipitously. This was followed by economic hardship and 
consolidation in fish farming communities as well as salmon fishing 
communities. The average price for all species of Alaska salmon dropped 
to 30 cents per pound, far more for some fisheries, and processing 
facilities in many communities closed. Many Alaskan fishermen were left 
with no market and many communities were left with little or no 
economic activity.

 2.  You raise a concern that is raised by other witnesses--the use of 
        forage fish as food for farmed fish. Is there a market for 
        using fish meal from the unused portions of wild harvest fish 
        left over from processing that could be used for this purpose? 
        If so, would the fishermen see any of this additional economic 
        use of processed wild fish?
    Fish waste is currently used by some Alaska processors for fuel, 
some is refined for fish oil supplements, and some is used for 
agricultural fish meal or pet food. The feasibility of each of these 
uses is a matter of local infrastructure, transportation, cost of fuel, 
and markets. Full utilization is a worthy goal, and the facilities and 
infrastructure required to make this feasible seems a worthwhile 
investment. It is unclear how much, if any, commercial fishermen would 
directly benefit from the increased sale of fish byproducts, 
particularly since byproducts are already on the market. Because 
processors and others who specifically sell byproducts are the most 
likely recipients of any benefits associated with additional added 
value opportunities, the financial impact on fishermen might be more 
indirect, such as having a processor to deliver to if that income makes 
the difference between a processing facility staying open or shutting 
down.

 3.  For species like salmon, would the Chilean fish farmers have been 
        better off if they timed their entrance into the U.S. market 
        for the times of the year when the domestically harvested 
        salmon were unavailable? Would such market timing lessen or 
        even benefit the domestic harvest sector? If so, would this 
        lessen your organization's opposition to fish farming for those 
        fisheries which are seasonal?
    We'll leave it to the fish farmers to say what strategies would 
have then and would now benefit their operations.
    Alaska's fisheries are to a great extent seasonal, but product 
enters the market throughout the year, with a majority of it frozen, 
canned, or processed into ready to cook product forms. Farmed fish also 
come in a variety of product forms and will have an impact on our 
markets no matter when they are sold.
    One way to minimize the impact on commercial fisheries would be for 
farmers to raise species that are not commercially harvested. Their 
products would then seem more complimentary and additive to the U.S. 
seafood program, which may lessen the concerns of some individuals.
    However, the environmental impacts on wild stocks and habitat, as 
well as siting issues, are of big concern no matter what species is 
raised and would have to be dealt with for fishermen to support a 
program.

 4.  Mr. Sutton testified that fish farming is--the fastest growing 
        segment of the international food system.'' Do you think that 
        the U.S. should let other countries continue to increase their 
        fish production and that the U.S. should continue to increase 
        their imports of seafood?
    This question falls outside our area of expertise. We are not aware 
of what influence the U.S. has in how much fish other countries 
produce.

 5.  Do you believe regulations should be different for finfish and 
        shellfish?
    Yes, the culture of shellfish has many differences from finfish, 
and different risks. Shellfish should fall under the same set of 
overriding statutes, and be regulated under many of the same 
regulations as finfish. Special sections would be required to allow for 
differences between the species, and the design of operating plans will 
vary between activities.

 6.  Are there international protocols for hatchery breeding programs 
        that would be applicable to aquaculture operations?
    We are not aware of international hatchery breeding protocols.

 7.  Do you believe legislation is necessary to give Federal agencies 
        the ability to permit offshore aquaculture operations in 
        Federal waters? If so, what Federal agencies should be involved 
        in the permitting process or should have a role in the approval 
        of any permit?
    This question is outside our area of expertise. There is a wide 
range of federal agencies with interest and jurisdiction over 
activities in our ocean waters, as well as multiple legal opinions 
about whether or not authority right now exists to permit aquaculture 
in federal waters.

 8.  What environmental standards are appropriate for legislation 
        authorizing offshore aquaculture facilities? Should legislation 
        spell these out or should legislation give the permitting 
        agency a broad outline for these standards?
    To protect existing uses of the EEZ, any legislation should include 
at a minimum standards to protect water quality and marine ecosystems, 
standards on treatments to prevent against diseases, standards on 
production concentrations, and a clear process for stakeholder and 
public input. It is impossible to predict the possible effects on 
others uses and users in this hypothetical exercise, and ocean science 
is ever evolving yet with much still unknown.
    Legislation must establish a set of overarching principals and set 
up the framework for strong regulations, and the matter of what is most 
appropriate for statute and regulation should be thoroughly discussed 
in the process of developing legislation.

 9.  What standards are appropriate for the regulation of discharges 
        from offshore aquaculture facilities what agency or agencies 
        should be responsible for developing discharge regulations?
    The EPA regulates discharges in seafood processing and marine 
vessels. At this time we do not have specifics on what standards are 
appropriate for offshore aquaculture, but the legislation should 
support strong regulations with an adequate program of monitoring and 
enforcement to protect ocean resources.

10.  What safeguards for the prevention of the escape of farm raised 
        fish are appropriate for legislation authorizing offshore 
        aquaculture facilities? What are the likely effects of the 
        escape of non-native species on natural populations of fish and 
        how should these impacts be dealt with in the legislation?
    Aquaculture that is conducted in closed-containment can prevent 
escapes. We do not know of any current net pen technology that can be 
expected to withstand attempts by large marine predators such as sea 
lions and larger sharks. We also call for the marking and tagging of 
farmed fish, to allow identification of escaped farmed fish.
    Predictable effects of farmed fish escapes include but are not 
limited to: competition with wild fish for food; interference with 
spawning; interbreeding; disease and parasite transmission; and the 
spread of antibiotic resistant bacteria.

11.  How should the siting process work for offshore aquaculture 
        facilities? How will other Federally-permitted activities or 
        Federally-leased areas for other activities (such as areas 
        leased under the Outer Continental Shelf Lands Act) be 
        reconciled? What other conflicts among user groups should be 
        identified and considered?
    The federal process for reconciliation among various uses is 
outside our area of expertise, and we await clarity from the current 
administration on its proposed programmatic ``spatial planning'' of our 
ocean environments. We ask that existing users and their uses, both 
with and without quota or leaseholds should be protected from new 
business ventures that would interfere with fishing, transit, or 
infrastructure of other industries. An open and public stakeholder 
process can help identify these in the area of a given permit 
application.

12.  What impact will offshore aquaculture have on existing domestic 
        wild harvest fisheries and how should those impacts be 
        addressed? Should the Federal government be responsible for 
        mitigating these impacts or should the aquaculture industry be 
        somehow required to mitigate these effects?
    Impacts on markets can be addressed by identifying a proper mix of 
species to augment the seafood sector as opposed to threaten it We 
would also look to the federal government to help ensure that there are 
no unfair trade advantages for the aquaculture industry and to mitigate 
the cost to the states of improving infrastructure to accommodate new 
industry.

13.  What options should legislation include for states to have input 
        into the process of either permitting or siting offshore 
        aquaculture facilities? Should states have the ability to 
        reject facilities off their shores in Federal waters? Do states 
        have this ability under the Coastal Zone Management Act?
    We reiterate the position of the State of Alaska--States should 
have the ability to reject facilities off their shores, including 
federal water to the extent of the EEZ, that are not deemed to be 
compatible with the interests of the state.

14.  What U.S. ownership standards should be included in legislation 
        authorizing offshore facilities? Should the ownership and 
        control standards be comparable to those currently in place for 
        fishing vessels and/or on-shore processing companies?
    The term ``Exclusive Economic Zone'' is clear to mean that the 
intention is that business opportunity should be provided for U.S. 
owned businesses. Yes, ownership and control provisions of farms should 
follow the current practice in fisheries.

15.  What role should the regional fishery management councils have in 
        regulating the fish, feed, size limits, seasons, and products 
        from offshore aquaculture facilities? Should farm-raised fish 
        only be allowed on the market when the same species of wild 
        fish are allowed to be harvested to minimize enforcement of 
        fishery management plans and regulations?
    It is the position of UFA that regional fishery management councils 
should have authority over aquaculture permitting in their respective 
regions, based on our appreciation of the work of the Council's and the 
public process that involves all stakeholders and integrates the best 
available science into fisheries management decisions. It is these 
elements that lead us to recommend Council authority.
    The wide ranging effects and interrelationships of all of the 
factors you list, and the dynamic nature of ocean ecosystems, markets, 
resources, and communities should have full and open consideration by 
the public in regulating aquaculture. At the very least, regional 
councils should have authority over siting and species at every stage 
of the EIS and permitting processes.
    The question of market timing should be addressed by Councils and 
stakeholders in the permitting process, as this will be dependent on 
current markets and the proposed project.

16.  Should legislation deal with issues such as the use of antibiotics 
        and the types of fish food that can be used in the marine 
        environment? Should the legislation require that the impacts of 
        antibiotics and food from aquaculture facilities on the natural 
        populations be regulated?
    Yes. The federal government should be very concerned about all uses 
of antibiotics, and especially those that circulate outside 
containment. We should be identifying and eliminating all mechanisms by 
which bacteria develop their resistance to antibiotics. This goes far 
beyond aquaculture, but you certainly would not want to add to the 
already growing global health problem of antibacterial-resistance.
    We call your attention to the recently released paper (attached):
        ``Human Health Consequences of Use of Antimicrobial Agents in 
        Aquaculture,'' Ole E. Heuer,1,a Hilde Kruse,2,b Kari Grave,3 P. 
        Collignon,4 Iddya Karunasagar,5 and Frederick J. Angulo6. CID, 
        2009
    The Abstract of this paper reads:
        ``Intensive use of antimicrobial agents in aquaculture provides 
        a selective pressure creating reservoirs of drug-resistant 
        bacteria and transferable resistance genes in fish pathogens 
        and other bacteria in the aquatic environment. From these 
        reservoirs, resistance genes may disseminate by horizontal gene 
        transfer and reach human pathogens, or drug-resistant pathogens 
        from the aquatic environment may reach humans directly. 
        Horizontal gene transfer may occur in the aquaculture 
        environment, in the food chain, or in the human intestinal 
        tract. Among the antimicrobial agents commonly used in 
        aquaculture, several are classified by the World Health 
        Organization as critically important for use in humans. 
        Occurrence of resistance to these antimicrobial agents in human 
        pathogens severely limits the therapeutic options in human 
        infections. Considering the rapid growth and importance of 
        aquaculture industry in many regions of the world and the 
        widespread, intensive, and often unregulated use of 
        antimicrobial agents in this area of animal production, efforts 
        are needed to prevent development and spread of antimicrobial 
        resistance in aquaculture to reduce the risk to human health.''

17.  Should legislation and/or regulations make distinctions between 
        aquaculture that is primarily for hatchery purposes and those 
        facilities that are primarily used for food fish production?
    Yes. All aspects of fish farming will need to carefully regulated 
and those operations producing juveniles for a farm are likely to be 
different than those growing out the fish to market size, so should be 
regulated accordingly.

18.  Should the legislation and/or regulations make a distinction 
        between shellfish and finfish aquaculture operations?
    Yes. Legislation should include consistency in overarching 
standards and statutes, with the insertion of appropriate sections for 
finfish, shellfish, and aquatic plants.

19.  With the recent concerns about the safety of imported seafood, 
        should food security issues increase the need for a domestic 
        offshore aquaculture program?
    Perhaps. However, right now there are opportunities to increase the 
domestic use of wild capture fisheries products, by implementing new 
fisheries on under-utilized resources and reviewing the catch rates in 
some existing fisheries that are not now harvesting at optimum and 
sustainable levels. The U.S. could also encourage an increased focus on 
domestic marketing and sales of commercial fisheries products. These 
things could all play a role in increasing U.S. domestic food security.
    Shellfish aquaculturists also may be capable of increasing domestic 
food production, as some of these species can obtain their food from 
filter feeding and can have a net positive protein production.
    If finfish aquaculture methods and crop species can be developed 
that provide a net increase in high value protein production and 
nutrition to our citizens, with minimal environmental damage or socio-
economic dislocation, then aquaculture could certainly provide a 
benefit to U.S. food security. In many areas, our nation's food 
production model currently fails to achieve these goals, so it stands 
to reason that U.S. food security should be reviewed in total.

20.  Should this legislation deal with how aquaculture fish products 
        are labeled?
    The USDA Country of Origin Labeling (COOL) program for wild and 
farmed seafood is a start, but excludes canned or cooked, as well as 
seafood in products with ``substantial transformation''. We ask for 
labeling of wild & farmed for canned, smoked, and cooked seafood 
products, because the public has the right to know the country of 
origin and method of production of its foods, and as this is not 
currently provided by the USDA. It would be useful for the legislation 
to include these provisions.

Question from Congressman Gregorio Sablan (D-MP)

1.  What role can Recirculating Aquaculture Systems (RAS) have in 
        decreasing the seafood trade deficit? With increased health 
        concerns and given the environmental concerns of many, this 
        seems like a very viable alternative that not only creates 
        healthy seafood, but also creates jobs. Do you agree that this 
        is a technology/process worth pursuing?
    Absolutely. Closed containment systems have the potential to 
alleviate a host of problems that we have seen with open ocean net pens 
and should certainly be explored. UFA strongly supports closed 
containment strategies and believes that such systems should be 
encouraged.
    UFA favors identifying healthy oceans and wild fisheries as the 
national priorities guiding any offshore aquaculture program. We ask 
that any new research and funding for aquaculture be in addition to, 
and not at the expense of, the important science and research necessary 
to sustain the health of our oceans and the sustainability of our 
commercial fisheries.
    Thank you for your interest and consideration,
    [NOTE: The attachment, ``Human Health Consequences of Use of 
Antimicrobial Agents in Aquaculture,'' has been retained in the 
Committee's official files.]
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Vinsel, for your testimony and 
expressing your concerns about conflicts between commercial 
fishing and offshore aquaculture.
    Mr. Sims, welcome to the Subcommittee, and please begin 
with your testimony.

STATEMENT OF NEIL ANTHONY SIMS, CO-FOUNDER AND PRESIDENT, KONA 
                     BLUE WATER FARMS INC.

    Mr. Sims. Thank you for the opportunity to testify today. I 
am trained as a marine biologist and have worked throughout the 
Pacific. Very early in my career, it became clear to me that we 
have to change the way that we work with the ocean. We need to 
stop thinking of marine creatures solely as extractive 
resources. We need to move toward a culture of nurture, growing 
more of our own seafood. And we need this to be mariculture, 
raising marine fish in the ocean where they belong. Growing 
fish anywhere else is like growing a fish out of water.
    I speak here as the President of the Oceans Stewards 
Institute, a trade association advocating for rational, 
sustainable, open ocean mariculture development. We are the 
true revolutionaries of the blue revolution. I am also the co-
founder and CEO of Kona Blue Water Farms. Last year we produced 
over 1 million pounds of our trademark, sashimi grade Kona 
Kampachi from our open ocean site in Hawaii waters, a half 
mile offshore from a pristine coral reef. Yet our operation has 
no significant environmental impact.
    We grow a hatchery reared, native species. See the data on 
our web site. You cannot tell the difference in water quality 
from upcurrent of the net pens to downcurrent of the net pens. 
We feed our fish a sustainable diet that is largely vegetarian. 
Monterey Bay Aquarium's Seafood Watch Program ranked our Kona 
Kampachi as a good alternative, the first time that any fish 
grown in the ocean has ever been ranked as anything other than 
red avoid.
    I urge you please to establish a framework that encourages 
the growth of open ocean mariculture in Federal waters. There 
are examples out there for us to follow. Hawaii's ocean leasing 
legislation provides a good working model, and the 
Mediterranean sea bass and sea bream industry produces over 
150,000 tons per year with very little emotion and very few 
objections. We just want to be able to move into deeper water 
further offshore where it is better for the fish and better for 
the ocean. To do this, we need access to Federal waters.
    The U.S. must lead this industry forward and establish high 
standards for product quality and sustainability. If we do not, 
then rest assured it will happen elsewhere except without the 
standards. And remember, it is all one ocean, and sooner or 
later it all washes up on our shores. Three imperatives compel 
us toward responsible open ocean mariculture. It is an 
ecological imperative. Wild fisheries worldwide cannot sustain 
any greater fishing pressure. It is a public health priority. 
Americans need to eat more seafood.
    And it is an issue of national responsibility. The $9 
billion seafood trade deficit offends me not so much for the 
economic implications but more for how we as a nation are 
exporting our ecological footprint overseas. We ask others to 
bear the burden for our seafood demands. America relies on 
imported seafood with virtually no input into the foreign farm 
practices, no input into environmental standards, and no input 
into the food safety standards or public health risks. Where is 
the moral authority in that?
    The Oceans Stewards assert that an integrated national 
ocean policy must include four essential elements. Extensive 
marine protected areas, individual fishing quotas for 
commercial fisheries. We need to eat closer to the base of the 
food chain and we need responsible open ocean mariculture. If 
we are going to implement these first three steps, and we must, 
then we must absolutely also implement the fourth. Setting up 
MPAs and IFQs will by necessity involve reductions in 
commercial fisheries. We will need to replace these fish by 
growing our own.
    And if we eat lower on the marine food chain, it is 
immaterial if it is anchovies or Kona Kampachi or other fish 
that approach the one-to-one fish in to fish out ratio. Critics 
often say that we are just feeding fish to grow fish. However, 
sustainable mariculture is more than 60 times more efficient 
use of the ocean's limited bait fish resources. How is this 
possible? Well, our fish are mostly vegetarian so they are 
trophically far more efficient than purely carnivorous wild 
fish.
    Our fish are harvested for optimum yield, yet wild fish 
must migrate long distances to spawn, must hunt for food, must 
avoid predation, and then are harvested at some large, 
inefficient size. And open ocean mariculture has no bycatch 
whereas wild fisheries' bycatch can be as high as eleven pounds 
of fish thrown away, either undersize, overfed or unsalable, 
for every one pound of fish that is retained.
    So imagine on your plate if you will a pound of Chilean sea 
bass or swordfish or bluefin tuna or other wild carnivore, or a 
pound of sustainably raised Kona Kampachi. The wild fish 
represent about 100 pounds of anchovies. The Kona Kampachi 
represents one and a half pounds. This 60 to 1 difference is a 
measure of the relative impact on ocean resources. Which would 
you choose to eat?
    Now, these are complex issues. And I would suggest that 
nothing helps illuminate them better than coming face to face 
with our fish out in the deep blue of the open ocean. I would 
therefore invite each of you and your staff to come to Kona so 
that we might host you in our hatchery and get you in the water 
on our offshore farm site where you can see for yourself the 
blue horizon of the future, the way that the world should see 
seafood. Thank you, and aloha.
    [The prepared statement of Mr. Sims follows:]

  Statement of Neil Anthony Sims, Co-Founder and CEO, Kona Blue Water 
    Farms, Inc., Kailua-Kona, Hawaii, and President, Ocean Stewards 
                     Institute, Kailua-Kona, Hawaii

    Chairwoman Bordallo and Members of the Subcommittee:
    Thank you for the opportunity to testify today. I am speaking here 
as the founding President of the Ocean Stewards Institute, and as the 
co-Founder and CEO of Kona Blue Water Farms, Inc.,--one of the world's 
leading open ocean mariculture companies, and one of the two pioneering 
commercial ventures in Hawaii waters. I am also speaking as a 
recreational SCUBA diver, and a fisherman and a sailor, and a free-
diver and surfer. I have taught my son to spearfish--to know the myriad 
fish species of the coral reef near our home the way a hunter knows the 
forest and its creatures, and to understand the cycles and rhythms of 
the sea, and to respect its power, and its bounty--and to take only 
what we need.
    I am trained as a marine biologist, and have always lived and 
worked in, on, or around the ocean. I have spent my entire professional 
life working in Hawaii and other Pacific Islands.
    My first professional position was as the government marine 
researcher and fisheries manager for the Cook Islands--15 small, remote 
islands in the Central Pacific. The atoll lagoons of the Cooks are 
microcosms of our planet's ocean, and managing commercial fisheries for 
giant clams, or pearl oysters or parrotfish was challenging, to the 
point of being downright discouraging. Very early on, it became clear 
to me that we needed to change the way that we worked with the ocean. 
We need to stop thinking of marine creatures solely as extractive 
resources. We need to give back to the oceans, rather than to just keep 
on taking. We need to develop a sense of stewardship, and a culture of 
nurture. We need to move towards mariculture: growing more of our 
seafood in the ocean.
    Last year, Kona Blue produced over 1 million lbs of our 
trademarked, sashimi-grade Kona Kampachi from our offshore farm site 
in the lee of the Big Island. Our farm is located a half-mile off the 
coast of Kona, Hawaii, in Hawaii State waters, over a 200 ft deep bare 
sand bottom, in brisk currents. We grow a native, deep-bottom species 
that--in the wild--is considered a trash fish, yet through culturing we 
render it into a superb product that has graced the tables of The 
French Laundry in Napa, Hook in DC, and has even been served to 
President Obama.
    At the same time, our operation has no significant impact on the 
ocean ecosystem. Indeed, you cannot even detect any impact on water 
quality--there is no measurable difference in water quality upcurrent 
of the net pens, compared with downcurrent of the net pens. We monitor 
the oceanic water quality and the substrate beneath our farm on a 
regular basis, and make these results available to the public on-line, 
through our web-site. We feed our fish a sustainable diet that is 
largely vegetarian, but that also includes fish by-products from 
sustainably-managed marine fisheries. We work very hard to reduce our 
footprint on the oceans. We were therefore very gratified when Kona 
Kampachi was accorded the honor last year of being ranked by Monterey 
Bay Aquarium's Seafood Watch Program as a ``Good Alternative''. This is 
the first time that any fish grown in the ocean has ever been ranked as 
anything other than ``Red Avoid''.
    The Ocean Stewards Institute is an open-ocean aquaculture trade 
association, including corporate partners and individuals, that 
provides leadership and reasoned advocacy for the best use and 
management of our open oceans. Our membership includes investor groups; 
representatives from the insurance industry; grain growers from 
America's heartland; feed companies; offshore cage designers and 
manufacturers; open ocean fish farmers; the sustainable seafood trade 
including leading chefs, restaurateurs, retailers, distributors and 
wholesalers; as well as academics and non-profits interested in ocean 
conservation.
    We, the Ocean Stewards, assert that increased production of 
environmentally-sound, healthful, high quality seafood from open ocean 
waters is an environmental, economic and public health imperative. Yet 
we also understand and attest that this opportunity must be balanced by 
a strong sense of protection of the ocean's fragile ecosystems. We 
recognize that we are operating within the public domain, and we want 
to see this industry--and other uses of open ocean waters--develop in a 
way that meets the expectations of the community and the seafood 
consumer. The Ocean Stewards are the true revolutionaries of the Blue 
Revolution.
    As this is solely an informational hearing, I address below the 
principles and imperatives of open ocean mariculture. Issues of law and 
regulation we presume will be resolved another day.
    Responsible Open Ocean Mariculture is where the future of seafood 
lies. If the U.S. does not embrace, endorse and encourage these much-
needed innovations, and if we do not lead this industry forward, then 
we are doing our seafood economy a disservice; and we are also 
abrogating our responsibility as a steward of our oceans and a citizen 
of the planet. If we do not pursue responsible open ocean mariculture 
here in the US, then rest assured, it will happen elsewhere--in waters 
that are adjacent to ours, or perhaps not. The location is immaterial, 
because the world's waters are truly interconnected in the same way 
that our atmosphere is interconnected, and any insult that is visited 
on the ocean in one part of the planet or other, sooner or later washes 
up on our shores.

Three imperatives compel us to establish sustainable open ocean 
        mariculture
    There are three imperatives that should drive your thinking in how 
and when the U.S. becomes involved in open ocean mariculture. The 
development of open ocean mariculture is an ecological imperative, it 
should be a public health priority, and it is a matter of accepting 
responsibility as a nation.

An ecological imperative
    The ecological imperative should be abundantly clear to all on this 
Sub-Committee--and indeed anyone who reads a newspaper or watches 
television: we cannot just keep taking more and more and more from the 
oceans. We need to learn to give back. Wild stock fisheries worldwide 
cannot sustain any greater fishing pressure. Wild fish production has 
been flat for at least the last decade, despite increasing subsidies, 
greater horsepower and electronic wizardry that compounds fishing 
power. The oceans now give about all that they can bear.
    Recent studies suggest that 90% of the ocean's top-end predators 
are gone from the seas. Around 25% of fish stocks globally have 
``collapsed'', which means that they are less than 10% of their 
original biomass. But now that these stocks are largely depleted, the 
fishing power that rendered them so has not simply gone away. It has 
moved on to the 75% of the stocks remaining. And with new technologies 
and new efficiencies, the wild fishing industry can always continue to 
fish harder and deeper and longer.
    The ecological imperative is not just about numbers, it is about 
fragile ecosystems in waters that are already under pressure from 
nutrient pollution or sedimentation run-off or acidification. It is 
about lessening the indignities that we visit upon the ocean through 
destructive fishing practices such as dredging and bottom-trawling. It 
is about working with the ocean, and investing in stewardship and long-
term ecosystem health.

A public health priority
    There is almost universal agreement that Americans need to be 
eating more seafood, yet consumers are themselves consumed with fears 
of mercury and PCBs in their farmed seafood. Yet the definitive meta-
analysis of seafood health impacts by Mozaffarian and Rimm (Journal of 
the American Medical Association, 2006), from the Harvard School of 
Public Health, found that a modest increase in seafood consumption, to 
the point of two meals of oily fish per week, would result in a 35% 
decrease in heart disease, and an overall 17% decrease in adult 
mortality.
    A more recent assessment of the risks and benefits of seafood 
consumption by the FDA (2009) found that a 50% increase in seafood 
consumption could save up to 19,000 American lives per annum.
    These are compelling numbers. We need to eat more seafood, not 
less. If the seafood is simply not there, then our nation's health will 
suffer.

An issue of national responsibility
    Yet if we are to eat more seafood, from whence must it come? Do we 
eat other people's share? Or do we urge our fishermen to increase their 
efforts? Or--do we begin to accept responsibility as a nation for what 
we eat?
    The $8 billion seafood trade deficit is often cited. Over 80% of 
U.S. seafood consumption comes from imported products, and over 50% of 
these are farmed. However, we believe that our dependency on seafood 
imports represents something more important. It reflects the fact that 
we, as a nation, are exporting our ecological footprint overseas. We 
are asking others on this planet to bear the burden of ecological 
impacts to sustain our seafood demands. While ever America relies 
largely on imported seafood, we have virtually no input into the 
foreign farm practices, no input into the environmental standards under 
which it is farmed, and no input into the food safety standards or 
public health risks to which producers or consumers are subject. We 
also have diminished moral standing in any discussions of ocean 
conservation.
    Rather than exporting our ecological footprint, American should 
begin to grow our own seafood in our own waters. We need to do this 
both to alleviate the pressure on other country's resources, but also 
to meet the growing demand for locally-grown products, to reduce the 
carbon footprint of air-freighting fresh seafood products to the US, to 
develop innovative methods for offshore aquaculture, and to pioneer for 
the rest of the world the most sustainable technologies, and to engage 
in the market incentive program of sustainability certification--not 
just as a market, but as a producer. We need to accept responsibility 
for what we eat.
    And the footprint of open ocean mariculture, if done right, is 
minuscule. Our current lease area in Kona is around 0.14 square miles. 
Most of this lease area is empty ocean, occupied solely by mooring 
lines. The net pens themselves are located in the central 9 acres, or 
in an area around 0.014 square miles. The United States' exclusive 
economic zone, however, is the largest in the world, covering around 
4.4 million square miles. The minute percentage of EEZ ocean space that 
our lease represents underscores the ``blue horizon'' opportunity of 
open ocean mariculture.

Moving ``Beyond Salmon''
    We understand and appreciate that there is a lot of emotion that 
swirls around the issues of fish farming.
    However, most of the emotion about fish farming--we would contend--
comes from farmed salmon. This is not necessarily the salmon farmers' 
fault. Certainly, some thirty years ago, when salmon farming was first 
developing, the science was very poorly understood and the methods were 
rustic. But there have been tremendous advances in feed science and 
fish physiology and ocean engineering since then. It took man some 
10,000 years to domesticate cattle, and to figure out that the best 
way--for the environment and for the cow--is to ranch on the open 
range. In 30 years, we have brought fish farming from fragile pens 
tucked in the back of Norwegian fjords, to robust net pens that can 
withstand the furies of the North Sea. We are now ready for the ocean's 
open range.
    I would posit that most of the emotion about farmed salmon is 
linked not to the methods used by the farms, but rather to the 
emotional and ecological significance of salmon. The fisheries 
biologist in me recognizes that salmon are phenomenal fish, with 
fantastic life-histories, that migrate by mechanisms that we can barely 
comprehend, with discrete genetics in adjacent watersheds. These 
species are ecological cornerstones upon which pivot the entire Pacific 
Northwest. They are cultural touchstones that connect native peoples to 
their natural and spiritual world, and that perpetuate traditions of 
food and fishing and life. And salmon are commercially important to 
fishing fleets all along the Pacific Coast from San Francisco Bay to 
the Yukon--they are the economic lifeblood of many communities.
    Yet salmon farming has now transformed these fish into a commodity 
that is available year round, and it nearly brought salmon fishermen to 
the brink of broke. Salmon's life history also renders them acutely 
vulnerable to perturbances in watersheds from pesticide or herbicide 
run-off, from logging, or siltation or dredging or dams. Many of these 
salmon runs are fast disappearing, but is salmon farming solely to 
blame? The nearest salmon farm to the Sacramento River delta--now 
almost completely devoid of Chinook for the past two years--is some 800 
miles away, in the Straits of Juan de Fuca.
    So I do not want to focus on salmon farming. It is not just 
emotionally loaded, but it is not a valid model for what we propose 
with mariculture in the open ocean. In the open ocean, farming marine 
fish, we are working with high-value species that are either not 
commercially targeted, or that have been reduced to scarcity by 
commercial fishing. Marine fish species are usually broadcast spawners, 
often with large spawning aggregations, and so they have no discrete 
genetic differentiation on any fine scale. Marine fish do not have the 
vulnerable migration patterns through rivers and estuaries, and are not 
subject to fragile freshwater ecosystem health. Marine fish are a world 
away from salmon.
    A better model for sustainable open ocean mariculture might instead 
be the Mediterranean seabass and sea bream industries. These operations 
produce around 150,000 tons of fish annually, across the coastlines of 
Spain, France, Italy, Greece and Turkey. There is very little emotion 
attendant to these operations, and very few objections from 
environmentalists or local communities. The reasons are threefold: (1) 
these are marine fish that are well adapted to culture in the ocean (2) 
these products meet the tremendous market demand for high-value marine 
fish, and (3) commercial fisheries have pretty much wiped out the wild 
seabass and sea bream stocks, so there is no alternative.
    The debate that rages in the U.S. about fish farming is very Salmo-
centric. But we need to think B.S.--we need to think ``Beyond Salmon''. 
There are over 20,000 other marine species of fish out there, and while 
they may not all be suitable for commercial culture, there is a bounty 
and a diversity that should surely allow us to produce seafood in a way 
that does not impact wild stocks.
    Our Kona Kampachi, for example, known as Seriola rivoliana, is 
found throughout the warm waters of the world. It is usually located in 
deep water--in the same depth profile as the valuable deep water 
snapper fisheries for opakapaka, ehu, onaga and gindai. These stocks 
have been severely depleted by both recreational and commercial fishing 
pressure. However, S. rivoliana is considered a trash fish in the wild, 
as they are subject to internal parasites in the flesh, and they 
frequently accumulate ciguatoxins from the reef algae Gambierdiscus. In 
the wild, the fish also only has around a 4% body-fat content. By 
culturing this species, however, we are able to render it into a safe, 
sustainable, delicious sushi-grade fish, with no internal parasites, no 
risk of ciguatera, and over 30% body fat. Because our land-based 
hatchery is able to rear the fingerlings, then we do not need to catch 
fish from the wild to stock our net pens. This is very important to us 
for our claims of sustainability, but it also affords us the highest 
possible measure of quality assurance--we know what our fish eat, all 
the way from hatch-to-harvest.
    Other marine species slated for culture in U.S. waters--cod, cobia, 
moi (Pacific Threadfin)--usually share such attributes. They are vastly 
different from salmon in their life histories and commercial fishing 
stocks. And we are proposing to culture them in a way that is vastly 
different--in terms of location and potential for environmental 
impact--from the negative images that emotional activists conjure up 
from the past.

A historical analogy
    US investors stand ready to commit capital, within a clear 
regulatory framework, to companies with secure tenure and sound plans 
for seafood growth. The U.S. fishing waterfront is hungry for work. And 
there are hundreds of researchers and entrepreneurs across the country 
that are tinkering, and dreaming of ways to do this better. There is an 
opportunity here that can mesh perfectly with President Obama's 
exhortation for us to create clean, green industries, here at home. But 
if America does not take action, or does not encourage action, then we 
risk losing the technological edge to other countries. The key here is 
that we must create a regulatory environment that not only allows this 
industry to grow, but that gives investors and pioneers some 
encouragement for this growth--within reasonable frameworks.
    The situation is perhaps analogous to the U.S. aviation industry in 
around 1919. One wonders where our economy, our airlines and our travel 
industries would be now if, in 1919, Congress had said ``OK, you can 
build an airline industry, but only if every aircraft is 100% safe, and 
there are no negative environmental impacts, and you cannot use any 
farmland for airports, and you cannot unfairly compete with the 
railroad industry.'' All of the innovation and investment would have 
left the U.S. for overseas, and you would have to catch a train to 
Canada or Mexico to connect to a flight, and we would have no input 
into international air traffic safety standards or passengers' Bill of 
Rights, because Congress would have effectively said ``We do not want 
it here'', even as they wrote so-called enabling legislation.
    If we then want a responsible open ocean mariculture industry to 
develop in the US, we will need to create legislation that not only 
permits it to operate, but that encourages innovation and investment, 
and that creates an environment where this industry can grow, and 
succeed, and fulfill its potential.
    We must ensure that we are not overly prescriptive in legislation 
or regulations, to the point that we limit innovation and creativity. 
Let us define our goals, clarify where there are concerns, and then 
allow American entrepreneurship to find the solutions.

An integrated National Ocean Policy
    As a fisheries biologist, I heartily embrace and applaud the steps 
taken by the Obama Administration to move towards an integrated 
National Ocean Policy. We can no longer let freedom reign over the 
seas, any more than we can manage our terrestrial resources without 
zoning and regulation.
    We would assert that any National Ocean Policy must include four 
fundamental tenets for marine resources management:
    1.  We need to establish an extensive network of Marine Protected 
Areas (MPAs),
    2.  We need to set up universal Individual Fishing Quotas (IFQs) 
for commercial fisheries,
    3.  We need to encourage fisheries that target the base of the 
marine food chain, and
    4.  We need to create a regulatory climate that is conducive to 
building a responsible open ocean mariculture industry.
    The first three points are widely accepted. The fourth point, 
however, is a direct corollary and consequence of the first three 
points.
    MPAs are as equally essential to our marine environment health as 
National Parks and State Forestry Reserves are to land conservation 
efforts. There need to be extensive areas that are set aside for either 
complete protection from all human impacts, or that permit only 
restricted fishing or other productive uses, within clearly defined 
frameworks.
    Individual Fishing Quotas are the only rational way to manage 
commercial fisheries in the face of the reality of increasing fishing 
power, inherent incentives to overcapitalize, and the dangers and 
disincentives in derby-style fisheries. Garrett Hardin's famous 
``Tragedy of the Commons'' essay made this clear a generation ago: 
rational management of any common-property resource can only be 
effected if there are private interests harnessed to this end.
    Our seafood diet should be mostly anchovies and sardines, or their 
equivalents. Marine scientists all agree: the most significant way to 
lessen mankind's footprint on the oceans is if we would eat lower on 
the marine food chain. However, not everyone likes to eat anchovies. 
I'll eat more than my fair share, but few will join me. It is a 
quandary for both public health and marine resource efficiencies.
    If we are going to implement these first three steps towards 
rational management of our marine resources, then we also must 
absolutely implement the fourth: responsible open ocean mariculture. 
Setting up MPAs and IFQs will, by necessity, involve reductions in 
overall fish harvests. With reduced supplies, we will need to find some 
way to replace these fish. There are almost no other underexploited or 
unexploited stocks out there--we need to start to grow our own.
    Responsible open ocean mariculture--if it is done right--can even 
safely be inside the Marine Protected Areas. Our Kona Blue operation, 
for example, is located within the Hawaii Islands Humpback Whale 
National Marine Sanctuary. Over almost five years, there has been no 
evidence of any impact--negative or attractive--of our operation on 
whale abundance or movements. Offshore mariculture sites provide 
productivity and structure to otherwise barren ocean space; Fish 
Aggregating Device, or FAD effects from farms might enhance an area's 
value for stock protection or replenishment. And the presence of farms 
can provide added security for vast areas that may be difficult to 
police. A round Palawan, in the Philippines, where I once worked, the 
few patches of remaining pristine reefs were all directly underneath 
the pearl farm rafts. The reef there is accorded the pro-bono 
protection from dynamite fishing, due to the presence every night of 
pearl farm guards.
    And if we are to also eat lower on the ocean's trophic web, one 
deliciously palatable way to do this is to efficiently convert 
anchovies, sardines, and the like into great-tasting sashimi like Kona 
Kampachi, or other sustainably-maricultured fish. If we can do this at 
an ecologically efficient conversion rate of one to one (i.e. a Fish-in 
: Fish-out ratio of 1:1), then it makes no difference--from a global 
perspective--whether the consumer eats anchovies or Kona Kampachi.

Open ocean mariculture up to 60 times more efficient use of marine 
        resources
    Critics may well say that we are just ``feeding fish to grow 
fish''. The truth is that sustainably maricultured fish represent 
perhaps more than 60 times greater use of the ocean's limited resources 
than targeting the top of the wild food chain for species such as 
swordfish, or Chilean Seabass. How is this possible? There are three 
main factors: trophic efficiencies, life-cycle efficiencies, and by-
catch efficiencies.
    Trophic efficiencies: Our ``carnivorous'' maricultured species are 
far more efficient at utilizing the ocean's food resources than wild 
fish. Sustainably maricultured fish are primarily vegetarians, with the 
bulk of the diet coming from sustainable agricultural oils and 
proteins, such as soy, canola, wheat and corn (which underscores what a 
tremendous opportunity we have to connect America's heartland with the 
U.S. EEZ). In controlled tank trials, our Kona Kampachi can yield 
around one pound of great-tasting sashimi for every one pound of 
Peruvian anchovies--a fish-in : fish-out ratio of 1:1. This makes 
eating our fish the trophic equivalent of eating Peruvian anchovies. 
Wild fish, however, can only generate around 10% transfer efficiency 
through each step up the food chain. If there are two trophic steps up 
the food chain, then these inefficiencies compound to around 1% (10% of 
10%).
    Life-cycle efficiencies: Sustainably maricultured fish are reared 
in a hatchery, raised in protective net pens, and harvested at the 
optimum size for meat yield. Wild fish, however, have to migrate long 
distances, they expend resources in spawning, they have to hunt and 
avoid being eaten, and they are harvested at some large, inefficient 
size.
    By-catch efficiencies: Some wild catch fisheries have by-catch 
ratios of around 11:1; i.e. 11 pounds of fish thrown away as either 
undersize, over-quota, or unsaleable, for every one pound of marketable 
fish that is retained. Shrimp fisheries have by-catch ratios of around 
5:1. Globally, estimates of by-catch hover around 30%. Yet responsible 
open ocean mariculture has no by-catch whatsoever.
    And while some may liken open ocean mariculture to ``growing tigers 
of the sea'', then the analogy should--in all fairness--be extended: 
commercial fishing might then perhaps be considered like hunting tigers 
for food. If you need to eat tigers to stay healthy, then you should 
surely prefer that they be sustainably farmed on a largely vegetarian 
diet, rather than simply hunted from the wild.

Hawaii as a model
    We believe that there are good models out there that could form the 
basis for workable legislation that finds the right balance between 
conservation and incentive, and between law and rule and the 
marketplace.
    Hawaii's ocean leasing legislation, over the past ten years, has 
allowed two companies to move forward with offshore operations, yet has 
seen at least four other proposals that were vetted through 
departmental and public hearing processes and were either disapproved 
or withdrawn. There is ample opportunity for public input, on all 
aspects of a proposal. Permit applications require an Environmental 
Assessment, or where significant impacts are anticipated, an 
Environmental Impact Statement. The permitting process is complex, and 
convoluted. As well as a State permit and State lease, projects also 
require a Department of the Army Section 10 Permit (Army Corps of 
Engineers, ensuring compliance with all other applicable Federal rules 
and regulations), an NPDES Permit from the State Department of Health 
with Federal EPA oversight, and a Coastal Zone Management review from 
the Office of State Planning that ensures compliance with all other 
Federal and State laws. The process could stand some simplification. 
Nevertheless, it has resulted in nothing like the ``gold-rush land-
grab'' that some predicted a decade ago.
    Once approved, however, the 20 year lease term allows for 
entrepreneurs to recoup their investment, and hopefully make a profit, 
while working within the assimilative limits of the ecosystem. Any 
shorter lease term would probably encourage less of a sense of 
stewardship. This tenure period has enabled us to attract investors to 
our business that share our vision of a sustainable, stable, productive 
industry, rather than those investors that might instead just be 
seeking short-term gains, without heed to attendant triple-bottom-line 
costs.
    Each mariculture operation in Hawaii is required to have a 
Management Plan that provides for ongoing environmental monitoring, 
extensive reporting, and adaptive responses to contingencies. All of 
Kona Blue's monitoring is conducted by third parties. Kona Blue makes 
our water quality and benthic monitoring reports available both at the 
local harbor, and on our web site.
    Farms in Hawaii are only allowed to stock native species. While 
selective breeding is not precluded, Kona Blue has chosen to not engage 
in this practice, and to only use broodstock that are no more than two 
generations removed from the wild, to ensure that there is no 
significant genetic difference between fish inside the cage and those 
outside the cage.
    Kona Blue has pursued a relentless drive for greater feed 
efficiency. This has not been mandated by any legislation or 
regulation, but instead reflects the market forces that are at work in 
the seafood sector. It was through our close working relationship with 
Environmental Defense Fund and Monterey Bay Aquarium that we were able 
to craft more sustainable feedstuff solutions. Over the last five 
years, the inclusion rate of Peruvian anchovies in our feed has dropped 
from around 80%, through a 50% formulation, to a current level of 
around 29%. We use meal and oil from trimmings from other commercial 
fisheries, as well as other sustainable agricultural proteins and 
lipids. We are currently testing two diets that include no Peruvian 
anchovies or other forage fish whatsoever. These diets would then rate 
as zero on the FIFO (Fish-in : Fish-out) index. We believe that this 
exemplifies the ample market incentives that should be allowed to drive 
solutions about sustainability. Government's role should be to support 
research in these areas, and to provide incentives for re-use of 
trimmings from commercial fisheries such as pollock and salmon.

An invitation...
    This hearing is a most welcome start to the discussion that must 
now ensue, to ensure that we find the right balance of regulation, 
oversight and entrepreneurial empowerment. However, in our experience, 
nothing helps illuminate these issues better than coming face-to-face 
with our fish, out in the deep blue of the open ocean. Allow me 
therefore, please, to invite each of you, and your staff, to come to 
Kona, so that we might host you on our open ocean mariculture 
operation. We want to walk you through our hatchery where we first rear 
the fish. We want to show you the harbor where Kona's commercial 
fishermen once worked, landing yellowfin tuna and onaga that are now 
only found far offshore. And we want to then take you offshore with a 
mask and snorkel, so that you can immerse yourself in the reality of 
this opportunity. We want you to see our fish in their environment, in 
the open ocean. You will see the clarity of the water, and the swirl of 
life that is drawn to our site, and the way that we can indeed work 
within our ecosystem's assimilative capacities. You will see for 
yourself the future ``. the way that the world should see seafood.
    Sustainable. Healthful. Delicious. We look forward to your visit.
    Thank you, and aloha.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Sims, for 
highlighting the possibilities and the challenges of offshore 
aquaculture. And we may take you up on your invitation to Kona.
    Mr. Cox, I invite you to present your testimony next.

             STATEMENT OF BILL COX, VICE CHAIRMAN, 
                SOUTH CAROLINA SEAFOOD ALLIANCE

    Mr. Cox. Good morning, Madam Chairwoman and Committee 
Members. My name is Bill Cox and I represent the South Carolina 
Seafood Alliance from Charleston, South Carolina.
    Our position is, there is a need for an adequate Federal 
permitting and regulatory system or policy for offshore 
aquaculture. In regulating the industry, care must be exercised 
so as not to overregulate because of the opposition to 
perceived possible environmental harm of ocean farming. There 
are risks as in any other business, but risk can be managed. In 
the past, the proposed permitting and regulatory standards 
formulated for offshore aquaculture were far too restrictive to 
expect a U.S. commercial venture to produce profitably given 
risk return ratios.
    The cards now are stacked in favor of imports because of 
low labor costs and nonrestrictive regulations in exporting 
companies. If the EEZ is to assist in seafood production, the 
permitting and regulatory agencies must consolidate and 
streamline the process for obtaining permits and operating an 
offshore aquaculture business. We recommend an agency at the 
Federal or regional level implement a general policy or law as 
soon as possible providing the framework for the regulations 
and let the regulations grow with the industry.
    Establish contingencies in the framework where you can 
regulate quickly in the event of unanticipated problems, but 
allow the business to develop first under a general framework 
versus trying to preregulate every possible occurrence prior to 
it happening. Past proposed acts have all been too restrictive 
for commercial business operations to conduct business in an 
efficient manner. The details of these acts have been extensive 
and would overburden entrepreneurs and commercial businesses to 
the point that the projects cannot be profitable or feasible.
    Permitting procedures and property rights are critical 
factors in obtaining and maintaining a viable offshore 
aquaculture business. So since so many different government 
agencies have jurisdiction connected to the EEZ, conflicting 
enforcement policies can unnecessarily interfere with normal 
business activity. We would recommend the issuance of a general 
permit from one lead agency, which in turn would coordinate all 
permitting issues with other agencies on specifics. The process 
of permit review, approval or denial should be a prompt and 
efficient process with delays initiating automatic permit 
approval to minimize delays for commercial businesses.
    Some groups are against offshore aquaculture because they 
think the EEZ should preserve recreational use only. The 
resources of the EEZ are common property of all U.S. citizens 
and should be managed to benefit all. Some object to offshore 
aquaculture production because of competition, ignoring the 
free market system in this country. Other groups feel that the 
offshore aquaculture techniques must be perfected before 
allowing any development of aquaculture due to environmental 
and ecosystem impact. Unfortunately, this expectation is 
unrealistic because the ocean cannot be emulated on land.
    The regional fishery management councils, especially the 
South Atlantic Fishery Management Council, are regulating many 
commercial and charter fishermen out of business. While these 
regulations are required by law, they are also devastating the 
seafood industry. This drastic reduction in wild caught seafood 
not only causes job and revenue loss, but also reduces the high 
quality protein available for U.S. citizens.
    We have two choices, to accept this reduction in wild 
caught seafood and loss of jobs and increase imports, or to 
produce more seafood and U.S. aquaculture sector providing much 
needed jobs by a primary producing industry. The real question 
is, will the United States seriously consider offshore 
aquaculture or be satisfied with the continuing increase of 
imported seafood from sources employing methods more damaging 
to the environment.
    If the growing is done here, then total control of the 
entire process from conception to consumption will be done 
here, and it will be accomplished using some of the strictest 
environmental regulations in the world. Ecosystem management 
and business practice are separate issues. The regulatory 
measures on the business side of the house should be flexible 
and recognize market economics as a driving force. Interference 
in normal business issues like setting production limits, 
specifying use of unproductive sites, categorizing 
environmentally cleansing species, such as shellfish, with 
other species, could dampen the enthusiasm of entrepreneurs 
interested in participating in this new industry.
    On the 3rd of September, 2009, NOAA approved plans to 
permit open ocean aquaculture in the Gulf of Mexico. However, 
companies are not allowed to begin operations until NOAA 
develops a comprehensive national policy for sustainable marine 
aquaculture. But given past timelines, how long will this take? 
We have been working on aquaculture acts for 29 years based on 
the documents that we reviewed in the last few weeks.
    U.S. aquaculture producers have proven that we can operate 
and work with regulatory agencies in the development of safe 
operating practice in land based systems in an environmentally 
safe and responsible manner time and time again. We are a 
responsive commercial industry, and if we utilize the EEZ for 
seafood production we will need sensible, prompt, proactive 
oversight from the government, industry representatives, and 
environmentalists to ensure marine environmentally safe and 
profitable industry.
    However, we must all be prompt to act and react to the 
industry's needs as they develop. This is the nature of the 
aquaculture business. The United States has the technology, 
resources, science, and entrepreneurial skills to manage 
successful offshore aquaculture operations in an 
environmentally safe manner. Therefore we ask that you expedite 
the establishment of desired policy, issue the permits, and let 
us put some people to work.
    [The prepared statement of Mr. Cox follows:]

South Carolina Seafood Alliance
815 Savannah Hwy., Suite 204
Charleston, SC 29407
Phone: 843.556.2520
FAX: 843.556.2521
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86f5e5e7f4e9eaefe8e7f5e3e7e0e9e9e2c6ede8e9eae9e1ffa8e8e3f2">[email&#160;protected]</a>

9 September, 2009

The Honorable Madeleine Z. Bordallo
U.S. House of Representatives
Natural Resources Committee
Subcommittee on Insular Affairs, Oceans and Wildlife
Washington, D.C. 20515-5301

Dear Congresswoman Bordallo:

    Time is of the essence if the United States is to catch up with the 
rest of the world in offshore aquaculture.
    In the past the proposed permitting and regulatory standards 
formulated for offshore aquaculture were far too restrictive to expect 
a U.S. commercial venture to compete in the present global market. The 
cards are now stacked in favor of imports because of low labor costs 
and nonrestrictive rules and regulations in the exporting countries. If 
the United States is expected to compete in aquaculture production, the 
permitting and regulatory agencies must consolidate and streamline the 
process for obtaining permits and operating an offshore aquaculture 
business.
    Offshore aquaculture will change the norm in various areas and 
cost/benefit must be weighed against actual and perceived negative 
factors. Too much regulation will restrict or prevent business 
development
    There definitely is a need for an adequate federal permitting and 
regulatory system for offshore aquaculture. In regulating the industry 
care must be exercised so as not to over regulate because of opposition 
unrelated to the actual potential harm of ocean farming.
    Some groups are against offshore aquaculture because they think 
that the Exclusive Economic Zone (EEZ) should be reserved for 
recreational use only. Their argument is that the zone should be 
treated as federal land and rules and regulations must mirror those 
that regulate deer, wild turkey, bear and other game hunted on land. 
The resources of the EEZ are common property of all U.S. citizens and 
should be managed to benefit all, not just those that can physically 
access the resources because of proximity or economic means.
    Some object to offshore aquaculture production because of 
competition, ignoring the free market system in this country.
    Other groups feel that offshore aquaculture techniques must be 
perfected before allowing any development of commercial aquaculture. 
Unfortunately, this expectation is unrealistic. Allowing carefully 
monitored development of a viable offshore aquaculture industry is past 
due.
    The world population growth, coupled with projected increases in 
seafood consumption and curtailment of U.S. wild-caught seafood, will 
result in a marked rise in imports. Already, the United States trade 
balance in seafood is a negative $9 billion.
    Over 80 percent of all seafood consumed in the United States is 
imported, almost half of this is aquaculture, and the largest 
aquaculture producers are across the Pacific Ocean in Asia. The 
transport of seafood over this great distance leaves a very large 
carbon footprint, which in turn negatively impacts the health of the 
ocean.
    The regional fishery management councils, especially the South 
Atlantic Fishery Management Council, are regulating many commercial and 
charter fishermen out of business. While these regulations are required 
by law, they are also devastating to the seafood industry. This drastic 
reduction in wild-caught seafood not only causes job and revenue loss 
but also reduces the high quality protein available for U.S. citizens.
    We have two choices, to accept this reduction in U.S. caught 
seafood and increased imports, or to produce more seafood in the U.S. 
aquaculture sector providing much needed jobs by a primary producing 
industry.
    The maximum potential for world capture fisheries was reached some 
years ago and is now in a static mode of about 93 million metric tons 
per year. Any increases in production will come from fish farms both 
onshore and offshore either U.S. or foreign grown, preferably United 
States grown.
    The overarching question is, will the United States seriously 
consider offshore aquaculture or be satisfied with a continuing 
increase of imported seafood from sources employing methods much more 
damaging to the environment? If the growing is done here then total 
control of the entire process from conception to consumption will be 
done here, and it will be accomplished using some of the strictest 
environmental regulations in the world.
    Emphasis on the need for a comprehensive federal permitting and 
regulatory system should not stand in the way of accomplishing the task 
for which the regulatory system is being developed.
    Permitting procedures and property rights are critical factors in 
obtaining and maintaining a viable offshore aquaculture business. Since 
so many different government agencies have jurisdiction connected to or 
inside the EEZ conflicting enforcement policies can unnecessarily 
interfere with the normal flow of business activity.
    Ecosystem management and business practices are separate issues. 
The regulatory measures on the business side of the house should be 
flexible and recognize market economics as the driving force. 
Interference in normal business issues like setting production limits 
could dampen the enthusiasm of entrepreneurs interested in 
participating in this new industry.
    Already much work has been accomplished in formulating rules and 
regulations governing the culturing and growing of fish and shellfish 
in open ocean waters. It started almost three decades ago.
    1980--National Aquaculture Act (NAA) ``It is in the national 
interest, and it is national policy, to encourage the development of 
aquaculture in the United States.''
    1985--Reauthorized and renewed The National Aquaculture Improvement 
Act (NAIA)
    Some Changes:
        1)  capture fisheries could be adversely affected by 
        competition from commercial aquaculture
        2)  extent and impacts of the introduction of exotic species in 
        the U.S. waters as a result of aquaculture activities
    1988--The changes were addressed in, ``Aquaculture and Capture 
Fisheries: Impacts in U.S. Seafood Markets''
    2005--National Offshore Aquaculture Act of 2005 (S. 1195) Senators 
Stevens and Inouye, to establish and implement a regulatory system for 
offshore aquaculture in the U.S. (EEZ) amendments SA 766, 767, 768,and 
769
    2007--National Offshore Aquaculture Act of 2007
    2009--The Gulf of Mexico Fishery Management Council (GMFMC) 
completed a Fishery Management Plan (FMP) for offshore aquaculture 
activity for the Gulf of Mexico
    After 29 years last Thursday, 3 September, 2009, the National 
Oceanographic and Atmospheric Administration (NOAA) approved plans to 
permit open-ocean aquaculture in the Gulf of Mexico; however, companies 
are not allowed to begin operations until NOAA develops a comprehensive 
national policy for sustainable marine aquaculture.
    Extra effort should be exerted to complete this comprehensive 
national policy. Any increases in U.S. production of seafood that 
counters imports will help to reduce the negative $9B seafood trade 
balance and provide much needed jobs to those who lost their jobs in 
the wild catch fisheries because of reductions to correct overfishing.
    Ironically much of the research and technology that paved the way 
for profitable aquaculture ventures in foreign countries, especially in 
Asia, were developed in the United States. These countries have devised 
systems to permit, regulate, grow and export great quantities of their 
aquaculture products very efficiently and the U.S. imports much of this 
seafood.
    Continuing to import these seafood products from questionable 
sources while not allowing or restricting U.S. production is a transfer 
of responsibility. In this instance, the U.S. is abdicating its ability 
to control certain aspects related to health, safety, sustainability 
and quality.
    Thank you for the opportunity to provide our comments.

Sincerely,

William A. Cox
Vice Chairman (SCSA)
                                 ______
                                 
    [A letter submitted for the record by William A. Cox, Vice Chairman 
(SCSA), follows:]

South Carolina Seafood Alliance
815 Savannah Hwy., Suite 204
Charleston, SC 29407
Phone: 843.556.2520
FAX: 843.556.2521
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8cbdbd9cad7d4d1d6d9cbddd9ded7d7dcf8d3d6d7d4d7dfc196d6ddcc">[email&#160;protected]</a>

18 September, 2009

The Honorable Madeleine Z. Bordallo
U.S. House of Representatives
Natural Resources Committee
Subcommittee on Insular Affairs, Oceans and Wildlife
427 Cannon HOB
Washington, D.C. 20515-5301

Dear Congresswoman Bordallo,

    Thank you for the opportunity allowing the SC Seafood Alliance to 
testify in regard to the need for a comprehensive Federal and 
regulatory system for offshore aquaculture; 2) the necessary components 
of such a system including siting, permitting, and operating 
requirements and precautionary measures to protect the environment and 
coastal communities; and additional issues that are important for the 
Subcommittee to consider on September 9th, 2009. We have a few 
additional comments we would like have added to the record if you would 
consider them at this late date.
    1.  The discussions and most proposed Acts and regulations to date 
appear to be couched with extreme precautionary measures to protect the 
environment which is very important. However, much of the written text 
is mostly about finfish farming in the open ocean and environmental 
impact from finfish aquaculture offshore does not apply to shellfish. 
For the record, we would like to state that shellfish aquaculture 
offshore just as it is accomplish inshore, has a very positive effect 
on the environment because the organisms are filter feeders and cleanse 
the water they live in. In certain geographical regions of the country, 
there is opportunity to grow certain species of shellfish in cages, on 
underwater or bottom longline systems that would have a positive effect 
on the environment and would not interfere with many of the other 
concerns continuously brought up in referenced discussions about ocean 
aquaculture. Although we have been speaking generally about all ocean 
aquaculture in trying to develop common ground on which to move forward 
toward an offshore aquaculture policy, we ask that you consider 
shellfish as part of ocean aquaculture, but consider the positive 
effects it could have on the ocean and ecosystem versus all the 
negative issues that are constantly being readdressed as possible 
problems. Shellfish are different from finfish and if there are 
projects which could be moved forward in this area, we would like to 
see them allowed or a policy which allows for pilot projects pending 
federal policy development if that becomes the end result.
    2.  A constant fallback position which was discussed during the 
hearing and mentioned several times, as it has been for years was the 
fact that we are using wild caught forage fish from the ocean to 
develop feed for aquaculture fish at ratios of 2:1 or more. This is 
almost automatically brought up in every discussion about offshore and 
inshore aquaculture and is an easy argument for opponents of ocean 
aquaculture. We feel this argument is getting old and in fact is an 
opportunity in itself for an entirely new aquaculture research and 
commercial production industry on land. Although many companies and 
researchers are working with agriculture commodities to develop better 
feeds with less fish meal and oil required from wild caught fish, the 
reality is that we could put our researchers to work developing fish 
farms on land hatching and growing out the feed fish we need to feed 
the aquaculture fish growing in the ocean. Hatchery International is a 
magazine that we watch and other countries are already thinking in 
these terms. If we hatch and grow out the fish we need in land based 
systems to generate food for ocean aquaculture species, we are not 
taking from the ocean, reducing forage for sustainable natural ocean 
species, or trading fish in the ocean for fish as some people say. This 
in itself could be an entirely new industry developed on land to 
support the ocean aquaculture industry to minimize or eliminate this 
problem and easy argument that gets thrown out every time there is a 
discussion on fish feed and impacting the ecosystem.
    3.  As mentioned in some of the prior proposed Acts, there should 
be stringent requirements for removal of all gear at project completion 
or failure and penalties for companies or individuals who do not remove 
such equipment. Bonding, sureties, or insurance may be required to 
accomplish this, but this has been an issue which can be protected 
against given appropriate controls prior to project approval. These 
requirements must be reasonable enough not to be cost prohibitive for 
the project but should be in place.
    4.  At the hearing although we all desire to operate on the side of 
caution as we move forward with ocean aquaculture policy, it is 
apparent that many obstacles will be thrown up to block any successful 
attempt to get a policy in place that will work for commercial 
industry. One individual stated ``we have to get this right'' and we do 
for the sake of the environment. However, other countries are in the 
ocean now, and have been operating for some time. They are exporting 
the very food they are growing in the ocean to the U.S. consumer and we 
truly have no idea of the conditions of which the product is grown or 
processed before it is frozen and shipped to the U.S. There are 
training courses for hatching and growing grouper in Indonesia offered 
now thru the Network of Aquaculture Centers in Asia Pacific (NACA) 
while we are shutting down the snapper grouper fishery in the 
southeast. By the time we have our industry shut down thru the various 
fisheries amendments, they will be hatching and growing grouper and 
exporting it to the U.S. at a gain of jobs for Asia and a loss of jobs 
for the U.S. We need to come to a compromise from the various groups 
against this industry for the sake of jobs and food safety in the U.S. 
We would like to commend the Congresswoman from we believe New 
Hampshire who challenged the commercial grower from Kona Blue and an 
opponent to offshore aquaculture, because during that short discussion, 
she was able to find common ground between the two which means we can 
find compromising solutions to all issues this testimony was based on, 
if we work at it quickly and together.
    5.  We cannot compete with cost of labor of the other countries 
flooding the U.S. with imports putting many people out of work. We 
cannot compete with their cost of materials due to their cost of labor 
to develop their materials for production. We as a country, do not 
believe we can afford to go into a mode of protectionism with tariffs 
high enough to make us competitive due to foreign financial investment 
in the U.S. Therefore, we must move faster and get to compromises that 
we can all live with, and develop new industries such as ocean 
aquaculture and many more unless we just want to become a nation of 
consumers without jobs to pay for the consumption. It appears (and this 
is not to be taken as negative connotation), in regard to ocean 
aquaculture, we may be taking the ``not in my back yard'' approach. We 
as Americans are better than that. The gentleman from Kona Blue I 
believe put it in perspective. On the record, they mentioned they are 
setting up operations in Mexico. Obviously, they feel they can get what 
they need done there easier than in the U.S. at lower cost. Are we 
sending another industry abroad before it even gets off the ground in 
the U.S.?
    Again, thank you for allowing us to make our comments and hopefully 
we have contributed to your goal of establishing an offshore 
aquaculture policy.

Sincerely,

William A. Cox
Vice Chairman (SCSA)
                                 ______
                                 

   Response to questions submitted for the record by William A. Cox, 
             Vice Chairman, South Carolina Seafood Alliance

Questions from Congressman Gregorio Sablan (D-MP)

1.  What role can Recirculating Aquaculture Systems (RAS) have in 
        decreasing the seafood trade deficit? With increased health 
        concerns and given the environmental concerns of many, this 
        seems like a very viable alternative that not only creates 
        healthy seafood, but also creates jobs. Do you agree that this 
        is a technology/process worth pursuing?
    Response: Recirculating Aquaculture Systems (RAS) are worth 
pursuing and will be useful as a requirement for housing brood stock, 
developing hatchery technique, and culture of smaller organisms such as 
marine ornamentals. However, it is cost prohibitive in most cases for 
grow out of large animals particularly for larger pelagic organisms for 
several reasons: 1.) Size of tanks needed, 2.) Cost of real estate near 
coasts to obtain seawater required, 3.) Cost of producing seawater 
artificially inland, 4.) Biological requirements of individual species, 
5.) Difficulty and complexity in maintaining water quality requirements 
from a biological and diseases control standpoint at stocking densities 
required, 6.) The mere fact that very desirable species in the market 
place with high market demand and price do not do well in tank systems. 
Even snappers and groupers which are commonly seen in aquariums do not 
do well enough in recirculating systems at high densities needed for 
grow-out in an economically feasible manner. The large scale production 
of RAS systems to offset a $9.4 billion dollar trade deficit is not 
worth pursuing for the production of the finish product required. It 
does have a role which is very important to ocean aquaculture, ocean 
stock enhancement for depleted or unsustainable species and to produce 
the larvae, fingerlings, or juveniles required depending on species. 
This will produce some jobs but many of the RAS systems to date have 
failed because they were just not cost effective. The capital 
investment to build one on a production scale is significant then you 
must add the operating cost for up to 2 years to get product on line. 
There have been several RAS projects proposed over the years such as 
indoor shrimp farming in greenhouses at super intensive densities in 
the U.S. Several years ago this was tried at Harbor Branch Oceanic 
Institute and it failed was shut down because it was not cost 
effective. This was when shrimp prices were relatively high. However, 
much grant money has been and must be spent to develop these systems 
and some projects have been waiting years to get venture capital to 
start such ventures to the point that it is truly too late. The last 
thing we need is more shrimp produced in this country today in high 
volume given the current status of the U.S. shrimp industry unless the 
cost including amortization of capital investment can be brought below 
$.90 per lb for 16-20 count shrimp. This is just one example. If RAS 
systems are to be used, use them for what they are most cost effective 
at and where they apply. The ventures into RAS systems should be 
reviewed very carefully as well, to ensure they are not just short term 
ventures for obtaining grant funding and a few jobs versus providing 
for development of a new industry which has potential for creation of 
many jobs over the long term in the U.S., while truly solving the 9.4 
billion dollar seafood deficit problem. Another problem with technology 
development in these type systems is the technology tends to get 
exported to the third world countries rapidly through consultants and 
we end up setting ourselves up for more imports at cheaper prices.

Questions from Republican Members

1.  Under the recommendations made by several of the witnesses here 
        today, do you believe any business will ever invest in U.S. 
        offshore aquaculture?
    Response: There are already companies that are pursuing and 
investing in offshore aquaculture, many of which have had difficulty in 
obtaining permits for work in federal waters. The University of New 
Hampshire's Open Ocean Aquaculture from what we understand has lead to 
commercial offshore mussel farms. There are also farms as you know 
(Kona Blue) in Hawaii producing finfish in offshore net pens. However, 
many companies that have pursued offshore aquaculture have met with 
permitting issues and have developed the hatchery technology 
domestically and are exporting fingerlings and or larvae to grow out in 
other countries offshore or in ponds. One company in S.C. is interested 
in conducting offshore aquaculture with two shellfish species as 
technology is developed but again it must be allowed to be permitted 
off the 3 mile limit.

2.  Do you believe regulations should be different for finfish and 
        shellfish?
    Response: Shellfish and Finfish are different species completely. 
We believe that they are both viable candidates for ocean aquaculture. 
However, so much controversy over the entire issue is hindering the 
possibility that either will be approved. Ideally both could be 
regulated under one set of regulations. However, because of the 
potential difference in gear and placement and absolute positive 
environmental impact of shellfish as agreed upon and documented by the 
EPA several years ago, and the fact that feeding via fish food of some 
sort is a requirement of finfish versus the lack thereof for shellfish, 
it is our belief that depending on the operational plan, shellfish 
should be allowed to move forward in open ocean aquaculture while the 
many controversial issues of finfish production gets worked thru. The 
current regulations for shellfish and finfish aquaculture differ, so 
what would be the logical reason for not having separate regulations in 
the ocean. Shellfish do not have the discharge issues that finfish have 
due to feeding and finfish do not have as many issues with algal blooms 
that the shellfish industry has. Moving part of the shellfish culture 
industry offshore will actually minimize some of the environmental 
impacts that the shellfish industry potentially may have in time with 
submerged aquatic vegetation. Shellfish are currently used to clean up 
the environment so it would be counterproductive to current legislation 
and uses of shellfish to develop regulations that restrict shellfish 
growth based on issues such as nutrient input, as no artificial feeds 
are used in shellfish aquaculture once they leave the hatchery. 
Shellfish offshore regulations would be much simpler to start with than 
finfish and it would allow the industry to establish a precedent of 
being successful offshore before moving into more complicated and 
controversial species and regulations.
    Most associations, organizations, private enterprises, and 
government institutions do not want to see this separation. They are 
like everyone we have heard from regardless of perspective on this 
subject and have pretty much taken the stance ``all or none.'' We do 
not believe from the SC Seafood Alliances perspective that we will ever 
get anywhere with this approach and time is moving on.

3.  Do you have any problem with a requirement that only native species 
        be raised in Federally-permitted fish farms?
    Response: No, It would be a wise decision and we would highly 
recommend from an aquaculture and wild harvest perspective that only 
indigenous species to the region be used for Federally ``permitted fish 
farms to minimize ecological and disease problems unless proven by 
extensive research and development by certified unbiased U.S. research 
institutions that a particular species would have no negative impact in 
a particular area. However, we would recommend much research be 
accomplished before allowing this to occur. There are examples where 
the use of non-native species for aquariums, sport fishing, or food 
supply thru aquaculture have had detrimental effects on the environment 
therefore this practice should be avoided if possible.

4.  Mr. Sims also makes the argument that if the U.S. doesn't step up 
        on aquaculture, countries with little or no environmental 
        controls will be providing our seafood needs and cause further 
        harm to the oceans we share. Do you agree with his assessment?
    Response: Yes, we agree with Mr. Sims. Currently 90 species are 
cultured in Japan alone in or related to ocean aquaculture based on a 
report issued several months ago. As the loop is closed on the spawning 
and growth of tuna by Japan and Australia, that industry could expand 
exponentially and yet again set up the U.S. for more imported high 
priced product at their job gain and U.S. job loss. Other countries in 
the Asian sector do not have the environmental controls or discipline 
that the U.S. operators have. We will have no control over what 
environmental impact other countries are having on producing food for 
the U.S. consumer. Nor will we have a handle on the therapeutics or 
antibiotics they will use that will stay with the product as the U.S. 
consumes the product. The FDA has stated in the past they do not have 
the funding or manpower to inspect the vast quantity of shrimp 
shipments coming into the U.S. for Taura Syndrome Virus, White Spot 
Virus, or use of antibiotics. All of these could be problematic to the 
U.S. in that the consumer does not know what quantity of foreign 
substances he or she is taking in. Taura Syndrome Virus is a shrimp 
virus only and does not affect humans, but even after frozen, if a 
block of frozen TSV laden shrimp imported into the U.S. was dropped 
into a U.S. shrimp pond, the virus becomes active and can be 
transferred to the U.S. pond shrimp killing 99% of shrimp in the pond.
    What Mr. Sims states is already happening whereas most shrimp 
demand in this country is being filled by farm raised shrimp which 
originated from brood stock in the U.S. The exporting countries such as 
Brazil and Vietnam as examples continue to destroy mangrove habitats 
and chemicals such as malachite green are still legal to use. So, there 
is no question that if the U.S. does not establish an ocean aquaculture 
industry soon to set the standards as a lead nation in doing things 
right, we will be impacted by the result of actions from other 
countries based on their past aquaculture behavioral patterns. We 
should feel that we have an obligation to set the standards for the 
rest of the world in ocean aquaculture.

5.  What species do you think would be appropriate for aquaculture 
        facilities off the coast of South Carolina?
    Response: Bivalves, such as ocean specific clams, mussels, and 
scallops would be viable off the coast of SC and could be easily 
incorporated into existing markets. Finfish could be more complicated 
depending on hatchery technology development in SC, but Cobia is a 
species that the life cycle has already been cultured, and would 
greatly benefit from having domestic grow out offshore rather than 
exporting fingerlings to South America for grow out in ponds which 
would further the importation of fish into the U.S. Bait fish such as 
menhaden would be another potential aquaculture opportunity creating a 
year round supply for both the commercial and recreational fishing 
industry and also for production of fish feeds thus supplying the 
industry with a farmed product for feed production versus fish feeds 
produced from wild caught fish. Other species that could have potential 
to be successful offshore of SC would be the snapper and groupers, 
while the life cycle work has been initiated the economics behind 
commercial culture has not. With the closing of the commercial snapper 
grouper fishery in the southeast, ocean aquaculture can play a crucial 
role in meeting high demand and helping restore these populations. 
Ocean aquaculture coupled with coastal hatchery or even offshore 
hatchery production could be an emergency measure supporting stock 
rebuilding of the snapper grouper complex to get the commercial 
fisherman back to work if closures are approved. This type of scenario 
could possibly employ many of the snapper grouper fishermen put of work 
and allow them to participate with a job in rebuilding the stocks to 
levels that allow them to fish again. Mahi mahi, pompano, and certain 
tunas at some point in time may also be candidates for SC ocean 
aquaculture production. Many people, scientist, and government agencies 
would be critical of these possibilities and can find all kinds of 
information to dispute these possibilities, but we have seen how much 
can be hatched in SC and produced commercially and these species can be 
viable in SC given the resources and permitting.

6.  One argument for offshore aquaculture is that it might provide jobs 
        for fishermen who have been displaced from their fishing jobs. 
        Do you believe South Carolina shrimpers might be interested in 
        working in the aquaculture industry?
    Response: Quite honestly, the shrimpers in SC are an independent 
group of fishermen with great pride, heritage and culture in what they 
and their families have done for generations. An immediate switch would 
take convincing. However, several prior shrimpers are spending more 
time culturing clams, harvesting oysters and many have moved on to 
other ocean or watermen related jobs such as pushing barges with tug 
boats etc. Given today's shrimp prices, and no chance in reduction of 
shrimp imports, we believe that many may be reluctant at first. This is 
especially true due to the fact that imported shrimp from aquaculture 
is what is putting them out of business. But they value their 
livelihoods on the water, and given a good dependable salary or hourly 
wage with training in a new but related industry, many would get 
involved with an ocean aquaculture industry, particularly the next 
possible generation given what's left of the industry.

7.  Do you believe legislation is necessary to give Federal agencies 
        the ability to permit offshore aquaculture operations in 
        Federal waters? If so, what Federal agencies should be involved 
        in the permitting process or should have a role in the approval 
        of any permit?
    Response: The lack of regulatory framework for aquaculture in 
federal waters and a complicated permitting process is what has led to 
companies and researchers spending years in the permitting formulation 
process. Hubbs-Sea World we understand spent 2 years waiting to start 
the Grace Mariculture Project for the Federal Agencies to make 
determination on which agency was the lead on the permit. It has become 
apparent to us from the Hearing and the tremendous amount of 
information that has been circulating on this subject that NOAA, EPA, 
USACE, USDA, and the USCG and many more feel they should have input and 
jurisdiction over any ocean aquaculture policy. In addition to this, 
each coastal state, some more verbal than others are voicing their 
input both opposing and proposing policy. The situation at hand appears 
realistically unworkable given the way the U.S. government works today.
    After careful consideration on this matter and thinking way ``out 
of the box'' (which our government today needs to consider given the 
current economic situation either real or perceived), we are of the 
thought process that although the EEZ is in federal waters, the 
individual coastal states should have the ability to permit and control 
the offshore aquaculture operations from their states. Provide the 
states, which all but a handful, are in dire need of resources and 
jobs, with the resources to coordinate the efforts with the federal 
organizations to get the permitting approved. Each state can allow or 
not allow ocean aquaculture in their area of the EEZ. These areas could 
be designated by extensions of state lines thru the EEZ. The lead state 
agency would then develop requirements for ocean aquaculture and take 
applications in their respective states. They would require operational 
plans, containment plans, eradication plans, hurricane plans, etc. Then 
the state could issue the permit if it so desires. If state prefers not 
to allow ocean aquaculture for whatever reason, then so be it. After 
all discussion that we have read about and heard, not much has been 
said about the fact that the individual state and its Department of 
Natural Resources or equivalent is the first contact agency in the 
event of a problem or an issue. They are the first line of response in 
many cases even when the Coast Guard is involved. Many states are for 
the possibility of ocean aquaculture and many are against it. In the 
Hearing, the representative from California indicated that although 
there was much controversy, they were for the offshore aquaculture 
program, but they had to get their finances in order first. This could 
take forever, and why hold back opportunities for states with 10% to 
12% unemployment rates that need jobs now? We know this will not set 
well with any of the large Federal agencies but it is food for thought 
and could cut through a lot of red tape. The most important factor here 
that should be considered is, each state Department of Natural 
Resources or equivalent knows their waters 0-200 miles offshore better 
than any other state or federal agency. They are closest to the front 
line and therefore perhaps should be the permitting or no permitting 
agency. The state agencies get data, R&D and information from all the 
federal agencies and could coordinate with them while being the direct 
permitting agency for commercial operators with federal agencies 
mandated to expedite state requests. This will (we are sure) be a very 
unpopular idea and will go against all infrastructure in place by 
region etc, on a federal level such as the argument of whether NMFS 
should regulate ocean aquaculture by established regions. However, this 
could get ocean aquaculture moving and satisfy some states regardless 
of other state positions. There have been many aquaculture success 
stories whereas the states themselves regulated the industry versus the 
federal government. Industry was not always happy with the results, but 
it has been generally a successful and expeditious process compared to 
what is going on now just trying to get a policy in place.

8.  What environmental standards are appropriate for legislation 
        authorizing offshore aquaculture facilities? Should legislation 
        spell these out or should legislation give the permitting 
        agency a broad outline for these standards?
    Response: If you propose this question to 50 people involved in 
commenting on the proposed federal policy, you will get possibly 50 
various sets of standards. Environmental standards also vary from state 
to state on many issues. The legislation should not get bogged down in 
this level of detail. The permitting agency should provide the 
requirement for an environmental impact statement or plan and that 
agency should establish the details of the environmental standards 
based on a specific operating plan for specific species in their 
various geographical locations.

9.  What standards are appropriate for the regulation of discharges 
        from offshore aquaculture facilities what agency or agencies 
        should be responsible for developing discharge regulations?
    Response: Most offshore aquaculture farms will be net pens, 
longlines, or some sort of bottom or midwater cage systems. The 
discharge from these aquaculture facilities is not a point source 
discharge that can be easily measured coming out of a pipe. Therefore 
providing standards for this will be difficult. What can be regulated 
are the types of feed, feed additives, and the frequency and volumes of 
feed if feed applies. This will differ based on site locations, species 
cultured, tide, current, and turbulence in a given aquaculture site. So 
having closely defined standards would make it difficult to balance the 
flow rates at a site with the feed requirements of a species cultured. 
For shellfish there will be no discharge so there will not need to be a 
regulation on this. NOAA combined with the state in which the site is 
located would be the best team to develop discharge regulations or 
guidelines because they both will have the knowledge of ocean currents 
in a given area and the knowledge of the species being cultured.

10.  What safeguards for the prevention of the escape of farm raised 
        fish are appropriate for legislation authorizing offshore 
        aquaculture facilities? What are the likely effects of the 
        escape of non-native species on natural populations of fish and 
        how should these impacts be dealt with in the legislation?
    Response: Safeguards to prevent escape from farms would include 
having closed cages with high quality marine grade materials, but also 
appropriate brood stock and hatchery management to insure that there 
are not genetics that create a bottleneck which creates distinctly 
different farmed raised from wild fish. The use of indigenous species 
from a specific area with limited number of spawning per generations 
and family would keep farm raised fish and wild fish genetically 
similar. In the event an escape did occur, they would not create 
negative impacts to genetically local populations. Non-native species 
should not be used in ocean aquaculture if avoidable.

11.  How should the siting process work for offshore aquaculture 
        facilities? How will other Federally-permitted activities or 
        Federally-leased areas for other activities (such as areas 
        leased under the Outer Continental Shelf Lands Act) be 
        reconciled? What other conflicts among user groups should be 
        identified and considered?
    Response: The siting process is going to be the most important and 
most likely the most difficult part of the regulatory process. Siting 
is going to have to address several factors, first being that it has 
the water quality, flow rates, and accessibility to support the life 
cycle of the proposed species. This will differ for each species and 
will also limit the number of sites appropriate for offshore 
aquaculture based solely on the biological and physical requirements to 
culture the species. Then there is the user conflicts such as 
navigation, oil and gas industry, and fishing. Proper site location can 
minimize these user conflicts and some of the industries could co-
exist. Such as no longer used oil and gas platforms serving as 
locations for setting nets or even housing hatchery facilities. The 
company proposing the aquaculture facility is going to have to work 
with the permitting agency to minimize the user conflicts at proposed 
sites or identity other areas that are appropriate for that type of 
culture. Companies interested in conducting offshore aquaculture have 
or are in the process of identifying sites.

12.  What impact will offshore aquaculture have on existing domestic 
        wild harvest fisheries and how should those impacts be 
        addressed? Should the Federal government be responsible for 
        mitigating these impacts or should the aquaculture industry be 
        somehow required to mitigate these effects?
    Response: For aquaculture, many of the finfish species stocks used 
could be closed to the commercial fisheries due to sustainability 
issues or there is not enough U.S. supply to meet demand. In most 
aquaculture settings the aquaculture of a species will ease the fishing 
pressure on a species and in some cases can be used to directly restock 
the populations which needs to occur in the southeast region. There are 
potential impacts to the fishery if brood stock is continually taken on 
an annual or more basis from the wild. This could lead to stresses 
similar to overfishing, but can be mitigated by having facilities that 
cultured closed fishery species and that obtain brood stock from the 
wild on regular basis, put a certain percentage of produced animals 
back in to the wild. There are potential disease and genetic issues but 
both can be managed through proper hatchery and production management. 
It is not in the best interest of aquaculture facilities to stock at 
densities so high that it leads to disease issues or to have a low gene 
flow. To ensure that each aquaculture facility is properly managing 
brood stock and grow out, each company should have to develop or follow 
previously developed Best Management Practices (BMP's) for that 
particular species and culture method in their operations plan. 
Companies that do not submit operational or management plans for permit 
approval that follow BMP's should not be permitted. With a $9.4 billion 
dollar seafood trade deficit, competition with wild harvesters who are 
being regulated out of the business in the U.S. is not the real issue 
to be addressed.

13.  What options should legislation include for states to have input 
        into the process of either permitting or siting offshore 
        aquaculture facilities? Should states have the ability to 
        reject facilities off their shores in Federal waters? Do states 
        have this ability under the Coastal Zone Management Act?
    Response: As we noted above, we believe states should have input 
into the process of permitting and siting offshore aquaculture 
facilities. If a state desires not to allow offshore aquaculture, then 
it should be that states right to hold that position based on our 
response to question number 7. The Coastal Zone Management Act requires 
the states to develop a Coastal Management Plan and a Coastal Use 
Permitting system in order to receive certain types of funding. As part 
of the Coastal Management Plan, the states were required to delineate 
their coastal zone. There are no plans at this time where the Coastal 
Zone extends into Federal waters, so states could not object to an 
aquaculture facility under the CZMA. If a facility were located in 
State waters then it would currently fall under their jurisdiction and 
would at a minimum require a coastal use permit, which includes public 
comment and addressing public concerns.

14.  What U.S. ownership standards should be included in legislation 
        authorizing offshore facilities? Should the ownership and 
        control standards be comparable to those currently in place for 
        fishing vessels and/or on-shore processing companies?
    Response: Offshore ocean aquaculture facilities should be leased by 
designated area for a period of time, given option for renewal based on 
a successful project for the commercial operator, the state, and all 
federal agencies and ensuring that it has met all environmental and 
ecological obligations. This period of time should be long enough to 
ensure business success, financial support, and guarantee the site is 
allowed to continue to be used if desired under the extended lease by 
the original user with a no sublease clause included. Fees for these 
leases should be reasonable at the start of this new industry and 
increased based on success of the industry. The permitted operator 
should be considered the controlling interest of that area and has all 
lease rights of his operation and therefore be given full protection 
from other violators of the operators' rights. Other than this, the 
ocean bottom should not be owned by a company and should be treated as 
fishing vessels and on shore processing operations.

15.  What role should the regional fishery management councils have in 
        regulating the fish, feed, size limits, seasons, and products 
        from offshore aquaculture facilities? Should farm-raised fish 
        only be allowed on the market when the same species of wild 
        fish are allowed to be harvested to minimize enforcement of 
        fishery management plans and regulations?
    Response: Fishery Management Councils should not have a role in 
regulating the ocean farm raised fish, feed, size limits, seasons, and 
products of the offshore facilities other than monitoring the 
effectiveness of stock enhancement efforts (if allowed) of the 
fisheries by aquaculture operations such as for the snapper grouper 
fishery. There should no relationship as to when farm raised fish are 
allowed on the market as compared to the same species of wild fish. 
Operational plans will specify optimum harvest sizes for farm raised 
fish and price versus cost will also drive the timing of harvest of 
farm raised fish. Permits for offshore fish facilities can include that 
fish be tagged or ocean aquaculture dealers licenses could be required 
to sell the fish identifying them as ocean farm raised to delineate 
them from wild caught to allow enforcement of current wild capture 
rules and regulations. These types of specific details can also be 
addressed at the state level in commercial operational or management 
plans.

16.  Should legislation deal with issues such as the use of antibiotics 
        and the types of fish food that can be used in the marine 
        environment? Should the legislation require that the impacts of 
        antibiotics and food from aquaculture facilities on the natural 
        populations be regulated?
    Response: There are existing regulations addressing the use of 
antibiotics. In offshore settings antibiotics should be tightly 
regulated or prohibited. Regulating the types of feed and feed 
additives and the amount of feed used will have to be part of BMP's as 
the types of food and frequency of feedings differ between species. 
This is another regulation that will not be needed to apply to 
shellfish in the ocean environment particularly because no feed will be 
needed to be added. The BMP's should address the ways in which feeds 
and additives will impact the natural environment However, as a general 
rule, we would recommend against the use medicated feeds in the 
offshore environment unless approved by FDA,USDA, and NOAA.

17.  Should legislation and/or regulations make distinctions between 
        aquaculture that is primarily for hatchery purposes and those 
        facilities that are primarily used for food fish production?
    Response: Yes, the two facilities types will have different BMP's 
that will need to be developed separately to address the issues. Those 
facilities that are primarily hatcheries will have much lower feed 
requirements and nutrient output due to smaller size of animals. Those 
facilities producing market size fish will have most likely higher feed 
requirements and nutrient output. Again this is another situation where 
it depends on the species that is cultured.

18.  Should the legislation and/or regulations make a distinction 
        between shellfish and finfish aquaculture operations?
    Response: Yes, see our response to question number 2. Shellfish are 
a totally different species from finfish and when managed properly 
cleanse the environment.

19.  With the recent concerns about the safety of imported seafood, 
        should food security issues increase the need for a domestic 
        offshore aquaculture program?
    Response: Yes, most of the U.S. seafood consumption is imported 
from other countries, particularly countries in the third world where 
until recently there were little water quality and environmental 
regulations. Some countries have updated and begun to more closely 
regulate aquaculture, but most countries have more relaxed regulations 
on the use of chemicals such as malachite green, which are banned in 
the U.S. Many of the shrimp are cultured in ponds that not only may 
have been treated with banned chemicals, but also destroy critical 
mangrove habitat to develop the ponds and facilities. Importing 
cultured species from these countries is not only a food safety issue 
but an environmental sustainability issue as well that at this time we 
cannot or desire not to monitor as well as we should for the well being 
of the U.S. consumers.

20.  Should this legislation deal with how aquaculture fish products 
        are labeled?
    Response: Legislation could develop a labeling system for farmed 
fish similar to the grading for beef and other farmed products, but 
there are already Country of Origin and many NGO labels for 
sustainability. If a labeling system were to be developed through 
regulation, it would need to be universal and uniform throughout the 
country so as not to increase the confusion among consumers that 
already exists between foreign, farmed, and sustainably harvested 
products.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Mr. Cox, for 
your testimony.
    And now we will introduce our final witness, Mr. Alverson. 
You are welcome to begin.

   STATEMENT OF ROBERT ALVERSON, EXECUTIVE DIRECTOR, FISHING 
                   VESSEL OWNERS ASSOCIATION

    Mr. Alverson. Thank you. My name is Bob Alverson. I am 
manager of the Fishing Vessel Owners Association out of 
Seattle, Washington. The Association is a trade association of 
95 family owned fishing vessels. We target primarily Pacific 
halibut and sable fish in Alaska with long line gear. Both of 
these species have recently received the London based Marine 
Stewardship certification for sustainability. Our vessels 
operate as far south as the port of Fort Bragg, California, and 
as far north as the waters adjacent to the boundary line of 
Russia in the Bering Sea and the Western Aleutians.
    I want to thank the Committee and the Chairwoman for the 
opportunity to testify on this important subject this morning. 
The members of the Association have concerns regarding high 
seas aquaculture, particularly that aquaculture that would take 
place over the continental shelf, which include interactions 
with forage species, escaped farm fish, waterborne illnesses, 
economic and regulatory parity, and the wild fish industry, and 
interaction with marine mammals.
    With regard to forage species, fish pens in Canada and 
other parts of the world in order to offset feed costs have 
used bright lights at night to attract forage species such as 
herring and sand lance. These smaller fin fish species often 
swim through the fish pens and the farm species are able to 
feed on these forage species which supplement feed costs. These 
forage species are very important to the wild fish industry, as 
well to many species that are listed or declared overfished.
    Dr. Balsiger pointed out that the North Pacific Council 
does not allow the commercial take of krill, sand lances, 
lantern fish, or smelts, and the Pacific Council does not allow 
a commercial operation on krill. However, if such interceptions 
are allowed, any permit take of forage species by domestic 
operations needs to be in compliance with the existing 
Magnuson-Stevens Act and the allowable biological catch 
requirements that are set forth in that Act.
    With regard to waste, we oppose the open net caged fish 
farm operations that we see in Puget Sound and in British 
Columbia that allow the fecal waste to be dropped into the open 
ocean. Studies show that 25 to 50 percent of dried feed ends up 
as feces. Indeed, the 600,000 tons of farmed salmon that is 
produced out of British Columbia in 2000 contributed to as much 
nitrogen as the untreated sewage of 682,000 people. The problem 
with these pens is they typically are located in sheltered 
coves and inlets where small fish need to rear, and these areas 
have been preempted now because the grounds are soured because 
of the fallout of the waste.
    Parity with wild fish producers. Currently our processors 
that our vessels deliver to must abide by very strict EPA water 
quality restrictions, national and state employment 
requirements, minimum wage requirements, the Jones Act, as well 
as the Marine Mammal Act. In the past legislation that came up 
in the Senate two years ago, farmed operations were 
specifically exempted from the Jones Act and certain state and 
national wage requirements. This would be an unfair situation.
    It bears repeating that since wild fish and farmed fish 
both compete for U.S. market and will operate in the same EEZ, 
compliance to all U.S. laws regarding these minimum wage, U.S. 
labor standards, EPA requirements, Marine Mammal Act, need to 
apply to both industries. One of the wild fish complaints in 
the Pacific Northwest is to Canadian salmon and sable fish pen 
operators having equal access to markets in the United States 
even though Canadians are permitted to receive licenses to 
shoot and kill marine mammals.
    The United Kingdom allows acoustic devices which we are not 
allowed to use as well. The Secretary of Commerce should be 
authorized and directed to determine and publicize that foreign 
farmed species have not been raised in compliance with U.S. 
marine mammal standards, especially in view of the fact that 
the Canadians are permitted to shoot transboundary stocks of 
marine mammals that the U.S. protects.
    In summary, the Association requests Congress to require 
aquaculture operations to adhere to the same kinds of foreign 
species restrictions that the North Pacific and Pacific Council 
have imposed, and there needs to be parity between the wild 
fish harvesters and the high seas aquaculture operations with 
regard to the regulations and laws of Congress that I have 
listed. Thank you again for the opportunity to testify on this 
important hearing. I will be pleased to respond to any 
question.
    [The prepared statement of Mr. Alverson follows:]

               Statement of Robert D. Alverson, Manager, 
                   Fishing Vessel Owners' Association

    My name is Bob Alverson. I am Manager of the Fishing Vessel Owners' 
Association (FVOA) of Seattle, Washington. The FVOA is a trade 
association of 95 family-owned fishing vessels. The vessels are 
generally between 50 and 85 feet in length, with crews of 4-to-7 
persons. We target primarily Pacific halibut and sablefish with 
longline gear. The fish are dressed and iced at sea and delivered to 
shorebased processors. Our vessels operate as far south as the port of 
Fort Bragg, California to as far north as the waters adjacent to the 
boundary line with Russia in the Bering Sea and Western Aleutian 
Islands. I want to thank the Committee for the opportunity to testify 
on this important subject.
    The members of the FVOA have concerns regarding high seas 
aquaculture, including interaction with foraging species; escaped farm 
fish; water-born illnesses common for fish species that are grown in 
crowded conditions; economic and regulatory parity with the wild fish 
industry; and interaction with marine mammals.
    Foraging species. Fish pens in Canada and other parts of the world, 
in order to offset their feed costs, have used bright lights at night 
to attack forage species such as herring and the sand lance. These 
smaller fin fish species often swim through fish pens and the farmed 
species are able to feed on these forage species which supplement feed 
costs. These forage species are important to the wild fish species, 
including many that are listed as endangered or are overfished. The 
interception of forage species should not be allowed. Any allowed 
harvest by fish pens of these species would negatively affect the 
Allowable Biological Catch limits of all wild commercial fish species. 
Notably, the Pacific Fishery Management Council has banned the harvest 
of krill off Washington, Oregon and California because that species is 
considered a very important food source for many wild fish and marine 
mammal species. The North Pacific Fishery Management Council has 
similarly restricted any commercial harvest of important forage species 
such as Capelin, smelts, lantern fishes, deep sea smelts, Pacific sand 
lance, as well as krill. High seas aquaculture farms should not be 
allowed to have their farmed species grazing on these important forage 
species as they are critical to the overall health of the wild fish 
species.
    Nevertheless, if such interceptions are allowed, any permitted take 
of forage species by domestic operations must be in compliance with 
existing laws and regulations, including establishment of harvest 
limits associated with approved Allowable Biological Catch (ABC) limits 
regulated by the Magnuson-Steven's Act. Foreign operations affecting 
U.S. fish stocks must be addressed by international agreements, or if 
foreign cooperation is lacking, by targeted trade sanctions.
    Escaped Farmed Species. There are several troubling aspects of 
farmed fish that are released or escape from fish pens. Any diseased 
fish, of course, risk contamination of wild species. The public was 
told at one time that farmed salmon in the Pacific Northwest would not 
present a problem, should they escape as they are modified such that 
they could not reproduce. Salmon have escaped from pens from Puget 
Sound and Canada and have been documented entering river systems in 
order to spawn, thus competing for limited spawning areas with wild 
species, some of which are listed. The development of modified genetic 
species also presents a risk to the wild fish environment. This is a 
potentially great concern as a threat to wild fish ecosystems. Aqua 
Bounty Farms is about to receive approval from the U.S. Food & Drug 
Administration for a cross of Atlantic and Pacific King salmon that 
include the Chinook growth hormone. High seas aquaculture species need 
to be contained and genetic modification carefully restricted. The 
burden must be on aquaculture operations to prove that genetic 
modification will not have adverse effects on wild species and their 
environment, and the threshold for approval must be appropriately high 
to avoid significant risk.
    Farmed fish are typically raised under crowded conditions and 
hence, diseases are quickly spread. Farmed salmon in Chile have 
recently had a problem with infectious salmon anemia (I.S.A.). As 
reported in SeafoodSource.com, harvest of farmed fish in Chile will be 
reduced by 67% to 120,000 mt in 2009. Fish do escape and infected 
species will interact with the larger ecosystem. It is very important 
that the containment of aquaculture be well monitored. There should be 
a federal observer or inspection program to complement any high seas 
aquaculture program. I note that the West Coast fisheries have 
significant federal observer programs currently in place for the wild 
fish harvest.
    Waste. We are opposed to open net cage fish farm operations that 
allow the fecal waste to be dropped into the open ocean. Studies show 
that 25-to-50 percent of dry feed ends up as feces. Fish pens that are 
not self-contained contribute to large amounts of waste settling on the 
sea floor and resulting in the deoxygenation of the area. By placing 
sediment traps beneath farms, researchers have shown that for each 
square meter of seabed, 14.7 - 52 kilograms of waste can accumulate 
beneath the farm and 4.9 kilogram at the farm's perimeters each year. 
(David Suzuki Foundation). High seas fish pens must be self contained 
and adhere to all regulations that the wild fish industry are governed 
by, including EPA restrictions and the Clean Water Act.
    ``The 49,600 tons of farmed salmon produced by British Columbia in 
2000 contributed as much nitrogen as the untreated sewage from 682,000 
people or as much phosphorous as the sewage from 216,000 people.'' 
``David Suzuki Foundation
    The wild fish industry, while operating within the United States 
Exclusive Economic Zone (EEZ), is limited as to their discharges by EPA 
regulations and the Clean Water Act. If fish pens are going to operate 
in the same ecosystem as the wild fish industry, then the same 
pollution standards that apply to wild fish fishers need to apply to 
the aquaculture of pen operations. Additionally, since the farmed 
products and wild harvest are likely destined to similar markets, it 
would be unfair to treat one sector differently than the other on this 
matter.
    Parity with wild fish producers. Currently, the processors that our 
vessel owners deliver to must abide by very strict EPA water quality 
restrictions, national and state employment requirements, including 
minimum wage requirements, the Jones Act requirements relative to 
employers' liability while on the high seas, and the Marine Mammal Act. 
In the past, proposed aquaculture legislation would have exempted the 
farmed fish operations specifically from the Jones Act and the state 
and national wage requirements.
    It bears repeating that, since wild fish and farmed fish both 
compete for the U.S. market and will operate in the same EEZ, 
compliance to all U.S. laws regarding minimum wage and U.S. labor 
standards, compliance to EPA waste water restrictions, and adherence to 
the U.S. Marine Mammal Act should not be any different for fish pen 
operations than for the wild fish operators.
    In Canada fish pen operators can receive a permit to shoot and kill 
nuisance harbor seals and California sea lions. One of the wild fish 
objections is to Canadian salmon and sablefish pen operators having 
equal access to markets in the United States, even though Canadians are 
permitted to receive licenses to shoot and kill marine mammals. Our 
fishermen would lose their fishing rights and go to jail for taking 
such actions. Other countries also permit the use of lethal takings to 
protect fish pens. The Secretary of Commerce should be authorized and 
directed to determine and publicize that foreign farmed species have 
not been raised in compliance with U.S. Marine Mammal standards. 
Especially in view of the fact that Canadians are permitted to shoot 
transboundary stocks of marine mammals the U.S. protects, there should 
be either a negotiated end to such practices in Canada, or a regime of 
sanctions to be imposed on imports into the U.S. of fish products from 
operations that kill marine mammals from such shared stocks.
    In summary, the members of the Fishing Vessel Owners' Association 
request Congress to require aquaculture operations to adhere to the 
same kinds of forage species restrictions as those developed by the 
Pacific and the North Pacific Fishery Management Councils, and require 
pens to be as self-contained as possible in order to limit the number 
of escaped fish and fecal waste materials. There needs to be parity 
between the wild fish harvester and their processors and high-seas 
aquaculture operations. The rules relative to national wage 
requirements, the Jones Act, EPA restrictions, the Clean Water Act, and 
the Magnuson-Stevens Act need to be fairly applied to both wild fish 
harvesters and aquaculture interests where appropriate. The aquaculture 
industry should not be exempted from any of these acts.
    Foreign operations that produce for the U.S. market should be 
subject to the same, reasonable restrictions as those applying to or 
proposed here for U.S. aquaculture operations. In particular, Canadian 
operations that affect shared stocks of forage species and marine 
mammals must be brought into line with sound management practices or be 
subjected to U.S. sanctions.
    Thank you, again, for the opportunity to testify at this important 
hearing. I would be pleased to respond to any questions.
                                 ______
                                 

 Response to questions submitted for the record by Robert D. Alverson, 
              Manager, Fishing Vessel Owners' Association

1.  What measures should be included in federal legislation to develop 
        a comprehensive regulatory system for aquaculture to ensure 
        that it does not negatively impact the sustainability of 
        existing commercial, tribal and recreational fisheries, and 
        wild fisheries-dependent communities and businesses?
    The following measures should be in place in order to ensure that 
high seas aquaculture does not negatively impact existing coastal 
fishing dependent communities.
    (a)  There needs to be EPA involvement to monitor discharges and 
water quality. The standards should be similar to what are required 
from shorebased facilities in order to provide economic parity.
    (b)  Species that coastal communities are economically dependent on 
should not be promoted for aquaculture. The government must recognize 
that promoting aquaculture for species already providing coastal 
community jobs can be economically disastrous potentially for 
aquaculture interests and wild fish fishermen due to over supply of the 
market. Additionally, the U.S. Government makes loans to many quota 
share fishermen on the West Coast (i.e. halibut, sablefish, and crab). 
The economic stability of these quota share fishermen could be 
significantly damaged should aquaculture focus on these species.

2.  What measures must be put in place concerning use of genetically 
        modified fish in offshore aquaculture operations?
    The measures needed concerning genetically modified species should 
include approval from the Food and Drug Administration, which is 
currently the case, as well as approval from the coastal states that 
may be affected. Currently, on the West Coast, several species of 
salmon are listed as endangered or threatened and several rock fish 
species are listed as overfished. With regard to approval for salmon, 
the coastal states should be involved in approval, and for groundfish, 
the regional councils set up under the Magnuson-Stevens Act should be 
involved for approval.

3.  Why is it important to have an observer program for offshore 
        aquaculture?
    Observers or electronic monitoring of the aquaculture site would 
help inform the regulatory bodies on water quality levels, net pen 
integrity with regard to escapes, sharks and marine mammal 
entanglements, and monitoring any restrictions relative to forage fish 
interceptions. The observers required on commercial fishing vessels 
monitor similar activities.

Republican Member Questions

1.  There has been talk of Canadian grow-out facilities for halibut. 
        Did that ever happen to that proposal and what was the 
        potential effect on the U.S. halibut market?
    There was an attempt five of six years ago by Canadians who held 
wild halibut quota shares to catch them in the wild, keep them alive in 
a tank on board a fishing vessel and deliver them to a pen for feeding. 
The operation was tested for two years, then stopped. The fish became 
infected with orange sea lice, while in the net pen, there was 
accelerated die off due to stress, and a high percent of the meat, when 
butchered, became ``chalky,'' which is a discoloration due to stress 
and certain acids that build up in the meat. This operation is not 
functioning at this time.

2.  Do you believe aquaculture regulations should be different for 
        finfish and shellfish?
    Aquaculture regulations should be appropriately specific for the 
species being cultivated. The requirements should be different for 
shellfish from finfish. However, any genetic changes that could affect 
wild species, managed by coastal states, should require specific 
approval, whether shellfish or finfish.

3.  Are there international protocols for hatchery breeding programs 
        that would be applicable to aquaculture operations?
    Yes, there are some international protocols for hatchery breeding 
programs that may be applicable to aquaculture operations. In Norway, 
fish pens are monitored for density, in order to minimize diseases, and 
the pens are required to be moved for specific periods of time in order 
to let areas recover from the fish waste. These types of restrictions 
might be considered for high seas aquaculture, if the fish pens are 
over the continental shelf. For fish pens outside the continental 
shelf, some restrictions could be modified.

4.  Other than competition for market share, what are your biggest 
        concerns with a U.S. aquaculture industry if it uses native 
        species and were grown in closed pens?
    With due respect, our two biggest concerns would be competing 
against a subsidized aquaculture industry with subsidies similar to 
those already provided the farming industry. Those who would invest in 
high seas aquaculture have the means to run us out of our market with 
predatory pricing tactics. This is why high seas aquaculture projects 
should focus on species that United States fishing communities are not 
currently dependent upon.

5.  Mr. Sims' example shows that there could be a market for currently 
        underutilized species. What do you think of this idea?
    We think Mr. Sims has a good idea and his idea complements our 
concerns that new high seas aquaculture should focus on species not 
significantly relied upon by U.S. fishing communities.

6.  Some have discussed requiring a fee of bonding requirement to 
        offset any negative effects to fishermen who see a price drop 
        due to a flood of farm-raised fish that directly compete with 
        the domestic fishing industry. What do you think of that idea?
    We think the need for bonding for price drops can be avoided, if 
there is a policy that encourages the development of aquaculture 
species not currently important to wild fish operations. Instead of a 
bond for price drops, perhaps a fee should be charged on aquaculture 
species that goes into a regional marketing group that helps grow 
everyone's market. All fish are potentially competitive with each 
other, but the American consumer is also very knowledgeable about 
certain species. This has resulted in high end species, such as Pacific 
halibut, selling well alongside very cheap Vietnamese catfish. The wild 
fish industry off Alaska assesses landing fees to promote their 
products. Where there are no such marketing programs, we would suggest 
a cooperative marketing program between aquaculture and wild fish 
interests to grow the markets overall. This type of cooperation is 
achievable, if there is a policy not to promote aquaculture products 
that are the same species that the wild fish fishermen are dependent 
upon.

7.  Do you believe legislation is necessary to give Federal agencies 
        the ability to permit offshore aquaculture operations in 
        Federal waters? If so, what Federal agencies should be involved 
        in the permitting process or should have a role in the approval 
        of any permit?
    Yes, we believe permitting is the correct procedure for new 
aquaculture ventures in the EEZ. The permitting agencies should include 
the Commerce Department, which has jurisdiction over fishing activities 
in the EEZ and is the regulatory agency responsible for coastal 
sustainable fisheries. The Commerce Department also has safety and 
health requirements for processed fish products. The Environmental 
Protection Agency has responsibility for water quality and should be a 
permitting agency as well.

8.  What environmental standards are appropriate for legislation 
        authorizing offshore aquaculture facilities? Should legislation 
        spell these out or should legislation give the permitting 
        agency a broad outline for these standards?
    The Congress should direct that high seas aquaculture pens adhere 
to the same environmental standards as all other United States maritime 
industries. We do not believe the legislation needs to specify these 
standards. The standards need to be set by the appropriate federal 
agencies, including the Department of Commerce and the Environmental 
Protection Agency.

9.  What standards are appropriate for the regulation of discharges 
        from offshore aquaculture facilities what agency or agencies 
        should be responsible for developing discharge regulations?
    The standards for regulation of discharges from offshore 
aquaculture facilities should be similar to those for shorebased 
processing and aquaculture ventures. The lead agency for this should be 
the Environmental Protection Agency.

10.  What safeguards for the prevention of the escape of farm raised 
        fish are appropriate for legislation authorizing offshore 
        aquaculture facilities? What are the likely effects of the 
        escape of non-native species on natural populations of fish and 
        how should these impacts be dealt with in the legislation?
    The safeguards need to include, but may not be limited to, double 
netting around the pens, installation of a Automatic Identification 
System (AIS), that warns vessels where and what is anchored on the high 
seas, and some form of sound identification in case of fog. We would 
expect escapes occurring from shark and marine mammal encounters, the 
general deployment of net cages, and from at-sea collisions with high 
seas vessel traffic.
    The best solution to minimize the impact of escaping non-native 
species on natural populations is to prohibit aquaculture of non-native 
species. There are plenty of native species that can be raised.

11.  How should the siting process work for offshore aquaculture 
        facilities? How will other Federally-permitted activities or 
        Federally-leased areas for other activities (such as areas 
        leased under the Outer Continental Shelf Lands Act) be 
        reconciled? What other conflicts among user groups should be 
        identified and considered?
    From a West Coast perspective, aquaculture pens should be limited 
to seaward of the continental shelf. This will limit many conflicts 
with potential vessel collisions and many usage disputes. The Commerce 
Department could provide potential sites outside the continental shelf 
area and invite investors to use the area. How to reconcile differences 
between competing federal agencies is an open issue.

12.  What impact will offshore aquaculture have on existing domestic 
        wild harvest fisheries and how should those impacts be 
        addressed? Should the Federal government be responsible for 
        mitigating these impacts or should the aquaculture industry be 
        somehow required to mitigate these effects?
    If the aquaculture of species that wild fish fishermen are 
primarily interested in is going to be encouraged, there will be 
significant long-term economic damage to coastal communities. The 
federal government should fund and/or match funds from the aquaculture 
investors and wild fish purchasers to promote and grow the overall 
seafood markets. Much of the damage could be mitigated, if the 
aquaculture of important species to fishing communities is not 
permitted.

13.  What options should legislation include for states to have input 
        into the process of either permitting or siting offshore 
        aquaculture facilities? Should states have the ability to 
        reject facilities off their shores in Federal waters? Do states 
        have this ability under the Coastal Zone Management Act?
    The states should comment on any aquaculture pen operations 
directly off their coasts and/or if the operation is raising species 
that could impact anadromous or groundfish species. Additionally, if a 
pen operation is going to raise species that the coastal communities 
depend on and will impact the markets for coastal fishermen, then the 
states should be involved. States should be able to veto the permitting 
of aquaculture pens that could negatively impact coastal species and/or 
coastal communities. We are unaware of states having this ability under 
the Coastal Zone Management Act.

14.  What U.S. ownership standards should be included in legislation 
        authorizing offshore facilities? Should the ownership and 
        control standards be comparable to those currently in place for 
        fishing vessels and/or on-shore processing companies?
    The ownership restrictions should be the same as required by the 
Magnuson-Steven's Act for owning and controlling quota shares. The 
ownership and control standards should be comparable to those currently 
in place for fishing vessels. The ownership of onshore plants is more 
liberal for foreign interests. There are plants in Alaska that have 
100% foreign investment.

15.  What role should the regional fishery management councils have in 
        regulating the fish, feed, size limits, seasons, and products 
        from offshore aquaculture facilities? Should farm-raised fish 
        only be allowed on the market when the same species of wild 
        fish are allowed to be harvested to minimize enforcement of 
        fishery management plans and regulations?
    The role of the Councils should be to review the fish pens relative 
to their location. The location of a fish pen may present serious 
concerns for safety, if placed in areas of high vessel traffic, or may 
have negative environmental impacts near or on areas deemed to be 
critical habitats, or in a Marine Protected Area. If the aquaculture 
species is non-native to the area, this may present an invasive species 
threat to native marine species when escapes occur and the Council 
should comment on the effect of fish pen waste on wild species. We see 
no need for the Councils to determine feed, size limits, or seasons for 
offshore aquaculture facilities.

16.  Should legislation deal with issues such as the use of antibiotics 
        and the types of fish food that can be used in the marine 
        environment? Should the legislation require that the impacts of 
        antibiotics and food from aquaculture facilities on the natural 
        populations be regulated?
    Yes, legislation should deal with issues such as the use of 
antibiotics and the types of fish food that can be used in the marine 
environment. The legislation should additionally require ongoing 
monitoring of potential impacts of antibiotics and food from 
aquaculture facilities on natural populations of marine wildlife. 
Presumably, this would involve the Food and Drug Administration.

17.  Should legislation and/or regulations make distinctions between 
        aquaculture that is primarily for hatchery purposes and those 
        facilities that are primarily used for food fish production?
    Legislation may be different for aquaculture that is primarily for 
hatchery programs as opposed to facilities that are primarily used for 
food fish production. However, the use of antibiotics, genetic 
manipulation, and raising species that coastal communities are reliant 
upon should be prohibited either as a hatchery or grow-out facility. 
The net benefit to the nation will be seriously affected, should 
aquaculture simply destroy the coastal community's economic viability, 
only to transfer that to new aquaculture ventures. Hatcheries that 
raise species that coastal communities are dependent upon, should not 
be encouraged.

18.  Should the legislation and/or regulations make a distinction 
        between shellfish and finfish aquaculture operations?
    Yes, the legislation should make a distinction between finfish and 
shellfish, except that non-native species of either should not be 
permitted.

19.  With the recent concerns about the safety of imported seafood, 
        should food security issues increase the need for a domestic 
        offshore aquaculture program?
    Yes, the concern for safe seafood has increased the need for 
domestic offshore aquaculture. The need for domestic aquaculture 
operations to be properly monitored under either the Food and Drug 
Administration and/or the National Marine Fisheries Service, HACIP 
programs to ensure safe food is essential.

20.  Should this legislation deal with how aquaculture fish products 
        are labeled?
    Yes, the legislation should require aquacultured fish to be labeled 
as such.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Alverson, for your 
testimony.
    And I will now recognize Members for any questions they may 
wish to ask, alternating between the majority and the minority. 
And I will begin with myself.
    Dr. Leonard, I have a question for you. How robust is the 
science behind your assertion that unregulated offshore 
aquaculture presents an imminent threat to marine ecosystems in 
addition to the science community who supports a Federal 
framework for permitting and regulating offshore aquaculture?
    Dr. Leonard. Thank you for the question. The answer to your 
question is, the science is strong, it is robust, it is deep, 
and it is to be expected. We could spend probably an hour 
talking about each of the risks that I identified in the 
diagram over here, and I would be happy to provide some 
additional material so that we don't have to do that today. But 
I think it is worth recognizing that much of the science around 
the environmental risks of aquaculture has really emerged from 
the academic community that has sort of an ecological 
framework, an ecological background, because many of those 
risks are inherent in the ways that animals interact with each 
other in the wild.
    So details around disease dynamics, details around how 
escaped fish impact wild fish, these are natural processes that 
we know a lot about from studying natural populations. And in 
fact when you look at the impacts in aquaculture farms, you see 
the very same dynamic taking place. So the science is robust, 
it is deep, it is complicated, it is contentious. But there is 
quite a bit there that I think both identify the risks and help 
identify some of the solutions as well.
    Ms. Bordallo. I have another question for you. Why is it 
irresponsible to claim that offshore aquaculture is being 
conducted successfully around the world and that the United 
States is behind the curve in developing its own industry?
    Dr. Leonard. Let us see, I am trying to parse that 
question. You are saying, why is it irresponsible to maintain 
there are not problems elsewhere, is that correct?
    Ms. Bordallo. Yes, why is it irresponsible to claim that 
offshore aquaculture is being conducted successfully around the 
world?
    Dr. Leonard. Well, I would suggest that because the 
evidence suggests that there are environmental impacts that 
have been identified in a host of areas where marine fin fish 
farming has happened, and that has been pretty well documented. 
A couple examples, a couple of science papers, one published a 
couple of years ago that looked at the global impacts of the 
salmon farming industry and identified that in all the regions 
where salmon farming had proliferated compared to areas where 
salmon farming had not proliferated there had been about a 50 
percent reduction in wild salmon populations per generation. 
Pretty striking global analysis.
    In addition, I think if you look, for example, in Chile 
recently, over the last couple years there has been a rampant 
disease problem in Chile that is clearly related to 
overdevelopment of the industry. It has been well documented, 
there is a lot of very detailed scientific information around 
how that disease moves around and some of the aspects of it. 
But perhaps most importantly from the industry perspective, 
there has been a loss of 7,500 jobs and a 50 percent reduction 
in the production value to the industry itself. So there has 
been some pretty major business consequences of poorly 
regulated aquaculture that have gone along with the 
environmental impacts.
    Ms. Bordallo. Mr. Hinman, I have a question for you. When 
global demand for fishmeal for aquaculture feeds exceeds total 
available supplies, what will the impacts be on forage fish and 
their ecosystem?
    Mr. Hinman. We believe there is already an impact from 
present fishing pressure on forage species that is affecting 
ecosystems and predators. There is increasing demand, and the 
demand exceeds the supply, as I think you were just talking 
about, which exacerbates the problems that exist. We said that 
the fishing on the forage fish populations are probably either 
fished to their maximum now or even beyond the ability of their 
populations to withstand that kind of fishing. And we look at 
this from an ecosystem standpoint.
    The assessments we do on these forage fish right now is 
really their ability to sustain the fishery yields that we have 
desired to get out of those, maximum sustainable yield from 
these fisheries. They take into account what is being taken by 
predators but they don't take into account what is needed by 
predators to support those populations at healthy levels, and 
especially fish predators that we are trying to rebuild.
    So we believe that there has to be a change in the way we 
manage these fish that is going to protect them in greater 
abundance. And the demand that is coming from offshore 
aquaculture, it is already happening, and that is just 
exacerbating a problem that already exists right now. And I do 
want to mention that this is something that goes beyond what 
the U.S. does in terms of regulating its own aquaculture 
fishery.
    This is why we have emphasized the supply side management 
side of protecting forage fish is the demand is coming from all 
around the world. And even if we do not develop our own 
offshore aquaculture fishery here in the U.S., that demand is 
going to continue and our forage fish supplies that are off our 
shores are going to be caught to meet that demand. So we have 
to deal with the supply side to make sure these populations are 
protected from that increased demand.
    Ms. Bordallo. Thank you. Thank you very much. I have two 
quick questions here. Mr. Vinsel, industry advocates claim we 
need to develop offshore aquaculture because, number one, the 
U.S. has a seafood deficit, number two, the domestic demand for 
seafood is rising, and three, the world needs a healthy source 
of protein. Are these arguments valid in your opinion?
    Mr. Vinsel. Well, I wouldn't argue with the fact that we 
need to look at food supply of the country and make sure that 
we have enough food. But I question whether or not offshore 
aquaculture or the kind of fish farming growing carnivorous 
fish to adult size is any net benefit in food production based 
on testimony of the other speakers here. I think that argument 
could probably be made with respect to Mr. Sims's operation.
    And in Alaska we have our own forms of aquaculture with 
shellfish aquaculture, and we also have what we would call 
ocean ranching, although it is different than was described in 
the previous panel. But there is a need to increase the food 
security of the nation, but we would say that Alaska's model of 
putting the fish first and concentrating on the health of the 
oceans is the best and most productive way to get food from the 
ocean.
    Ms. Bordallo. Thank you. Mr. Sims, would you support the 
establishment of environmental standards similar to the 
California bill in Federal legislation on offshore aquaculture?
    Mr. Sims. Thank you, Congresswoman. The Ocean Stewards are 
adamant that we want to see rigorous standards in open ocean 
aquaculture. We want this industry to be recognized by U.S. 
consumers as something that is sustainable and wholesome. But 
we need to be a little bit careful that we don't become overly 
prescriptive in the legislation. What we should do perhaps in 
the legislation is establish goals and then allow the 
regulations to be more specific.
    Because this is a rapidly growing industry and we need some 
flexibility. We need to be able to have adaptive management. 
One of the concerns that I have, among several, with the 
California legislation is that it speaks specifically to the 
inclusion rate of fishmeal and fish oil. Now, the Ocean 
Stewards are very concerned, we are environmentalists as well 
as open ocean aquaculture advocates, and we are very concerned 
about the issue of forage fisheries worldwide. But let us 
manage the problem, let us manage the forage fisheries. Don't 
try and manage it by throttling U.S. aquaculture growth, 
because then you are simply going to go and provide competitive 
advantage for aquaculture everywhere else.
    Why don't we encourage innovation in alternative feed 
stuffs, work with USDA and NOAA to develop alternative feed 
stuffs, work with the commercial fishing industry so that the 
byproducts, the trimmings from commercial fisheries that 
currently go largely over the back of the boat or are burnt in 
the generators to create electricity, those trimmings should be 
used as byproducts of inclusion in fishmeal and fish oil in 
food for aquaculture. This is where commercial fisheries and 
aquaculture can partner together and we can grow an industry 
where it benefits each.
    Ms. Bordallo. Thank you. Thank you very much.
    Now I would like to recognize the Ranking Member, Mr. 
Brown, with questions.
    Mr. Brown. Thank you, Madam Chair. And thank you, this is a 
real cross section of opinions, and it is pretty interesting 
how that all sorts out. Mr. Sims, how long did it take you to 
get your permit?
    Mr. Sims. The better part of my life, Congressman. It has 
been indeed the better part of my life to be doing what we are 
doing out in Hawaii. But it was about a three-year process. We 
were involved in the redrafting of Hawaii's ocean leasing 
legislation back in 1997 and 98. And then we began the 
discussions with the community in Kona in 2000 and 2001.
    We were very careful to make sure that there was extensive 
consultation through that process. We didn't want to go out and 
ram this down the throat of the community, we knew that there 
were a lot of concerns such as have been voiced here. And so we 
wanted to make sure that those concerns were aired. We still 
have on our web site today, we have the original draft 
environmental assessment, so the final environmental assessment 
that includes all of the comments that came back, and they were 
wide and varied there, that addressed a lot of these concerns 
here that are voiced this afternoon.
    But the process for obtaining the actual permit--once we 
file the environmental assessment--in Hawaii they have 180 days 
to make a decision. That is one thing I would say we need to 
have here is the inclination toward including a programmatic 
environmental impact statement in the legislation, but please 
put a clock on it. I don't think it makes sense to have 
something that will run on until you get the opportunity to go 
and have another bond to raise more money to do it. We can make 
decisions on these issues, we just need to get together in a 
room and identify what the problems are and then work out how 
we are going to regulate those, how we are going to manage 
those.
    Mr. Brown. Well, I noticed that in the testimony we just 
heard, there were a lot of real concerns about the species 
escaping, or maybe some of the predators getting tied up in 
your nets. is that an accurate assumption, that those things 
actually take place?
    Mr. Sims. They are risks, Congressman, but they are very 
minimal risks. The industry has been working very diligently to 
resolve these. We are as equally concerned with these sorts of 
issues as the environmental community. For example the concerns 
about marine mammal entanglement, we are actually operating 
within the Hawaii Island Humpback Whale National Marine 
Sanctuary, and we have had very close scrutiny from NOAA and 
the Sanctuary staff over the four years that we have been 
operating out there.
    And the kinds of net pens that are used in open ocean 
aquaculture are not predisposed to entanglement issues. It is 
net pens that are used in protected shallow bays that are more 
inclined toward entanglement issues. There are innovative 
materials such as this new netting material, that is a rigid 
plastic material called Kikko Net, that are very unlikely to 
involve any entanglement at all. There are brass materials out 
there that are rigid that would not involve entanglement.
    So on any number of these issues, the other issues of 
escape and effluent water quality, I think the industry has 
made tremendous advances over the last few years. There are 
more advances to be made. And that is why I would urge caution 
about being too prescriptive in the legislation. Let us allow 
some flexibility and some adaptive management in the 
regulations.
    Mr. Brown. Are you using basically the same amount of 
inventory every year, is your output basically the same, or are 
you growing your operation?
    Mr. Sims. We had applied to the State of Hawaii for permits 
to expand our operation. And that met with some objections from 
some people in the local Hawaiian community. And so we sought 
to expand at the moment in Mexico. We currently are moving 
forward with expansion down in the Sea of Cortez. That is both 
because the Mexican government is very encouraging of growth in 
this industry, but it is also because then we would be able to 
drive our fish up across the border into LA rather than having 
to fly it.
    The carbon footprint for growing our sashimi grade product, 
it demands a premium, it is fresh, and we are growing it on the 
most isolated archipelago on the planet. Every time we put it 
on a plane it costs us about $1.80 a pound to get it to market. 
And so we need to be able to move our operations closer to the 
market. I tried to make the argument to my board, to our 
investors, that we should be applying for a permit in state 
waters under the California legislation, and they said, 
absolutely not, Neil. Why would you do that, why would we set 
ourselves up for the lawsuits that were involved in that?
    Mr. Brown. Have you looked at South Carolina?
    Mr. Sims. I have looked at the Eastern Seaboard, 
Congressman. And it is attractive, there are some concerns 
there because of the Gulf Stream. And so the technology that we 
have at the moment is not appropriate to all locations, but 
this is where American innovation can come into play. This is 
what America does best, that is why people with funny accents 
such as mine come to this country, because America encourages 
innovation and can resolve these challenges.
    Mr. Brown. Well, I just thank you very much for your 
ingenuity and persistence. I think it is certainly a viable 
process and that we have to find some solution to 80 percent 
imports. Thank you very much. Thank you, gentlemen, for all 
your input. It has been very interesting.
    Ms. Bordallo. I thank the Ranking Member.
    I would like to recognize the Representative from New 
Hampshire, Carol Shea-Porter.
    Ms. Shea-Porter. Thank you, Madam Chairwoman. You know, 
listening to this reminds me of the debate that they have on 
land when they talk about large chicken farms and large pig 
farms and the waste and the runoff and the inability for 
smaller farmers to compete. And you naturally have sympathy for 
both groups because we understand that the smaller private 
fishermen or fisherwomen who are trying to make a living for 
their families and have been at it for so many years are 
getting pushed and are getting squeezed. And yet we also 
recognize there is some need to increase the amount of food.
    However, having said that, I am listening and I would have 
to actually disagree with you, Mr. Sims, because you said, just 
put everybody in a room together and you can work it out and 
find some kind of compromise if I am quoting you correctly. And 
there does not seem to be a lot of room for compromise here. So 
not to play one against the other, but I was going to ask Mr. 
Alverson and you to talk to me about where you think you both 
find common agreement and where you are disagreeing with one 
another, because what I am hearing from Mr. Alverson's 
testimony is that this concern about genetic modification, and 
I wondered if you had some concern about that too.
    Mr. Sims. Absolutely, Congresswoman. I would not support in 
any sense----
    [Away from microphone.]
    Ms. Shea-Porter. OK, have you spoken out against it or has 
your industry spoken out against that?
    Mr. Sims. Yes, that has always been the Ocean Stewards' 
position. And I think to address your question about whether we 
can reach a compromise, I think that the Hawaii ocean leasing 
legislation represents a good compromise. I think that the 
draft legislation that was moving around the Senate committee 
at the last Congress represented a good compromise. And Dr. 
Leonard and a number of others both from industry and from the 
environmental community spent a lot of time poring through that 
draft legislation, and we found common ground pretty much 
everywhere except for a couple of sticking points that George 
and I need to arm wrestle over still, duration of permits and 
the liability provisions.
    Ms. Shea-Porter. OK. Mr. Alverson, do you think there is 
room for compromise that Mr. Sims is suggesting?
    Mr. Alverson. Madam Chairwoman, I am glad to hear his 
comments about his concern for genetically modified fish. In 
our written testimony we indicated that Aqua Bounty Sea Farms 
is about to receive from Food and Drug the approval to have a 
fish that is a cross between the chinook and a smaller salmon, 
the Atlantic salmon. And those type of concerns greatly bother 
us on the West Coast, and I am glad to hear that he has similar 
concerns.
    In regards to growing the market for the aquaculture 
industry and keeping parity with the wild fish industry, I 
would point out that we provide a huge market for this 80 
percent, and we provide it freely without restrictions to these 
foreign countries, Canada, Thailand, Vietnam. And their 
environmental standards, we would go to jail, we would have our 
fishing rights taken away from us if we behaved in the same 
manner.
    If we went out and shot marine mammals and got caught doing 
that, those are the types of restrictions that Dr. Balsiger 
would have to have his people come after us. In any legislation 
that goes forward for the protection of U.S. aquaculture and 
U.S. wild fish fishermen, the Secretary should be able to 
impose some sort of sanction or make it publicly known that 
certain aquaculture operations and their products coming into 
the U.S. market do not meet the standards----
    [Electronic interference.]
    Ms. Shea-Porter.--and how you all come under that fairly 
rigid Federal observer program, and would like to see the same 
thing happen I think to Mr. Sims. Mr. Sims, would you agree 
with that?
    Mr. Sims. Absolutely, Congresswoman. We have encouraged 
members of the environmental community, we have offered the 
same invitation that I offered here this afternoon to the 
environmental community because we believe that bringing people 
onto the farm site and letting them see what we are doing helps 
to change minds.
    Ms. Shea-Porter. Do you speak for your industry, do you 
think, is that the common thought that they want to see that 
same kind of Federal?
    Mr. Sims. Yes, Congresswoman. Transparency is very 
important to us because we realize that there is a lot of 
misinformation out there, and the truth really will set us 
free.
    Ms. Shea-Porter. OK. And then I wanted to talk a little bit 
about the waste. You said that a quarter to half of the dry 
feed ends up as feces. And what would you say to that, Mr. 
Sims, how would you solve that?
    Mr. Sims. I am not sure about what the term `ends up as 
feces,` but any feed that is that inefficient, the feed 
manufacturer would very quickly go out of business. The whole 
point of providing a compound pellet diet for when you are 
culturing fish is that it is very efficiently assimilated, that 
it is very efficiently digested. And you are paying good money 
for the feed, you want to make sure that feed is transferred 
into marketable sashimi.
    Ms. Shea-Porter. And yet we have seen problems on corporate 
farms in spite of what you are talking about, on land farms we 
have seen problems with chickens and pigs et cetera. So that is 
your philosophy, but do you think you actually could control 
that as an industry? And Mr. Alverson, do you think they could 
control that as an industry?
    Mr. Sims. I think control is the wrong word, Congresswoman. 
I think that the very nature of an open ocean mariculture 
operation is very different from a concentrated feed lot where 
you have a single effluent point. The appropriate way to do 
open ocean mariculture is to space your net pens out widely so 
that you are working within the assimilative capacities of the 
ecosystem so that you do not have any significant impact on 
water quality or on the substrate underneath. And that is the 
beauty of being able to move out into open ocean, into deeper 
water, because then the potential to spread out further, you 
are having less impact on other competing uses, and you have 
less ecological footprint.
    Ms. Shea-Porter. Mr. Alverson?
    Mr. Alverson. I think the spacing is an extremely important 
issue. And in my testimony I pointed out our concern of 
aquaculture pens over the continental shelf. On the West Coast 
we have a fairly narrow shelf, anywhere from 80 to say 40 miles 
in breadth in southern California. So that leaves about 160 to 
120 miles for potential aquaculture operations. And the problem 
that we have seen in the Pacific Northwest is where you have 
very enclosed, shallower habitat where these fish farms are 
put. So if they can go deeper and be better spaced, I think 
those are two issues that should be part of any future 
consideration for permitting.
    Ms. Shea-Porter. Thank you. And my last question has to do 
with the fact that I read that Americans actually prefer 
carnivorous fish, and so that means they will not be eating all 
the vegetarian material that you suggested but rather they 
would be working through the food chain. And how would you take 
care of that problem?
    Mr. Sims. I am sorry, Congresswoman, that question was 
directed to me?
    Ms. Shea-Porter. Yes, both of you. Because what I am seeing 
here is, are we actually producing more protein than we are 
using up? And I think that has been part of the debate there, 
how much new food are we actually creating?
    Mr. Sims. Congresswoman, I would like to correct the use of 
the term `carnivorous`. Our fish don't need to eat meat, they 
are just carbohydrate intolerant. They like to eat a diet that 
is high in proteins and oils. And they are not particularly 
fussy where that comes from so long as it is the right balance 
of amino acids and fatty acids. And so this is why we are able 
to use agricultural grains and other agricultural proteins and 
oils, we can connect the heartland with America's EEZ.
    This is a great opportunity for soybean, canola, wheat, 
corn, and other sustainable agricultural proteins and oils. We 
cannot then become a net protein producer, but we are able to 
get in terms of marine proteins we are able to get very close 
to one to one. But then it is just a choice of, would people 
prefer to eat anchovies or would they prefer to eat Kona 
Kampachi sashimi.
    We are actually in Kona a couple of days ago we started 
some trials with a new diet that for its marine proteins and 
oils uses solely byproducts from tuna and squid fisheries. And 
so it uses no forage fishery fishmeal or fish oil. This is what 
we would term a zero fish in to fish out ratio, so it is all 
bonus marine proteins and oils.
    Ms. Shea-Porter. Would that satisfy Mr. Alverson?
    Mr. Alverson. Well, I am not sure exactly what he said, but 
if forage species are going to be allowed to be used for feed 
and they come out of our EEZ, they need to be in compliance 
with that extraction of our ABCs that are set through our 
council process. As for the American palate not potentially 
liking carnivorous fish, I think the answer to that is a good 
Julia Child's French sauce, and that would help things a lot I 
think.
    Ms. Shea-Porter. Thank you. And I yield back. Thank you.
    Ms. Bordallo. Thank you very much.
    The Chair now recognizes Congressman Cassidy from 
Louisiana.
    Mr. Cassidy. Dr. Leonard, you had said that recent 
developments suggest there is an imminent threat, and I presume 
you are speaking about the Gulf of Mexico management plan. And 
yet the gentleman from NOAA clearly stated this is a work in 
progress, and as I read through the plan, it basically says, 
this isn't going to happen unless NOAA signs off.
    And in this, the preferred alternatives, which I gather 
will be the guidelines by which permitting is done, say that it 
has to comply with pesticides and with water quality and 
environmental concerns et cetera, taking into account the 
native species, it can only be native species. All these other 
things that seem to I think address your concerns. So why would 
this be the imminent threat that you describe?
    Dr. Leonard. I was referring really to three issues, but 
certainly the Gulf Council is the most recent. It is certainly 
true that there will not be fish farms tomorrow, but in terms 
of the continuation of the development of the regional approach 
to this under the Magnuson Act, that is a fishing law, to try 
to control aquaculture, the tacit approval by NOAA and the 
Department of Commerce a week or so ago clearly moves that 
process forward.
    Mr. Cassidy. Now, they made the point that if they had not 
tacitly approved it, permitting could have taken place. Indeed, 
by tacitly approving this, this remains their jurisdictional 
prerogative to, if you will, forbid some practices.
    Dr. Leonard. Sure, but the FMP now stands as law, and 
because it fits under the Magnuson Act, there are now 
requirements under Magnuson to develop regulations. So they may 
decide to defer that, but the process is clearly continued. So 
we view that as another step in the wrong direction if you 
will. I think the other two aspects was, as I mentioned, the 
Hub SeaWorld Institute is proposing developing a farm off of 
California. It is a very different issue, but it would be the 
first farm in the water in Federal waters, and clearly is a 
precedent-setting action.
    And then the third I referenced was Hawaii Ocean 
Technologies is another company in Hawaii that is proposing to 
develop a new farm in Hawaii state waters. But what is unique 
about that is that rather than being attached to the bottom it 
would actually hover in the water column. There are some 
questions about whether that is technologically feasible, but 
if it turned out to be such, they could very easily move out 
into Federal waters. So I think all three of those combine to 
represent the sort of imminent threat.
    Mr. Cassidy. You mentioned the environmental impact, the 
deleterious environmental impact. Mr. Sims in his written 
testimony says much of this is based upon the problems with 
salmon fishing, which is in closed water not open water. 
Indeed, when you spoke of the negative environmental impact, 
you specifically spoke of salmon. He says that the effluent, if 
you will, from his is just as clean as the influent. The 
upstream and the downstream are of similar water quality. So is 
it true that the concerns are based upon salmon, which is 
frankly a different model, than the open water such as Mr. Sims 
is conducting?
    Dr. Leonard. First, the largest body of scientific 
information on the environmental risks has emerged from the 
salmon farming industry, precisely because it is the largest 
global marine fin fish open net pen industry, right? So there 
is often a lot of criticism that that literature doesn't apply 
to the open ocean. But I would argue that because many of these 
impacts are essentially basic functions of how ecology works, 
about how marine ecosystems and animals function, we should 
expect that those risks would also be relevant to the open 
ocean.
    Now, the question then becomes what is the relative 
magnitude of those risks? Which are the big ones to be 
concerned about and which are the low ones to be concerned 
about? Along that list, I actually think that the nutrient 
effluent issue is probably the least important. It is certainly 
true that there is more dilution in ocean waters, that is 
pretty basic. At the same time there is new science that 
suggests that some of the dilution as the solution ideas that 
are often portrayed are in fact scientifically inaccurate, 
there is some new work that suggests that nutrient effluents 
from fish farms actually hold together much more than was 
anticipated.
    Mr. Cassidy. But does the fact that his water quality is 
the same downstream as upstream suggest that they have a very 
efficient process? You put food in, the fish absorbs it, and 
the fecal material is, whatever, there is no difference is what 
he said. Either we challenge that or we accept it.
    Dr. Leonard. Sure, and part of that I think--I mean, this 
is actually an interesting area where actually I think there 
could be some really interesting collaboration between the 
aquaculture industry and some of the findings that are emerging 
using the current sampling technology and some of the new 
science that is using a more sophisticated hydrodynamic model 
with a lot of complex math associated with it, which suggests 
there is a mismatch there. And so that is actually an area in 
which if we apply some of the new science we might get a better 
understanding of what those impacts are.
    Mr. Cassidy. Madam Chairman, may I extend my remarks just 
for one more question?
    Ms. Bordallo. You may.
    Mr. Cassidy. Mr. Hinman, as I was reading your testimony, I 
was a little confused because on the one hand you mentioned 
concerns over the forage fish such as menhaden, we call them 
pogies back home, being harvested to such an extent that they 
are not available for higher in the food chain, and yet pogies 
or menhaden are part of what is being farm fished, if you will, 
in aquaculture.
    There is a proposal off the Louisiana coast, I don't know 
if it will ever come into being, where they would take our dead 
zone where the Mississippi River is putting all the nitrogen 
rich material from farms in the Missouri Valley out into the 
Gulf, and use that as the feed stock for the algae which would 
be the feed stock for the pogies which would be the feedstock 
for something else. It almost seems that you answer your issue 
in your own testimony. If you grow the pogies, then you in turn 
have the pogies to feed to the larger fish and thereby you 
mitigate the ill effects of harvesting the pogies. Does that 
make sense?
    Mr. Hinman. I am not aware of this operation you are 
talking about.
    Mr. Cassidy. Well, it is not to scale yet, it is only 
theoretical.
    Mr. Hinman. A hatchery to produce menhaden, but that does 
not alleviate my concerns. If you are suggesting that we can 
farm our own forage fish, then use them to produce feed for 
other farmed fish, that this is somehow an answer to the 
problems that are going on in the ocean, my response would be 
that all these things I hear about potential remedies or best 
practices that are going on in some of the fish farms where, 
well we don't feed our fish fishmeal, we feed them vegetarian 
diets, we don't have waste problems, the fact is that in most 
operations they do feed their fish fishmeal.
    They do take them out of the wild and put them in pens, 
they do have waste problems, they do have these other 
environmental problems. And at the same time we are being told 
by industry that we can do these things, this is what is 
possible, we can alleviate those problems, but it is almost, 
trust us because we don't want you to be prescriptive, we don't 
want you to tell us how to run our business.
    And the fact is that just leaving these things up to 
markets, the markets to supply what we are going to feed our 
fish, is leaving it up to prices and availability, and that is 
not going to be enough to protect these forage fish 
populations, but have to put rules into place that limit. And I 
assume you would support that then, you would support a 
regulation in the Gulf plan that did not allow them to use wild 
caught menhaden as fish feed in fish farms in the Gulf.
    Mr. Cassidy. Well, I think what I have gathered here are 
two things. What I have gathered here is that you can't 
mitigate some of the ill effects. That I have learned from the 
gentleman from California, Mr. Sutton, that the sardine 
population has come back in California with appropriate 
regulation, and Mr. Sims said something which, so even though 
it is being harvested to feed to these ranch farms.
    And what Mr. Sims said I also found interesting, that when 
the fish are caught by commercial fishermen, I am by the way I 
am agnostic on this legislation, I am just trying to understand 
it, when they are caught there is a great deal of waste. So 
some fish are too small, some are too big, so you discard those 
and you are left with those that can actually go to market, 
whereas they can have more of a uniform product so therefore 
you have greater efficiency. And I could actually see that. So 
the status quo could potentially be improved upon. Are you 
denying there would be any potential advantage of the 
aquaculture as opposed to the current status quo?
    Mr. Hinman. I would repeat what Mr. Sutton said this 
morning, and in response to the question about the sardine 
fishery and the fact that sardine have come back but that is 
totally separate from the issue of where sardine are going 
today, which is primarily exporting to fish farms.
    Mr. Cassidy. But apparently they can coexist.
    Mr. Hinman. We don't know that at this time. Right now, the 
question is, are you allocating the sardines to fish farms to 
feed other fish, are you allocating, and he mentioned the other 
as to human consumption, and the third one left out was 
allocating them to the ecosystem. And there are a lot of 
predators on the West Coast that are showing predator 
deficiencies in their diet.
    Mr. Cassidy. So even though there are an adequate number of 
sardines, nonetheless, we may blame the decrease in predator 
fish population upon the sardine population even though there 
is an adequate population of sardines? I don't follow the 
logic.
    Mr. Hinman. There may not be an adequate population of 
sardines, that is the issue.
    Mr. Cassidy. So Mr. Sutton would be wrong on that?
    Mr. Hinman. No, he said they came back. They were one of 
the most depleted resources.
    Mr. Cassidy. I see.
    Mr. Hinman. In the last century they almost disappeared. He 
said they came back, and they can sustain a fishery at this 
point. But we don't know if we are leaving enough of those in 
the water to sustain predators on the west coast. And we are 
now taking them out of the ecosystem and putting them in to 
feed other fish. But you asked me the question of whether I 
thought there is a place for aquaculture or whether I thought 
we didn't need it.
    My concern is that if it is just a zero sum game where we 
are replacing wild fisheries with farmed fish, I would have to 
question what we are doing and what really is the net benefit 
of that. I think if we are going to have a lot of losses in 
jobs and a lot of losses in the wild fisheries and we are not 
going to get really an increase in actual food for the 
population, what we are going to get is just a change in the 
ocean and the means of production. And I think Mr. Sims 
actually described that future where he thinks that is a better 
way to utilize the ocean to produce fish.
    And I think that is what you see in a lot of concern about 
people is that we are going to greatly impact our wild 
fisheries whether it is directly by squeezing them out, as the 
Congresswoman from New Hampshire mentioned we have done to so 
many of the smaller farmers, or whether it is indirectly by 
taking things out of the ecosystem and putting them into farms 
and then denying other fisheries, other predators, what they 
need. So we have to be very careful about that.
    Ms. Bordallo. Thank you, thank you very much. I have a 
question myself, and Mr. Brown the Ranking Member and I have 
conferred, and we would like a quick answer to this question. 
So I am going to have Mr. Brown ask the question.
    Mr. Brown. I would just like to ask one quick question, Mr. 
Sims. I know you are contemplating I think you said moving 
either your operation or starting a new operation in Mexico, 
the waters of Mexico. What is the permitting timeline in 
Mexico?
    Mr. Sims. Congressman, in Mexico, they have a number of 
fish farm leases that were established back six or seven years 
ago as tuna ranches both in around Ensenada and down and around 
La Paz. Most of those lease areas sit idle because, big 
surprise, they can't catch the tuna anymore. And so we were 
able to go down there and look at these available leases that 
were already permitted and say, we have a hatchery technology 
here that we can produce the fingerlings to stock pens here, 
would that be of interest to you?
    And the response was an overwhelming resounding yes. It is 
not to say there aren't environmental regulations or 
requirements that we still have to meet there for ongoing 
monitoring and if we wanted to go and expand, we would have to 
go and go through the same permit process. But the current 
situation there is that the government is very welcoming, there 
are existing leases.
    Mr. Brown. How long will it take? How long will it take you 
to get in operation? How long will it take you to begin 
operations?
    Mr. Sims. We already have a lease there at the moment, 
Congressman, that we have acquired from another company.
    Mr. Brown. I understand, but so how long will it take you 
to develop that into some production?
    Mr. Sims. We have fish in our hatchery in Kona now that in 
a month's time will be large enough that we will be flying them 
down to La Paz to start to stock into the net pens there.
    Mr. Brown. OK, thank you very much. I just think that it is 
a major concern of mine that we are importing 80 percent of our 
production and that production is going to rise as certain as 
the population of the United States increases plus the 
population of the world. I understand the fears and some of the 
concerns that we have. There are always concerns. We probably 
couldn't permit a corn patch today if we had to go through all 
the permitting processes to make that operate. We have to 
develop workable solutions, not road blocks. And I thank you 
very much. I thank everybody for their testimony. I hope that 
we can come to some consensus. Whether we get everybody in one 
room or not, we have to find a solution to this problem. Thank 
you.
    Ms. Bordallo. Mr. Sims, I am going to follow up on Mr. 
Brown's question because I think what he was trying to get is, 
you took up a lease, right? So there wasn't any time period. 
From the moment that you decided to continue the lease that was 
available to you and the time that you started operating, what 
was the timeframe there?
    Mr. Sims. It took us about a year to raise the financing 
for the expansion into Mexico.
    Ms. Bordallo. So that is your answer then, about a year.
    Mr. Sims. If I understand your question correctly.
    Ms. Bordallo. Yes, from the time that you contacted, were 
interested in Mexico, they had leases available, you applied 
for the lease, you got your operation organized, so it took 
about a year, is that correct?
    Mr. Sims. That is about the best estimate, yes, 
Congresswoman.
    Ms. Bordallo. All right, thank you. Well, I want to thank 
all of the witnesses for their participation in the hearing 
today. Members of the Subcommittee may have some additional 
questions for you, and we will ask you to respond to these in 
writing. In addition, the hearing record will be held open for 
ten days for anyone who would like to submit additional 
information for the record.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the Members of the Subcommittee and 
our witnesses for their participation here this morning and 
this afternoon. The Subcommittee stands adjourned.
    [Whereupon, at 12:50 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Congresswoman Lois Capps 
follows:]

  Statement of The Honorable Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you, Madame Chairwoman, for holding this hearing to discuss 
the important issue of offshore aquaculture. Thank you also to all of 
our esteemed witnesses for traveling here today to testify.
    In January of this year, the Gulf of Mexico Fishery Management 
Council adopted a fishery management plan to establish a permitting 
system for offshore aquaculture. And just last week NOAA took the 
unusual step of making no active decision on the plan, allowing the 
plan to enter into effect.
    I believe this sets a dangerous precedent, where aquaculture is 
regulated on a case-by-case basis, with an inconsistent application of 
regulations and standards. This piecemeal approach lays the groundwork 
for a fragmented regulatory system for offshore aquaculture in the 
United States that could result in significant and potentially 
irreversible environmental consequences, including water pollution from 
waste products and chemicals, threats of disease transmission to wild 
fish populations, harmful effects on native marine species from escaped 
farmed species, and an increase in the use of wild forage fish for 
aquaculture feeds.
    The enactment of the Gulf of Mexico Fisheries Management Plan, 
coupled with the ever-increasing stress on our fisheries and marine 
ecosystems, makes it clear that the time for action is now. We must 
establish an overarching, federal regulatory system for offshore 
aquaculture that includes standardized, precautionary measures to 
protect the environment and coastal communities.
    In my home state of California, we have enacted a bill that I 
believe can serve as a model to inform our process on the federal 
level. The California bill, SB 201, is neither hostile to, nor 
supportive of, offshore aquaculture. Instead, the intent of the bill is 
to make sure we do aquaculture right, with the idea that this can only 
be helpful to the industry and ensure that we protect the environment 
and the public's health.
    I am not here today to say no to offshore aquaculture. If done 
right, offshore aquaculture can help alleviate pressure on wild 
fisheries and create jobs in the U.S. And I pledge today to work with 
constituencies, the Administration, and my colleagues in Congress to 
ensure that we have a bill that makes sure we do offshore aquaculture 
right.
    But I also want to emphasize that a good offshore aquaculture 
policy is no substitute for good fisheries management. If we are going 
to protect our oceans for future generations, we must be constantly 
vigilant and take a comprehensive approach--an approach that is not 
just focused on one industry or one species, but considers the entire 
ecosystem as a whole.
                                 ______
                                 
    [A letter submitted for the record by John R. MacMillan, 
Ph.D., President, National Aquaculture Association, follows:]

[GRAPHIC] [TIFF OMITTED] T2311.006

[GRAPHIC] [TIFF OMITTED] T2311.007

                               ------                                


    [A list of documents retained in the Committee's official 
files follows:]
    <bullet>  Cufone, Marianne, Esq., Director, Fish Program, Food and 
Water Watch. Letter to members of the Subcommittee on Insular Affairs, 
Oceans and Wildlife regarding: Oversight Hearing on Offshore 
Aquaculture, September 9, 2009.
    <bullet>  Flynn, Elleen. Letter submitted for the record on behalf 
of Food and Water Watch. ``Recirculating Aquaculture System'' Brochure.
    <bullet>  Food and Water Watch. ``Fish Farms Updates'' Brochure.
    <bullet>  Food and Water Watch. ``Water Usage in Recirculating 
Aquaculture/Aquaponic Systems'' Fact Sheet.
    <bullet>  Food and Water Watch. ``Commercial Facility Based on the 
University of the Virgin Island's Aquaponic System'' Fact Sheet.
    <bullet>  Food and Water Watch. ``Fishy Farms: The Problems with 
Open Ocean Aquaculture'' Report.
    <bullet>  Food and Water Watch. ``Kona Blue's Ocean Aquaculture: 
Marketing the Myth of Sustainability'' Fact Sheet.
    <bullet>  Food and Water Watch. ``Ocean Fish Farming'' Fact Sheet.
    <bullet>  ``Feeding Aquaculture in an Era of Finite Resources'' 
submitted for the record by Ken Hinman, President, National Coalition 
for Marine Conservation
    <bullet>  Senate Joint Resolution No. 18 (State of California) 
submitted for the record
                                 ______
                                 

    [A letter submitted for the record by Robert B. Rheault, Ph.D., 
Executive Director, East Coast Shellfish Growers Association, follows:]

[GRAPHIC] [TIFF OMITTED] T2311.008

[GRAPHIC] [TIFF OMITTED] T2311.009

                                 __
                                 
    [A letter submitted for the record by Scientists, Fisheries 
Managers, and Industry Representatives, follows:]

September 17, 2009

The Honorable Madeleine Z. Bordallo
Chair, Subcommittee on Insular Affairs, Oceans and Wildlife
Natural Resources Committee
U.S. House of Representatives
427 Cannon HOB
Washington, D.C. 20515-5301

The Honorable Henry E. Brown
Ranking Member, Subcommittee on Insular Affairs, Oceans and Wildlife
Natural Resources Committee
U.S. House of Representatives
103 Cannon HOB Washington, D.C. 20515-5301

Dear Members:

    We write as concerned scientists, fisheries managers and industry 
representatives regarding the September 9th, 2009, Subcommittee on 
Insular Affairs, Oceans and Wildlife hearing on Offshore Aquaculture. 
We request that this letter be included in the Official Record.
    First, we applaud the Subcommittee for recognizing the urgency and 
importance of addressing the issues surrounding the development of 
sustainable offshore aquaculture. As noted, over 80% of the seafood 
consumed in the United States is imported and approximately half of 
those imports come from aquaculture. Worldwide, aquaculture is a $70 
billion per year industry of which U.S. aquaculture production is $1.2 
billion annually or just 1.5% of total worldwide production. If the 
status quo remains, the United States will continue to increase its 
imports from foreign sources, many of whom may not share our 
conservation ethics and environmental concerns. Another consequence of 
depending on seafood imports is the continued loss of U.S. jobs and the 
opportunities to develop the future of America's working waterfronts. 
We agree with the Subcommittee that a comprehensive national offshore 
aquaculture regulatory framework providing certainty with the world's 
best environmental standards is needed.
    We concur with the testimony of Dr. James Balsiger, NOAA Acting 
Administrator for Fisheries who recognized the rising worldwide demand 
for seafood, the inability of our capture fisheries to expand to meet 
that demand, and the potential for domestic aquaculture to help meet 
those needs. Dr. Balsiger also noted that the Subcommittee has 
recognized that the development of U.S. aquaculture must not occur at 
the expense of the marine environment or native fish and shellfish 
populations. In summary, Dr. Balsiger noted that ``aquaculture can 
provide safe and nutritious seafood supplies to complement commercial 
fisheries; to create jobs in U.S. coastal communities; and maintain 
working waterfronts.''
    We are aware of all the issues raised about aquaculture at the 
hearing. Indeed, we have been working on them for many years. 
Fortunately, the latest scientific data reflects that significant 
progress has been made. The technological advances of the last 30 years 
have addressed the known and projected environmental concerns. Our 
understanding has advanced with the results of research supported by 
the Federal, State and private research agencies in the United States 
as well as other countries. The U.S. aquaculture industry has adopted 
many of the technological advances as well as ``Best Management 
Practices.'' We will share all the latest information with you which 
demonstrates conclusively that all the perceived shortfalls of the 
aquaculture industry no longer exist.
    For additional insights, we urge the Subcommittee to look at the 
real world experience offered by the regulations and management 
practices that exist in the States of Maine and Washington. Washington 
has had a performance-based regulatory framework for both finfish and 
shellfish farming in existence for over 30 years which provides 
environmental safeguards and allows for adaptive management to address 
changing needs and scientific developments. The United States has a 
proven track record for environmentally sustainable and economically 
profitable finfish and shellfish farming in state waters; this should 
not be overlooked.
    We would welcome the opportunity to meet with the Subcommittee and 
representatives of environmental lobbying organizations to debate the 
pros and cons of the United States developing a comprehensive Offshore 
Aquaculture framework with strong environmental safeguards and 
standards. We believe that American scientists have led the world in 
investment in sustainable aquaculture research which has provided these 
safeguards, and it is time to move forward. The aquaculture products 
that we import and consume provide a wide contrast to American products 
as to both the level of environmental protection and consumer safety, 
yet these facts are never mentioned by the anti-aquaculture advocacy 
groups.
    The United States should look to the expansion of an 
environmentally sound domestic aquaculture industry to revitalize many 
of our coastal communities and economies, and provide a sustainable, 
safe and nutritious protein source.
    We look forward to meeting with you and being part of a national 
debate based on the latest and best available science to assist the 
Subcommittee in moving forward with a comprehensive Offshore 
Aquaculture framework. The development of a framework that is 
independent of the best available science will simply result in 
regulations that preclude the advancement of a sustainable industry, 
rather than increasing our domestic supply of seafood. This would 
further increase our reliance on imports and provide little social, 
economic or environmental benefits to the United States.
Respectfully yours,
Maine
Sebastian Belle, Ph.D.
Maine Aquaculture Association

New Hampshire
Elizabeth Fairchild
University of New Hampshire

Hunt Howell, Ph.D.
University of New Hampshire

Rich Langan, Ph.D.
University of New Hampshire
Rhode Island
Barry Costa-Pierce, Ph.D.
Professor of Fisheries & Aquaculture
University of Rhode Island
South Carolina
Mike Denson
South Carolina Department of Natural Resources
Marine Scientist
Florida
Dan Benetti, Ph.D.
University of Miami

William Hogarth, Ph.D.
University of Southern Florida
Dean, College of Marine Science
NOAA Asst Admin for Fisheries (retired)

Ken Leber, Ph.D.
Mote Marine Lab
Director, Center for Fisheries Enhancement

Kevan Main, Ph.D.
Mote Marine Lab
Director, Center for Aquaculture Research & Development
Mississippi
William E. Hawkins, Ph.D.
Director
Gulf Coast Research Laboratory
University of Southern Mississippi

Jeffrey Lotz
Professor and Chair of Coastal Sciences
University of Southern Mississippi

Tom McIlwain, Ph.D.
Professor Emeritus
Gulf Coast Research Laboratory
University of Southern Mississippi
Texas
Delbert M. Gatlin III
Professor and Associate Head for Research and Graduate Programs
University and Texas AgriLife Research Faculty Fellow
Department of Wildlife and Fisheries Sciences and
  Intercollegiate Faculty of Nutrition

Bob Stickney, Ph.D.
Professor,
Texas A&M University
California
Peter Collins
Professor of Endocrinology,
University of California, Santa Barbara

Mark Drawbridge
President,
California Aquaculture Association

Donald Kent
President,
Hubbs-SeaWorld Research Institute

Michael McCoy
Executive Director,
California Aquaculture Association

Raul H. Piedrahita, Ph.D.
University of California, Davis
Professor, Bio & Ag Engineering

Tony Schuur
Aquaculture Management Service
Washington
Peter Becker Ph.D.
Marketing Director
Little Skookum Shellfish Growers LLC
Chairman, Pacific Aquaculture Caucus

Ken Chew, Ph.D.
Professor Emeritus,
University of Washington

John Forster, Ph.D.
Forster Consulting, Inc.

Conrad Mahnken, Ph.D.
Aquatic Resources Consultants
Commissioner

Rollie Schmitten
Assistant Administrator, NOAA Fisheries (retired)

Dan Swecker
Washington State Senator
National
Betsy Hart
National Aquaculture Association

cc:  Department of Commerce Secretary Gary Locke
    Un der Secretary of Commerce for Oceans and Atmosphere and National 
Oceanic and Atmospheric Administration Administrator Jane Lubchenco, 
Ph.D.
    Ac ting Assistant Administrator for Fisheries James W. Balsiger, 
Ph.D.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
